\

•»

t

i

EXHIBIT

"

d/X A "

i

A

USCA11 Case: 20-14409

Date Filed: 03/30/2021

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-14409-E
JONATHAN GODWIN,
Petitioner-Appellant,
versus
SECRETARY, DEPARTMENT OF CORRECTIONS,
ATTORNEY GENERAL, STATE OF FLORIDA,
Respondents-Appellees.
Appeal from the United States District Court
for the Middle District of Florida
ORDER:
To merit a certificate of appealability, Jonathan Godwin must show that reasonable jurists
would find debatable both: (1) the merits of an underlying claim, and (2) the procedural issues that
he seeks to raise. See 28 U.S.C. § 2253(c)(2); Slack v. McDaniel, 529 U.S. 473, 478 (2000).
Because Godwin has failed to make the requisite showing, the motion for a certificate of
appealability is DENIED. His motion for leave to proceed on appeal informapauperis is DENIED
AS MOOT.
/s/ Robert J. Luck
UNITED STATES CIRCUIT JUDGE

«■

I'

rl,

EXHIBIT B

C ise 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 1 of 56 PagelD 516

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
JONATHAN GODWIN,
Applicant,
v.

CASE NO. 8:16-cv-2253-T-23SPF

SECRETARY, Department of Corrections,
Respondent.

ORDER
Godwin applies under 28 U.S.C. § 2254 for the writ of habeas corpus
(Doc. 1) and challenges his convictions both for robbery with a firearm and for false
imprisonment with a firearm, for which Godwin is imprisoned for life. Numerous
exhibits (“Respondent’s Exhibit _”) support the response. (Doc. 7) The respondent
admits the application’s timeliness (Response at 3, Doc. 7) but argues that some
grounds are unexhausted or procedurally defaulted.
I.

BACKGROUND1

On July 5, 2006, at 2:15 am Godwin and another man entered the “Pleasure
Time” lingerie modeling establishment and, while threatening with a firearm,
demanded money from the three women inside the business. One of the women

1 This summary of the facts derives from the state’s and Godwin’s briefs on direct appeal.
(Respondent’s Exhibits 2 and 3)

4

• Ase 8:16-cv-02253-SDM-SPF

Document 24 Filed 10/23/20 Page 2 of 56 PagelD517

attempted to flee but was captured. Godwin struck one woman in the face with the
firearm. When the women were unable to produce a key for the safe, one victim
offered her purse, which Godwin took and fled in a car.
The women called the police and provided a description of both the
robbers and the car. A few minutes later an officer stopped a car that matched the
description, and the two occupants matched the description of the assailants. During
a brief search of the car the officer found papers that displayed the name of one of the
victims, which name was provided in a radio transmission. Two of the victims were
transported to the cite of the traffic stop and positively identified Godwin and the
other occupant as the two assailants. About a week later the police searched the car,
which was secured in an impound lot, and beneath the rear seat an officer found a
firearm that matched the victims’ description of the firearm used in the robbery.
Despite the trial court’s repeated attempts to dissuade him, Godwin persisted
(

in proceeding pro se. Nevertheless, the trial court appointed stand-by counsel.2
Godwin moved under the Fourth Amendment to suppress evidence obtained from
the traffic stop. After an evidentiary hearing, the trial court denied the motion
to suppress.3 Although having earlier advised the trial court that the state would not
offer a plea bargain (the prosecutor represented that Godwin had prior convictions
for attempted first degree murder, robbery with a firearm, and burglary), the state

2 Both the trial court and the parties identified stand-by counsel as “ghost” or “shadow”
counsel.
3 The denial of the motion to suppress is the subject of ground one in this action.
-2-

5

dkse 8:16-cv-02253-SDM-SPF

Document 24 Filed 10/23/20 Page 3 of 56 PagelD 518

offered before voir dire to resolve all charges for the mandatory minimum sentence of
ten years’ imprisonment. The trial judge stated that he would both agree to that
sentence and grant credit for time served, but Godwin rejected the offer despite
knowing that he could receive life imprisonment. (Respondent’s Exhibits 7 at 85 and
11 at 26-28) Immediately after accepting the verdict and excusing the jury, the trial
judge (1) noted that Godwin had “absolutely terrorized” the three women,
(2) commented that “I don’t have a doubt in my mind that you did it — I don’t have
the first doubt — not after what I heard here,” and (3) sentenced Godwin to life
imprisonment because “you should not be out on the streets I don’t think ever again,
and I mean that.” (Respondent’s Exhibit 19 at 674-76) However, after realizing that
he had not again reviewed with Godwin his right to counsel at sentencing, the trial
judge appointed counsel to represent Godwin at a re-sentencing, which occurred a
few days later. At the re-sentencing the trial judge recalled (1) that a victim
experienced “absolute fear” of Godwin “when she broke down in tears” while
testifying under Godwin’s examination and (2) that Godwin “beat that woman about
the head and about the face with a firearmf, which] could have caused permanent
damage to her.” (Respondent’s Exhibit 11 at 242-43) The judge again sentenced
Godwin to life imprisonment. (Id. at 209 and 243)
H.

STANDARD OF REVIEW

The Anti-Terrorism and Effective Death Penalty Act of 1996 (“AEDPA”)
governs this proceeding. Wilcoxv. Florida Dep’t ofCorr., 158 F.3d 1209, 1210 (11th
Cir. 1998), cert, denied, 531 U.S. 840 (2000). Section 2254(d), which creates a highly
-3-

6

• 1se 8:16-cv-02253-SDM-SPF

Document 24 Filed 10/23/20 Page 4 of 56 PagelD 519

deferential standard for federal court review of a state court adjudication, states in
pertinent part:
An application for a writ of habeas corpus on behalf of a person
in custody pursuant to the judgment of a State court shall not
be granted with respect to any claim that was adjudicated on
the merits in State court proceedings unless the adjudication of
the claim —
(1) resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
established Federal law, as determined by the
Supreme Court of the United States; or
(2) resulted in a decision that was based on an
unreasonable determination of the facts in light
of the evidence presented in the State court
proceeding.
Williams v. Taylor, 529 U.S. 362,412-13 (2000), explains this deferential standard:
In sum, § 2254(d)(1) places a new constraint on the power of a
federal habeas court to grant a state prisoner’s application for a
writ of habeas corpus with respect to claims adjudicated on the
merits in state court. Under § 2254(d)(1), the writ may issue
only if one of the following two conditions is satisfied — the
state court adjudication resulted in a decision that (1) “was
contrary to ... clearly established Federal Law, as determined
by the Supreme Court of the United States” or (2) “involved an
unreasonable application of... clearly established Federal law,
as determined by the Supreme Court of the United States.”
Under the “contrary to” clause, a federal habeas court may
grant the writ if the state court arrives at a conclusion opposite
to that reached by this Court on a question of law or if the state
court decides a case differently than this Court has on a set of
materially indistinguishable facts. Under the “unreasonable
application” clause, a federal habeas court may grant the writ
if the state court identifies the correct governing legal principle
from this Court’s decisions but unreasonably applies that
principle to the facts of the prisoner’s case.
“The focus ... is on whether the state court’s application of clearly established
federal law is objectively unreasonable,... an unreasonable application is different

-4-

7

dLse 8:16-cv-02253-SDM-SPF

Document 24 Filed 10/23/20 Page 5 of 56 PagelD 520

from an incorrect one.” Bell v. Cone, 535 U.S. 685, 693 (2002). “As a condition for
obtaining habeas corpus from a federal court, a state prisoner must show that the
state court’s ruling on the claim being presented in federal court was so lacking in
justification that there was an error well understood and comprehended in existing
law beyond any possibility for fairminded disagreement.” Harrington v. Richter,
562 U.S. 86, 103 (2011). See White v. Woodall, 572 U.S. 415, 427 (2014) (“The critical
point is that relief is available under § 2254(d)(l)’s unreasonable-application clause
if, and only if, it is so obvious that a clearly established rule applies to a given set
of facts that there could be no ‘fairminded disagreement’ on the question....”)
(citing Richter)', Woods v. Donald, 575 U.S. 312, 316 (2015) (“And an ‘unreasonable
application of’ those holdings must be objectively unreasonable, not merely wrong;
even clear error will not suffice.”) (citing Woodall, 572 U.S. at 419). Accord Brown v.
Head, 272 F.3d 1308, 1313 (11th Cir. 2001) (“It is the objective reasonableness, not
the correctness perse, of the state court decision that we are to decide.”). The phrase
“clearly established Federal law” encompasses only the holdings of the United States
Supreme Court “as of the time of the relevant state-court decision.” Williams v.
Taylor, 529 U.S. at 412.
The purpose of federal review is not to re-try the state case. “The [AEDPA]
modified a federal habeas court’s role in reviewing state prisoner applications in
order to prevent federal habeas ‘retrials’ and to ensure that state-court convictions
are given effect to the extent possible under law.” Bell v. Cone, 535 U.S. at 694.
A federal court must afford due deference to a state court’s decision. “AEDPA
-5-.

8

dLse 8:16-cv-02253-SDM-SPF

Document 24 Filed 10/23/20 Page 6 of 56 PagelD 521

prevents defendants — and federal courts — from using federal habeas corpus review
as a vehicle to second-guess the reasonable decisions of state courts.” Renico v. Lett,
559 U.S. 766, 779 (2010). See also Cullen v. Pinholster, 563 U.S. 170, 181 (2011)
(“This is a ‘difficult to meet,’... and ‘highly deferential standard for evaluating
state-court rulings, which demands that state-court decisions be given the benefit of
the doubt’....”) (citations omitted).
When the last state court to decide a federal claim explains its decision in a
reasoned opinion, a federal habeas court reviews the specific reasons as stated in the
opinion and defers to those reasons if they are reasonable. Wilson v. Sellers,
138 S. Ct. 1188, 1192 (2018) (“[A] federal habeas court simply reviews the specific
reasons given by the state court and defers to those reasons if they are reasonable.”).
When the relevant state-court decision is not accompanied with reasons for the
decision, the federal court “should ‘look through’ the unexplained decision to the last
related state-court decision that does provide a relevant rationale [and] presume that
the unexplained decision adopted the same reasoning.” Wilson, 138 S. Ct. at 1192.
The State may contest “the presumption by showing that the unexplained affirmance
relied or most likely did rely on different grounds than the lower state court’s
decision . . . .” Wilson, 138 S. Ct. at 1192.
In a per curiam decision without a written opinion the state appellate court on
direct appeal affirmed Godwin’s convictions and sentence. (Respondent’s Exhibit 4)
Similarly, in another per curiam decision without a written opinion the state appellate
court both denied Godwin’s petitions alleging the ineffective assistance of appellate
-6-

9

cJLse 8:16-cv-02253-SDM-SPF

Document 24 Filed 10/23/20 Page 7 of 56 PagelD 522

counsel (Respondent’s Exhibits 24, 29 and 33) and affirmed the denial of Godwin’s
Rule 3.850 motion for post-conviction relief. (Respondent’s Exhibit 40)4 The state
appellate court’s per curiam affirmances warrant deference under Section 2254(d)(1)
because “the summary nature of a state court’s decision does not lessen the deference
that it is due.” Wright v. Moore, 278 F.3d 1245, 1254, reh’g and reh’g en banc denied,
278 F.3d 1245 (11th Cir. 2002), cert, denied sub nom Wright v. Crosby, 538 U.S. 906
(2003). See also Richter, 562 U.S. at 100 (“When a federal claim has been presented
to a state court and the state court has denied relief, it may be presumed that the
state court adjudicated the claim on the merits in the absence of any indication or
state-law procedural principles to the contrary.”), and Bishop v. Warden, 726 F. 3d
1243,1255-56 (11th Cir. 2013) (describing the difference between an “opinion” or
“analysis” and a “decision” or “ruling” and explaining that deference is accorded
the state court’s “decision” or “ruling” even absent an “opinion” or “analysis”).
As Pinholster explains, 563 U.S. at 181-82, review of the state court decision
is limited to the state court record:
We now hold that review under § 2254(d)(1) is limited to the
record that was before the state court that adjudicated the claim
on the merits. Section 2254(d)(1) refers, in the past tense, to a
state-court adjudication that “resulted in” a decision that was
contrary to, or “involved” an unreasonable application of,
established law. This backward-looking language requires an
examination of the state-court decision at the time it was made.
It follows that the record under review is limited to the record
in existence at that same time, i.e., the record before the state
court.

4 The appellate court subsequently issued a written opinion (Respondent’s Exhibit 41) to
explain its reasoning for the claim that is the basis for ground six, sub-ground one in this action.
-7-

.0

ise 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 8 of 56 PagelD 523

Godwin bears the burden of overcoming by clear and convincing evidence a
state court’s fact determination. “[A] determination of a factual issue made by
a State court shall be presumed to be correct. The applicant shall have the burden
of rebutting the presumption of correctness by clear and convincing evidence.”
28 U.S.C. § 2254(e)(1). This presumption of correctness applies to a finding of fact
but not to a mixed determination of law and fact. Parker v. Head, 244 F.3d 831, 836
(11th Cir.), cert, denied, 534 U.S. 1046 (2001). The state court’s rejection of Godwin’s
post-conviction claims warrants deference in this federal action. (Orders Denying
Motion for Post-Conviction Relief, Respondent’s Exhibits 46,48, and 50) Godwin’s
federal application presents the same grounds of ineffective assistance of counsel that
he presented to the state courts.
m.

INEFFECTIVE ASSISTANCE OF COUNSEL

Godwin claims ineffective assistance of counsel, a difficult claim to sustain.
“[T]he cases in which habeas petitioners can,properly prevail on the ground of
ineffective assistance of counsel are few and far between.” Waters v. Thomas, 46 F.3d
1506, 1511 (11th Cir. 1995) (en banc) (quoting Rogers v. Zant, 13 F.3d 384, 386
(11th Cir. 1994)). Strickland v. Washington, 466 U.S. 668 (1984), governs an
ineffective assistance of counsel claim, as Sims v. Singletary, 155 F.3d 1297, 1305
(11th Cir. 1998), explains:
The law regarding ineffective assistance of counsel claims is
well settled and well documented. In Strickland v. Washington,
466 U.S. 668,104 S. Ct. 2052, 80 L. Ed. 2d 674 (1984), the
Supreme Court set forth a two-part test for analyzing ineffective
assistance of counsel claims. According to Strickland,
-8-

.1

C ise 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 9 of 56 PagelD 524

First, the defendant must show that counsel’s
performance was deficient. This requires showing
that counsel made errors so serious that counsel
was not functioning as the “counsel” guaranteed
the defendant by the Sixth Amendment. Second,
the defendant must show that the deficient
performance prejudiced the defense. This
requires showing that counsel’s errors were so
serious as to deprive the defendant of a fair trial,
a trial whose result is reliable.
Strickland, 466 U.S. at 687, 104 S. Ct. 2052.
An applicant must prove both deficient performance and consequent
prejudice. See Strickland, 466 U.S. at 697 (“There is no reason for a court deciding
an ineffective assistance claim ... to address both components of the inquiry if
the defendant makes an insufficient showing on one.”); Sims, 155 F.3d at 1305
(“When applying Strickland, we are free to dispose of ineffectiveness claims on
either of its two grounds.”). “[CJounsel is strongly presumed to have rendered
adequate assistance and made all significant decisions in the exercise of reasonable
professional judgment.” Strickland, 466 U.S. at 690. “[A] court deciding an actual
ineffectiveness claim must judge the reasonableness of counsel’s challenged conduct
on the facts of the particular case, viewed as of the time of counsel’s conduct.”
466 U.S. at 690. Strickland requires that “in light of all the circumstances, the
identified acts or omissions were outside the wide range of professionally competent
assistance.” 466 U.S. at 690.
Godwin must demonstrate that counsel’s alleged error prejudiced the defense
because “[a]n error by counsel, even if professionally unreasonable, does not warrant

-9-

2

1

Cflse 8:16-cv-02253-SDM-SPF Document 24

Filed 10/23/20 Page 10 of 56 PagelD 525

setting aside the judgment of a criminal proceeding if the error had n
judgment.” 466 U.S. at 691. To meet this burden,

o effect on the

Godwin must show “a reasonable

probability that, but for counsel’s unprofessional errors.

the result of the proceeding
would have been different. A reasonable probability is a probability sufficient to
undermine confidence in the outcome.” 466 U.S. at 694.
Under Section 2254(d) Godwin must prove that the state court’s
decision “(1) [was] contrary to, or involved an unreasonable application of, clearly
established Federal law, as determined by the Supreme Court of the United States
or (2) [was] based on an unreasonable detennination of the facts in light

of the
evidence presented in the Sate court proceeding.- Sustaininga claim of ineffective
assistance of counsel is very difficult because “[t]he standards

created by Strickland
and § 2254(d) are both 'highly deferential.' and when the two apply in tandem,
review is ‘doubly’ so.” Richter, 562 U.S. at 105.

See also Pinholster, 563 U.S. 202 (An

applicant must overcome this '“doubly deferential' standard of Strickland <md the
AEDPA.”); Nance v. Warden, Ga. Diag. Prison, 922 F.3d 1298,

1303 (11th Cir. 2019)

( Given the double deference due, it is a ‘

rare case in which an ineffective assistance
of counsel claim that was denied on the merits i
m state court is found to merit relief
in a federal habeas proceeding.'”) (quoting Johnson v. Sec'y, Dep'tofC.
orr., 643 F.3d
907, 911 (11th Cir. 2011)), cert, denied, 140 S. Ct. 2520 (2020); and Pooler v. Sec’y,
Dep’tofCorr., 702 F.3d 1252, 1270 (11th Cir. 2012) (“Because we must view Pooler’s
ineffective counsel claim — which is governed by the deferential Strickland test —

-10-

.3

C|se 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 11 of 56 PagelD 526

through the lens of AEDPA deference, the resulting standard of review is “doubly
. deferential.”), cert, denied, 571 U.S. 874 (2013).
The state court summarily denied some of Godwin’s claims of ineffective
assistance of counsel (both before the state responded to the claims and after a
response) and denied other claims after conducting an evidentiary hearing. In
each instance the post-conviction court correctly recognized that Strickland go vems
a claim of ineffective assistance of counsel. (Respondent’s Exhibits 46 at 137, 48
at 161, and 50 at 364) Consequently, Godwin cannot meet the “contrary to” test in
Section 2254(d)(1). Godwin instead must show that the state court unreasonably
applied Strickland or unreasonably determined the facts. In determining
“reasonableness,” a federal application for the writ of habeas corpus authorizes
determining only “whether the state habeas court was objectively reasonable in its
Strickland inquiry,” not independently assessing whether counsel’s actions were
reasonable. Putnam v. Head, 268 F.3d 1223, 1244, n.17 (11th Cir. 2001), cert, denied,
537 U.S. 870 (2002). The presumption of correctness and the highly deferential
standard of review requires that the analysis of each claim begin with the state court’s
analysis.
Ground One:
Godwin challenges the admissibility of incriminating evidence discovered
following the stop of the car he was driving. Godwin asserts his claim as follows:
Petitioner’s Fourth and Fourteenth U.S.C.A. right against
unreasonable search and seizure under Terry v. Ohio. 392 U.S.
1 (1967), was violated by evidence obtained as a result of a stop
- ll -

.4

•

Ci se 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 12 of 56 PagelD 527

of Petitioner’s vehicle, where the information relied upon by
the stopping officer was not sufficient to justify the stop, and/or
where the stopping officer’s testimony regarding what he knew
and when he knew it was proven to be false and/or misleading.
Although as phrased above Godwin’s ground might contest the lawfulness of the
initial stop, Godwin conceded during the hearing on the motion to suppress that the
officer had probable cause to stop his car. (Godwin’s Exhibit H, Doc. 1-15 at 2-3)
Godwin stipulates in his application that he conceded the lawfulness of the stop.
“Petitioner conceded the stop based on the officers’ testimony in a strategic move to
strengthen his argument that the search exceeded the bounds of Terry.’’ (Doc. 1 at 5)
Consequently, in ground one Godwin challenges only the scope of the search, not
the lawfulness of the stop.
Godwin’s challenge is limited to the trial court’s pre-trial denial of his
motion to suppress the fruits of a search. Godwin cannot pursue a Fourth
Amendment claim in a federal court if he had an opportunity for a full and fanreview in the state court. “[W]e conclude that where the State has provided an
opportunity for full and fair litigation of a Fourth Amendment claim, a state prisoner
may not be granted federal habeas corpus relief on the ground that evidence obtained
in an unconstitutional search or seizure was introduced at his trial.” Stone v. Powell,
428 U.S. 465, 494 (1976). For the preclusion under Stone to apply, the state court

-12-

5

C; se 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 13 of 56 PagelD 528

must issue findings of fact, as Hem v. Florida, 326 F. App’x 519, 522 (11th Cir.
2009),5 explains:
A state does not afford a defendant a full and fair opportunity
to litigate the validity of a search under the Fourth Amendment
when the state courts fail to make essential findings of fact. In
Tukes v. Dugger, we addressed whether Stone foreclosed review
of the validity of a search when the defendant presented his
argument but the state courts failed to make findings of fact to
resolve that argument. 911 F.2d 508, 513-14 (11th Cir. 1990).
We concluded that the state courts had failed to afford the
defendant a full and fair opportunity to litigate the validity
of the search when they did not make findings of fact about
whether the defendant had invoked his right to counsel
or was in custody when he consented to the search of his
home. We stated, “The trial court’s failure to make explicit
findings on matters essential to the fourth amendment issue,
combined with the fact that the state appellate court issued only
a summary affirmance, precludes a conclusion in this case that
the state provided the meaningful appellate review necessary to
erect a Stone v. Powell bar to our review of the claim.” Id. at
514.
Godwin attached to his application a portion of the transcript of the pre-trial
motion to suppress during which the trial court issued the following findings of fact
(Godwin’s Exhibit A, Doc. 1-15 at 12—13):
I’ll make the following findings: That there was a robbery,
that the women stopped law enforcement, immediate BOLO
went out. The BOLO gave a description of a vehicle that’s
a General Motors type vehicle, 4-door. It was called an
Oldsmobile; it turned out to be a General Motors Cadillac.
There was probable cause to stop, as stated by Mr. Jonathan
Godwin. At the stop, Officer Trick found that the driver was
sweating profusely. He searched the vehicle. A plastic bag,
garbage type bag was seen. A second BOLO went out with the
name Katrina Winkler. It went out and the articles found in the
bag had the name of the Katrina Winkler. There was a cursory
search for a weapon. The people were removed from the
5 «

Unpublished opinions are not considered binding precedent, but they may be cited as
persuasive authority.” 11th Cir. Rule 36-2.
-13.6

O se 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 14 of 56 PagelD 529

vehicle. They were handcuffed, placed in the back of law
enforcement’s vehicles, separate ones. I find that there was
sufficient ground to search, that it was a valid legal search.
Although he proceeded pro se during both pre-trial and trial proceedings, Godwin
was represented by counsel on direct appeal, and the sole issue raised in the initial
brief challenged the trial court’s denial of the motion to suppress. (Respondent’s
Exhibit 3) The applicability of a bar from federal review under Stone is addressed in
conjunction with his claim of ineffective assistance of appellate counsel, which is
discussed next.
Sub-Ground One:
As a separate component of ground one, Godwin alleges that appellate
counsel rendered ineffective assistance by not ensuring that the record on appeal was
complete, specifically, appellate “counsel[ ] fail[ed] to supplement the record with the
trial court’s findings and rulings on the motion to suppress.” (Doc. 1 at 6) Godwin
exhausted this claim in his first petition alleging that he was denied the effective
assistance of counsel on appeal. (Respondent’s Exhibit 21, Claim 2)
Strickland governs a claim of ineffective assistance of appellate counsel for an
attorney’s representation in a state appellate court. Overstreet v. Warden, 811 F.3d
1283, 1287 (11th Cir. 2016). “The standards applicable to [a defendant’s claims of
ineffectiveness against trial counsel apply equally to the charges leveled against his
appellate lawyer.” Johnson v. Alabama, 256 F.3d 1156, 1187 (11th Cir. 2001), cert.
denied, 535 U.S. 926 (2002).

-14-

.7

k

Ci se 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 15 of 56 PagelD 530

Strickland, 466 U.S. at 690, explains that “strategic choices ... are virtually
unchallengeable.” Accord Nance v. Warden, Ga. Diag. Prison, 922 F.3d 1298, 1303
(11th Cir. 2019) (“[I]t is rarer still for merit to be found in a claim that challenges a
strategic decision of counsel.”), cert, denied, 140 S. Ct. 2520 (2020). Godwin admits
that his appellate attorney’s decision not to supplement the appellate record was a
strategic or tactical decision (1) by representing that counsel “was aware that the
record on appeal omitted the trial court’s factual findings and rulings to the motion
to suppress” and (2) by acknowledging that “[ajppellate counsel’s letter to Petitioner
shows that his failure to supplement the record with the trial court’s findings were
tactical.” (Doc. 13 at 6) In a letter sent to Godwin with a copy of the initial brief,
appellate counsel explains his reasoning for not supplementing the record as Godwin
had requested (Godwin’s Exhibit B, Doc. 1-6 at 2-3) (italics original):
Some thoughts on your case and this appeal[:]
There is only one issue that matters in your entire case: the
failure to suppress evidence as result of an unlawful stop.
Based on the testimony which you solicited from the witnesses,
everything else is harmless error.
• If the stop is unlawful — all evidence is suppressed,
including the identifications by the victims at the scene
of the stop, and this case would have never gone to trial.
The State cannot argue such to be harmless error.
• If the stop is good, all the evidence comes in: the
yellow bag and contents and the identifications at the
scene. Considering that through your own questions,
you actually introduced sufficient evidence to convict
yourself, the State can show any other error to be
harmless.

-15-

>‘

Ci se 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 16 of 56 PagelD 531

Thus, the stop is critical. However, you may have given away
this issue also:
•

In your motion to suppress the evidence, you argued
that the search of your person was illegal under Terry.
While that may be good law, nothing was found during
the search ofyourperson, and even in your motion, you
indicate you gave the officers permission to search your
car. Additionally, both cops at the scene testify you gave
permission to search the car.

•

At the beginning of the suppression hearing, you
conceded the issue: “The BOLO gave him probable cause
to stop my vehicle. ” (I. T. 166) (enclosed)

•

The BOLO incorrectly indicated you were in a dark or
black car, but during closing argument, you managed to
effectively “testify” that it may have looked blue depending
on lighting. (VI. T .640) (enclosed)

Your concession that the stop was legal (I. T .166), means that
the search incident to the stop was legal for two reasons: First,
you admit in your motion that you gave permission for the
search and two cops say you gave permission; Second, the
police would have been able to search the car subsequent to the
show-up ID by the victims. Either way, if the stop is legal, the
search becomes harmless. Having said that, your concession
may end up being the basis for a per curium affirmance.
Nonetheless, the bad stop argument is the only thing that can
win you a new trial.
Another problem: I had to make a tactical decision regarding
the record on this appeal. Basically, it is clear that the trial
court ruled against you because the evidence came in.
However, after you conceded the issue (above, I.T.87), the
trial court continued the motions hearing until another day —
thankfully without ruling. My decision was to not request the rest
ofthe hearing. Quite honestly, you did so much damage to your
case with your early arguments and in-artful cross-examination,
that I felt it in your best interest not to put more of your
argument regarding (or conceding) the unlawful stop before the
DCA.
The above explains that counsel’s foregoing supplementing the appellate
record was both a strategic or tactical decision and not an unreasonable decision.
-16-

.9

Case 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 17 of 56 PagelD 532

Moreover, appellate counsel was limited by Godwin’s persistence in proceeding
pro se and the resultant harmful errors by Godwin, as counsel expressed in his letter
to Godwin. See Chandler v. United States, 427 F.3d 1305, 1318 (11th Cir.2000) (en
banc) (“[EJvidence of a petitioner’s statements and acts in dealing with counsel is
highly relevant to ineffective assistance claims.”), cert denied, 531 U.S. 1204 (2001).
The per curiam denial of Godwin’s claim of ineffective assistance of appellate counsel
was not an unreasonable application of Strickland, and appellate counsel was not
ineffective even under a de novo review, to which Godwin asserts entitlement.
* ***

Under Stone, 428 U.S. at 494 (italics added), a state must provide “an
opportunity for full and fair litigation of a Fourth Amendment claim.” Godwin was
afforded a hearing on his motion to suppress, at which the trial court issued findings
of fact and at which Godwin was afforded the benefit of counsel on his direct appeal,
during which his counsel both challenged the denial of Godwin’s motion to suppress
and strategically chose not to supplement the appellate record. “If a state provides
the processes whereby a defendant can obtain full and fair litigation of a fourth
amendment claim, Stone v. Powell bars federal habeas corpus consideration of that
claim whether or not the defendant employs those processes.” Caver v. Alabama,
511 F.2d 1188, 1192 (5th Cir. 1978).6 See also Lawhom v. Allen, 519 F.3d 1272 (11th

6 Unless later superseded by Eleventh Circuit precedent, a Fifth Circuit decision issued
before October 1, 1981, binds this court. Bonner v. City ofPrichard, 661 F.2d 1206, 1207 (11th Cir
1981) (en banc).
-17-

!0

Cise 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 18 of 56 PagelD 533

Cir. 2008) (“[F]uU and fair consideration in the context of the Fourth Amendment
includes at least one evidentiary hearing in a trial court and the availability of
meaningful appellate review when there are facts in dispute

(internal

quotations omitted), cert, denied, 562 TJ.S. 907 (2010). Godwin had an opportunity
for a full and fair review in the state courts as required under Stone and, even if the
state court erred in its decision, the Stone bar still applies. Williams v. Brown,
609 F.2d 216,220 (5th Cir. 1980) (The Stone bar “still applies despite a state court
error in deciding the merits of a defendant’s [FJourth [AJmendment claim. ”).
Consequently, the Fourth Amendment claim is barred from federal review.
Ground Three:
Godwin alleges that the state violated his due process rights, as discussed in
Giglio v. United States, 405 U.S. 150 (1972), by “intentionally solicit[ing] and/or
fail[ing] to correct false and/or misleading evidence presented to the jury. ...”
(Doc. 1 at 11) Godwin bases his claim on the testimony by one of the victims,
Katrina Winkler. The state post-conviction court denied this claim as follows
(Respondent’s Exhibit 46 at 139-40) (record citations omitted) (brackets and ellipsis
original):
Defendant alleges that his Fourteenth Amendment Right
to Due Process under Giglio v. United States, 405 U.S. 150
(1972), was violated. He bases this claim on three specific
occurrences. First, Defendant claims that the State knowingly
allowed State witness Katrina Winkler to provide false
testimony that Defendant was the shorter of two men who
robbed her. Defendant argues that the State knew this
testimony was false or misleading because the criminal report
affidavits show that Defendant is five feet, eight inches tall,
while his co-defendant is five feet, five inches tall. Second,
-18-

1

Ci se 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 19 of 56 PagelD 534

Defendant argues that the criminal report affidavits show that
the co-defendant attacked State witness Katrina Winkler; and
not Defendant, contrary to her testimony. Finally, Defendant
argues that[J because Katrina Winkler was unable to identify
him in a photo line-up, her later in-court testimony is
misleading or false.
To establish a Giglio claim that the state intentionally deceived
or misled the defendant and the trier of fact by allowing false
testimony, it must be shown that: (1) the testimony given was
false; (2) the prosecutor knew the testimony was false; and
(3) the false testimony was material. Johnston v. State, 70 So. 3d
472 (Fla. 2011). In its response, the State argues that the mere
fact that a witness may have made conflicting statements does
not necessarily mean that her trial testimony was false. The
State goes on to note that the trial court addressed Defendant’s
complaint as to the inconsistency with the evidence of
Defendant’s height: “It’s not perjured testimony ... [t]hey may
think that you are the tall guy. That the short guy did it and the
short guy had the gun and you didn’t have a gun so you could
be a principal to be guilty of robbery with no firearm.” The
State also notes that the prior statements were available for
use during cross-examination, and that Defendant did raise
these matters at that time. The State argues that Defendant
has not shown that (I) the testimony given was false beyond
being inconsistent with some prior statements or (2) that the
prosecutor knew that the testimony was false. The State moves
to have this claim denied. The Court agrees with the State’s
argument.
Instead of proving falsity, Godwin shows only that the witness’s testimony
was inconsistent. Moreover, Godwin fails to show that the testimony was material.
Under Giglio, 405 U.S. at 154, false testimony is material “if‘the false testimony
could... in any reasonable likelihood have affected the judgment of the jury.’”
(quoting Napue v. Illinois, 360 U.S. 264, 271 (1959) (ellipsis original)). “In other
words, if there is a reasonable doubt about the effect of the false testimony on the
jury verdict, then it may be that there is a reasonable likelihood that the false
testimony could have affected the verdict.” Occhicone v. Crosby, 455 F.3d 1306, 1309
-19-

12

'*

G se 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 20 of 56 PagelD535

(11th Cir. 2006), cert, denied, 549 U.S. 1122 (2007). The allegedly false testimony had
no “reasonable likelihood” of affecting the verdict: the stop and search of Godwin’s
car was lawful; vicdm-Winkler’s papers were found inside of Godwin’s car; and two
of the victims positively identified Godwin as one of the robbers when the victims
were driven to where Godwin’s car was stopped. Godwin fails to meet his burden of
proving that the state court unreasonably applied Giglio.
Godwin also alleges (1) that the prosecutor violated Giglio by not disclosing
the BOLO recording until after the suppression hearing and (2) that the prosecutor
failed to correct the false testimony of Officer Trick about the description of the
vehicle as described in the BOLO. First, because the BOLO recording was released
to Godwin before trial, the information in the BOLO was available to cross-examine
Officer Trick regarding his inconsistent testimony from the suppression hearing.
Second, Officer Trick’s inconsistent testimony about the description of the vehicle in
the BOLO was not — as discussed immediately above — “material.”7
Lastly, Godwin alleges that two police officers gave conflicting testimony
about the procedures used for collecting, preserving, and releasing evidence, in other
words, a chain of custody. Godwin contends that one of the officers testified falsely.
First, the admissibility of evidence is a matter of state law generally not subject to

7 Godwin asserts this same issue as a claim under Brady v. United States, 373 U.S. 83 (1963),
and Agurs v. United States, 427 U.S. 97 (1976), which claim is discussed next as ground three,
sub-ground one.
-20-

>3

c|se 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 21 of 56 PagelD 536

federal review, as McCullough v. Singletary, 967 F.2d 530, 535-36 (11th Cir. 1992}
cert, denied, 507 U.S. 975 (1993), explains:
A federal habeas petition may be entertained only on the
ground that a petitioner is in custody in violation of the
Constitution or laws or treaties of the United States. 28 U.S.C.
§ 2254(a). A state’s interpretation of its own laws or rules
provides no basis for federal habeas corpus relief, since no
question of a constitutional nature is involved. Bronstein v.
Wainwright, 646 F.2d 1048,1050 (5th Cir. 1981). State courts
are the ultimate expositors of their own state’s laws, and federal
courts entertaining petitions for writs of habeas corpus are
bound by the construction placed on a state’s criminal statutes
by the courts of the state except in extreme cases. Mendiola v.
Estelle, 635 F.2d 487,489 (5th Cir. 1981).
Second, the prosecutor did not fail to disclose evidence, and the two officers were
subject to cross-examination about the conflicting description of the procedures for
collecting and preserving evidence. And third, the inconsistent testimony about the
procedures was not — as discussed above — “material.” Godwin is entitled to no
relief under ground three.
Ground Three. Sub-Ground One:
Godwin alleges that the state violated his due process rights, as delineated in
Brady v. United States, 373 U.S. 83 (1963), and Agurs v. United States, All U.S. 97
(1976), by not disclosing, before the suppression hearing, “favorable impeaching
evidence regarding the BOLO.” (Doc. 1 at 15) Godwin bases his claim on Officer
Trick’s testimony about the description of the car, which description was inconsistent
with the description provided in the recording of the BOLO.8 The post-conviction

As discussed in the immediately preceding footnote, Godwin also raised this issue as a
Giglio violation.
-21 -

!4

Case 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 22 of 56 PagelD 537

court both found this claim procedurally barred and denied this claim on the merits
as follows (Respondent’s Exhibit 46 at 162-63) (record citations omitted) (brackets
and ellipsis original):
Defendant alleges that his Fourteenth Amendment right to
due process under Brady v. Maryland, 373 U.S. 83 (1963)
was violated by the State’s failure to disclose favorable
impeaching evidence regarding a BOLO (be on the lookout
alert). Defendant alleges that Officer David Trick testified at a
pretrial hearing that he received a BOLO from Officer Gary
Felice for a large gray Oldsmobile, driven by two black males
and including a clothing description. However, after the pretrial
hearing, the State turned over a copy of the BOLO, which
included the following description: “A large, dark blue
Oldsmobile, a blue Oldsmobile, traveling eastbound on
Broadway Boulevard and Orient.” Defendant complains that
the State failed to provide the BOLO before the pretrial hearing,
where Defendant could have used it as favorable impeaching
evidence.
On September 21, 2006, Defendant filed a motion to suppress
a bank statement and papers on the grounds that “defendant
was unlawfully stopped and detained as a result of which the
evidence was discovered. In other words, Defendant was
stopped without any reasonable suspicion of (1) having
committed a criminal offense; (2) committing a criminal
offense; or (3) being about to commit a criminal offense.”
A hearing was held on October 20,2006, and the Motion was
denied on October 31, 2006. Defendant complains that he was
not given a copy of the BOLO recording until after the hearing
but prior to trial. Defendant alleges that there is a reasonable
probability, that had the evidence been disclosed to Defendant
in a timely manner, the result of the hearing would have been
different.
At the outset, this issue is procedurally barred since it should
have been raised on direct appeal. In fact, it appears that a very
similar issue was raised on direct appeal. Green v. State, 975 So.
2d 1090, 1105 (Fla. 2008); Robinson v. State, 707 So. 2d 688, 693
(Fla. 1998); Rosev. State, 675 So. 2d 567, 569 n. 1 (Fla. 1996).
As the state court suggested, Godwin, in fact, argued that — based on Officer
Trick s testimony and the BOLO — his rights under Giglio and Brady were violated
-22-

!5

C|se 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 23 of 56 PagelD 538

by the trial court’s denial of his motion to suppress. (Respondent’s Exhibit 4 at 3849) Consequently, the issue was procedurally barred from review in the state post­
conviction proceeding. Nevertheless, Godwin fares no better under a Brady due
process analysis in post-conviction review than he fared under a Fourth Amendment
search and seizure analysis on direct review. The post-conviction court rejected the
Brady claim on the merits as follows (Respondent’s Exhibit 46 at 163-64) (record
citations omitted) (footnote 4 omitted):
As to the merits, Brady requires the State to disclose material
information within its possession or control that is favorable
to the defense. Hunter v. State, 29 So. 3d 256 (Fla. 2008).
To establish a Brady violation, a defendant must demonstrate
that “(1) the State possessed evidence favorable to the accused
because it was either exculpatory or impeaching; (2) the State
willfully or inadvertently suppressed the evidence; and (3) the
defendant was prejudiced.” Alien v. State, 854 So. 2d 1255,
1259 (Fla. 2003) (citing Stickler v. Greene, 521 U.S. 263, 281-82
(1999)). Evidence is prejudicial under Brady if there is a
reasonable probability that had the evidence been disclosed,
the result of the proceeding would have been different. Jones v.
State, 998 So. 2d 573 (Fla. 2008). Thus, the proper inquiry is
whether the outcome of the motion to suppress would have
been different had Defendant been able to use the BOLO to
impeach the officers’ testimony regarding the color of the
vehicle as provided in the BOLO.
In applying the Brady test to the facts, the Court finds that there
is no reasonable probability that had the BOLO been disclosed
prior to the hearing on the motion to suppress, the outcome of
the motion to suppress would have been different.5 The motion
to suppress would have been denied even if Defendant was able
to use the BOLO to impeach Detective Trick’s testimony or any
other witness regarding the color of the vehicle as provided in
the BOLO.
5 The Court notes that Defendant received a
cassette tape of the BOLO prior to trial. At no
time after receiving the cassette tape and before
the commencement of trial did Defendant file
-23-

6

Case 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 24 of 56 PagelD539

any type of motion alleging a Brady violation.
Further, the recording of the BOLO was
admitted as evidence at trial. Defendant, who
represented himself at trial, used the recording of
the BOLO to point out inconsistencies between
the BOLO and testimony elicited at trial, most
notably Officer David Trick’s testimony,
As discussed earlier in the introductory facts, the robbery occurred at 2:15 am
and Godwin’s car was stopped a few minutes later. The post-conviction court’s
order recites Officer Trick’s testimony about his location when he heard the BOLO,
his observing a car matching that description, his stopping that car, and the driver
consenting to a search of the car. (Respondent’s Exhibit 48 at 164-66) Godwin
focuses on Officer Trick’s testimony that the BOLO described the car as a “large
gray color vehicle,” however the BOLO actually described the vehicle’s color as
“dark blue.” The post-conviction court’s order continued as follows (Respondent’s
Exhibit 48 at 166) (record citations omitted):
At the motion to suppress hearing, Officer Felice testified that
when he transmitted the BOLO over the radio, he indicated
that it was either blue or gray in color, and that the victim
believed the car was an Oldsmobile. The BOLO was admitted
as evidence by Defendant at trial and was played for the jury.
A police officer may stop a vehicle and request identification
from its occupants when the officer has founded or reasonable
suspicion that the occupants of the vehicle have committed, are
committing, or are about to commit a crime. Hunter v. State,
660 So. 2d 244, 249 (Fla. 1995). A “founded suspicion” is a
suspicion which has some factual foundation in the circum­
stances observed by the officer, when those circumstances are
interpreted in the light of the officer’s knowledge. Id. Several
factors are relevant in assessing the legitimacy of a vehicle stop
pursuant to a BOLO: “(1) length of time and distance from the
offense; (2) route of flight; (3) specificity of the description of
the vehicle and its occupants; and (4) the source of the BOLO
information.” Id.\ State v. Wise, 603 So. 2d 61, 63 (Fla. 2d DCA
-24-

7

G se 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 25 of 56 PagelD 540

1992). Other information which is relevant to determine the
validity of the stop includes the time of day, the absence of
other persons or vehicles in the vicinity of the sighting, any
other suspicious conduct, and other activity consistent with
guilt. Rodriquez v. State, 948 So. 2d 912,914 (Fla. 4th DCA
2007). The BOLO in this case was admitted as evidence by
Defendant at trial and was played for the jury. The BOLO
was issued for a “large, dark blue Oldsmobile, eastbound on
Broadway.” The suspects were described as two black males
wearing white t-shirts.
The post-conviction court’s well-reasoned order both individually addresses
each of the four factors identified above in Hunter and concludes with the following
analysis (Respondent’s Exhibit 48 at 168-69):
The totality of the circumstances appear sufficient to support
the stop of Defendant: he was close to the location, in both
time and distance, where the BOLO indicated the suspects had
fled, he was traveling the same direction, on the same road as
indicated in the BOLO, he was apprehended within 7 minutes
of the BOLO which was issued almost immediately after the
suspects fled the crime scene, and the BOLO was based on the
description provided to law enforcement by the victim at the
crime scene. Further, the description of the suspects, two black
males, fit the occupants of Defendant’s vehicle. While the
description of the vehicle differed in both make and model, the
vehicle which was apprehended was a similar make and similar
color. Further, the Court notes that Defendant was pulled over
sometime after 2:00 a.m., and was arrested at 2:30 a.m., a time
where there is generally less vehicles on the roadway. As such,
the trial court was correct in denying Defendant’s motion to
suppress. Deputy Trick had the requisite reasonable suspicion
to stop Defendant.
The Court finds that even if Defendant was able to impeach
Officer Trick regarding the description of the vehicle as
provided for in the BOLO, the trial court would have still
denied Defendant’s motion to suppress. The length of time
from the report of the BOLO, the distance and location where
Defendant was stopped, the route of flight, the source of the
BOLO, the suspect’s description as provided for [in] the
BOLO, the time of the incident, and the similarities between
Defendant’s vehicle and the description provided for in the

-25-

!8

G se 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 26 of 56 PagelD 541

BOLO all support the stop. As such, Defendant cannot
demonstrate prejudice as required by Brady.
The post-conviction court denied the Brady claim because Godwin failed
to show prejudice, that is, he failed to show that he would have succeeded at the
suppression hearing if the state had disclosed the audio of the BOLO before the
suppression hearing. The final conclusion warrants repeating: “The length of time
from the report of the BOLO, the distance and location where Defendant was
stopped, the route of flight, the source of the BOLO, the suspect’s description as
provided for [in] the BOLO, the time of the incident, and the similarities between
Defendant’s vehicle and the description provided for in the BOLO all support the
stop.”9 Although in his reply (Doc. 13 at 19-23) Godwin disagrees with the post­
conviction court’s application of facts to the four factors for determining reasonable
suspicion for stopping his car, Godwin shows neither that the state court
unreasonably determined the facts nor that the state court unreasonably applied
Brady. Godwin is entitled to no relief under ground three, sub-ground one.
Grounds Four and Two:
Godwin alleges that his Fifth Amendment freedom from double jeopardy
was violated when the trial court granted a judgment of acquittal on the charge of
kidnapping but allowed the prosecution to proceed with the lesser included charge of
false imprisonment (ground four). Also, Godwin alleges that he was denied his right

9 Also, as discussed earlier under ground one, sub-ground one, appellate counsel reminded
Godwin that “during closing argument, you managed to effectively ‘testify’ that it may have looked
blue depending on lighting.” (italics original)
-26-

>9

*

Ci se 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 27 of 56 PagelD 542

to the effective assistance of appellate counsel — specifically regarding the trial
court’s allowing the state to proceed with the false imprisonment charge — both
because the record on appeal was incomplete and because the trial transcripts on
the appeal were edited (ground two).
Ground Four:
The post-conviction court denied the double jeopardy claim in ground four as
follows (Respondent’s Exhibit 50 at 368-69):
Defendant alleges that his Fifth Amendment right against
Double Jeopardy was violated. Prior to jury deliberations, the
trial court dismissed the kidnapping charge at the request of
Defendant during a motion for judgment of acquittal. However,
the trial court allowed the State to argue a lesser included
charge of false imprisonment to the jury, pursuant to Cole v.
State, 942 So. 2d 1010. Defendant argues that subsequently
allowing the State to charge Defendant with false imprisonment
after Defendant was granted an acquittal as to kidnapping
constituted double jeopardy.
Allegations of double jeopardy may be raised in a motion
for postconviction relief. Brown v. State, 1 So. 3d 1231.
Additionally, false imprisonment is considered a necessarily
lesser-included offense of kidnapping. State v. Sanborn, 533 So.
2d 1169 (Fla. 1988); Denmark v. State, 604 So. 2d 845 (Fla. 2d
DCA 1992). However, issues of double jeopardy can arise
when a primary charge is dismissed on a judgment for
acquittal, and a lesser included charge is subsequently instated.
Boone v. State, 805 So. 2d 1040 (Fla. 4th DCA 2002), outlines
the situation where instating a lesser included [charge] is
inappropriate. The Fourth District Court of Appeal explains
that, pursuant to Francis v. State, 736 So. 2d 97 (Fla. 4th DCA
1999), when the record shows that discussions concerning the
motion were still ongoing even after the court granted the
motion for acquittal, instatement of a lesser included offense of
the dismissed charge can be appropriate. Boone, 805 So. 2d at
1040 (citing Francis, 736 So. 2d at 99). However, where the
record shows that the motion for judgment of acquittal has been
decided, without indication that die matter was still under
consideration, a subsequent instatement of a lesser included
-27-

10

Ci se 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 28 of 56 PagelD 543

offense of the dismissed charge is inappropriate. Boone, 805 So.
2d at 1041 (citing Watson v. State, 410 So. 2d 207,209 (Fla. 1st
DCA 1982)).
The record reflects the following concerning the judge’s ruling
on the motion of acquittal for kidnapping and the lesser
included offense of false imprisonment:
The Court: I’m going to grant his position to
dismiss the kidnapping. Now we’ve got two
robberies.
[Prosecutor]: We have a lesser included offense
of false imprisonment. This Court is granting the
kidnapping, but the lesser included offense of
false imprisonment —: are you not saying it’s not
false imprisonment?
The Court Let me read the statute.
The record shows that although the trial court granted the
dismissal of the kidnapping, debate concerning the motion for
judgment of acquittal was not complete. Before moving on to
the other offenses, the State began the argument that a lesser
included offense should be included. After hearing arguments
from both sides on the issue of the lesser included offense, the
trial court ruled that false imprisonment could still be argued
to the jury. The record shows that there was “ongoing legal
argument on the defense motion” when the trial court initially
granted part of Defendant’s motion, and subsequently allowed
the State to argue the lesser included offense. Boone v. State,
805 So. 2d 1040,1041 (Fla. 4th DCA 2002). As such, pursuant
to Boone v. State, Defendant’s right against Double Jeopardy
was not violated. The record conclusively shows that
Defendant is not entitled to relief.
Godwin lists two cases to meet his burden of showing that the state court’s
decision is contrary to, or an unreasonable application of, a controlling Supreme
Court decision. First, in his reply Godwin “contends that submitting the charge
of false imprisonment to the jury, plainly subjected him to further ‘fact finding
proceedings going to guilt or innocence,’ which is prohibited following a midtrial
-28-

Ci se 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 29 of 56 PagelD 544

acquittal by the court. Smalis. supra.”10 Second, after stating in his reply the
proposition that “submitting the necessarily lesser-included offense of false
imprisonment after acquittal of the greater offense of kidnapping violated double
jeopardy,” Godwin appends to the end of a string citation “see, e.g., Sanahria v
United States. 437 U.S. 54 (1978) (judgment of acquittal, even though erroneous,
barred further prosecution on any aspect of the count).” (Doc. 13 at 24 and 26,
respectively)
Godwin’s reliance on Smalis and Sanabria is misplaced because both address
whether the government’s appeal constitutes a proceeding that leads to the possibility
of a second jeopardy after the trial court has granted a judgment of acquittal for
insufficiency of the evidence. Instead, Godwin’s situation is controlled by Smith v.
Massachusetts, 543 U.S. 462 (2005), which, as the post-conviction court decided,
focuses on whether the judge has issued only an initial, preliminary, partial,
conditional, or tentative ruling or issued a final ruling on the motion for a judgment
of acquittal. The state court’s following both Boone v. State and Cole v. State is
1

consistent with Smith, 543 U.S. at 470, which explains as follows:
It is important to note, at the outset, that the facts of this case
gave petitioner no reason to doubt die finality of the state
court’s ruling. The prosecutor did not make or reserve a motion
for reconsideration, or seek a continuance that would allow
him to provide the court with favorable authority. Rather, the
sidebar conference concluded, the court asked the prosecutor
if he had “any further evidence,” and he replied, “No. At this
point, the Commonwealth rests their case.” Nor did the court’s
ruling appear on its face to be tentative.

10 Smalis v. Pennsylvania, 476 U.S. 140 (1986).
-2912

*

c|se 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 30 of 56

PagelD 545

To the contrary, in Godwin’s trial the judge authorized the state to
proceed with the necessarily lesser-included false imprisonment charge as part of the
discussion on dismissing the kidnapping charge. The post-conviction court held that
Boone allows advancement of the lesser-included offense, which is consistent with
Smith, 543 U.S. at 470-71, which states that “some state courts have held, as a
matter of common law or in the exercise of their supervisory power, that a courtdirected judgment of acquittal is not effective until... the motion hearing is
concluded, Watson v. State, 410 So. 2d 207,209 (Fla. App. 1982).” The trial record
supports the post-conviction court’s determination that the discussions continued
beyond the ruling on the motion for a judgment of acquittal on the kidnapping
charge, including the trial court’s ruling that the state could proceed with the lesserincluded false imprisonment charge. (Respondent’s Exhibit 19 at 591-93) Godwin
fails to show that the state court’s decision is contrary to, or an unreasonable
application of, a controlling Supreme Court decision, and, as a consequence,
Godwin is entitled to no relief under ground four.
Ground Two:
After reviewing the initial brief on direct appeal, Godwin complained to his
appointed appellate counsel about an apparent discrepancy between the “Case
Progress report (Respondent’s Exhibit 6) and the trial transcripts for events that
occurred on December 19, 2006. In response to his complaint counsel advised
Godwin, “As to whether or not the transcripts were changed or altered ... I

-30-

!3

c|se 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 31 of 56 PagelD 546

seriously doubt it.” (Godwin’s Exhibit C attached to his petition at Respondent’s
Exhibit 21) (ellipsis original)
Godwin alleges that appellate counsel was ineffective — specifically regarding
the trial court s allowing the state to proceed with the false imprisonment charge —
both because the record on appeal was incomplete and because the trial transcripts
on the appeal were edited. Twice Godwin presented this claim to the state courts in
a petition alleging the ineffective assistance of appellate counsel. (Respondent’s
Exhibits 21 (2D09-2236) and 34 (2D10-1980)) The state appellate court denied both
petitions in a one-sentence order. The respondent incorrectly argues that Godwin
failed to “federalize” his claim in state court but correctly argues that the claim lacks
merit.
Godwin preserved his motions for a judgment of acquittal at trial, and he
identifies no part of the argument on the motions as missing from the transcript.
Consequently, Godwin shows no prejudice because appellate review was based on
the transcripts, not the erroneous “Case Progress” report. Moreover, as discussed
above under ground four, Godwin’s double jeopardy argument — whether the trial
court’s granting of a judgment of acquittal on the kidnapping charge barred the state
from proceeding with the lesser-included false imprisonment charge — lacks merit.
Godwin cannot show prejudice caused by counsel’s not supplementing the appellate
record, and, as a consequence, Godwin is entitled to no relief under ground two.

-31-

14

G se 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 32 of 56 PagelD 547

Ground Five:
Godwin alleges that his right to “due process under Kentucky v. Stincer.
(1987)[,J was violated by his involuntary absence at the motion for new trial.”
(Doc. 1 at 19) At Godwin’s request, the trial court appointed counsel (who was
stand-by counsel during the trial) to represent Godwin at sentencing. At the
conclusion of sentencing the trial court granted defense counsel’s request to keep
Godwin in the county jail for ten days because counsel anticipated that Godwin
would “request us to file a motion for new trial, and I would like him to be available
to argue it.” (Respondent’s Exhibit 11 at 244) However, two weeks later (at the
hearing on the motion for new trial) Godwin was no longer in the county jail,
leaving former stand-by counsel to argue the motion for new trial based on his
personal knowledge of the case and Godwin’s written comments to counsel in
response to counsel’s written motion. (Respondent’s Exhibit 11 at 248)
Godwin asserted his due process claim in state court in his motion under
Rule 3.850. The post-conviction court rejected this claim as procedurally barred as
follows (Respondent’s Exhibit 48 at 169-70) (brackets original):
Defendant alleges that his Fourteenth Amendment right to
due process under Kentucky v. Stincer, 482 U.S. 730 (1987) was
violated by his involuntary absence at a hearing on his motion
for new trial. Defendant claims that his presence at the hearing
would have made the hearing more reliable, and enumerates
a variety of arguments that he believes would have been
improved had he been present to assist his attorney in making
them. Defendant further argues that trial counsel was not
familiar with Defendant’s grounds for a new trial, and failed to
fully argue Defendant’s case. Last, Defendant claims that had
he been present, there is a reasonable probability that the trial
court would have granted his motion.
-32-

15

Ci se 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 33 of 56 PagelD 548

However, the Court finds that this claim is procedurally
barred because it could have been and should have been raised
on direct appeal. See Morris v. State, 931 So. 2d 821, 832 &
n. 12 (Fla. 2006) (concluding that defendant’s claim that his
involuntary absence from discussions with the trial court during
the penalty phase violated his constitutional right to be present
at the bench conference was procedurally barred because it was
not raised on direct appeal); Phillips v. State, 894 So. 2d 28, 35 &
n. 6 (Fla. 2004) (concluding that defendant’s claim that his
absence from an unrecorded bench conference violated his
constitutional right to be present at trial was procedurally
barred because it was not raised on direct appeal); Vining v.
State, 827 So. 2d 201,217 (Fla. 2002) (determining that
“substantive claims relating to Vining’s absence [during critical
stages of trial] are procedurally barred as they should have been
raised either at trial or on direct appear”). As such, the Court
must deny ground three of Defendant’s Motions.
An applicant requesting a federal court to issue a writ of habeas corpus must
present each claim to the state courts in the procedurally correct manner. Upshaw v.
Singletary, 70 F.3d 576, 579 (11th Cir. 1995). The procedurally correct way to raise a
claim of trial court error is on direct appeal. The alleged violation of due process
presents a claim of trial court error that Godwin should have raised on direct appeal.
Before a claim is procedurally barred from federal review, a state court must
reject reviewing the claim based on the procedural deficiency, as Harris v. Reed,
489 U.S. 255, 262 (1989) (quoting Caldwell v. Mississippi, 472 U.S. 320, 327 (1985)),
explains:
Thus, the mere fact that a federal claimant failed to abide by
a state procedural rule does not, in and of itself, prevent this
Court from reaching the federal claim: “The state court must
actually have relied on the procedural bar as an independent
basis for its disposition of the case.”

-33-

!6

Ci se 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 34 of 56 PagelD 549

Also, the state court must declare that it is enforcing the procedural rule. “[I]f it
fairly appears that the state court rested its decision primarily on federal law, ‘this
Court may reach the federal question on review unless the state court’s opinion
contains a plain statement’ that its decision rests upon adequate and independent
state grounds” because citing to the state procedural rule and stating that the claim
“could have been raised on direct appeal” or in some prior proceeding is insufficient.
Harris v. Reed, 489 U.S. at 261 and 266 (quoting Michigan v. Long, 463 U.S. 1032,
1042 (1983)). Consequently, the initial question is whether the state court issued a
“plain statement” applying the independent and adequate state procedural bar. As
recited above, the state court’s order (1) declares “that this claim is procedurally
barred because it could have been and should have been raised On direct appeal,”
(2) cites several state cases that apply the state procedural bar to similar
circumstances, and (3) concludes by denying the claim without further analysis.
Based on the post-conviction court’s order and the appellate court’s affirmance
in a per curiam decision (Respondent’s Exhibit 40), Godwin procedurally defaulted
the substantive claim in ground five by not raising the claim on direct appeal.
Harmon v. Barton, 894 F.2d 1268, 1273 (11th Cir. 1990) (finding that a state appellate
“court’s per curiam affirmance of the trial court’s ruling explicitly based on procedural
default is a clear and express statement of its reliance on an independent and
adequate state ground which bars consideration by the federal courts”).
As a general proposition, a federal court is precluded from addressing the
merits of a procedurally defaulted ground unless the applicant can show “cause and
-34-

17

Case 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 35 of 56 PagelD 550

prejudice or “manifest injustice.” Coleman v. Thompson, 501 U.S. 72, 29—30 (1991);
Murray v. Carrier, 477 U.S. 478,496 (1986). The basis for “cause” must ordinarily
reside in something external to the defense. Marek v. Singletary, 62 F.3d 1295, 1302
(11th Cir. 1995). To show “prejudice,” the applicant must show “not merely that
the errors at his trial created the possibility of prejudice, but that they worked to
his actual and substantial disadvantage, infecting his entire trial with error of
constitutional dimensions.” Hollis v. Davis, 941 F.2d 1471, 1480 (11th Cir. 1991)
(underlining original) (quoting United States v. Frady, 456 U.S. 152, 170 (1982)).
Although he asserts no basis for “manifest injustice” to overcome the
procedural default, Godwin alleges that trial counsel rendered ineffective assistance
by not objecting to his involuntary absence from the hearing on the motion for a new
trial. Proof of ineffective assistance of counsel is a basis for “cause and prejudice” to
overcome a procedural default. Murray v. Carrier, All U.S. at 488-89. But “attorney
error constitutes ‘cause’ only when there is a constitutional right to counsel at the
stage when the error is committed.” Williams v. Turpin, 87 F.3d 1204,1209 (11th
Cir. 1996) (citing Carrier, All U.S. at 488 ), cert, denied, 530 U.S. 1246 (2000).
Godwin argues that, under Kentucky v. Stincer, 482 U.S.730, 745 (1987),
“a defendant is guaranteed the right to be present at any stage of the criminal
proceeding that is critical to its outcome if his presence would contribute to the
fairness of the procedure.” Although generally true, the statement fails to specifically
address whether a motion for new trial is a critical stage. To the contrary, Godwin
had no clearly established constitutional right to counsel at the motion for new trial,
-35-

!8

•'

Ci se 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 36 of 56 PagelD 551

at least not a right clearly established by the Supreme Court, as the below discussion
in Marshall v. Rodgers, 569 U.S. 58, 61, 64 (2013), shows:
[T]he parties here dispute whether two principles of law are
clearly established under [Section 2254(d)(1)]. One is whether
... a post-trial, pre-appeal motion for a new trial is a critical
stage of the prosecution.

The Court expresses no view on the merits of the underlying
Sixth Amendment principle the respondent urges. And it does
not suggest or imply that the underlying issue, if presented on
direct review, would be insubstantial.
Accord United States v. McLeod, 53 F.3d 322, 325 n.3 (11th Cir. 1995) (“Neither the
Supreme Court nor this circuit has decided whether a hearing on a motion for a new
trial, based upon ineffective assistance of counsel, is a ‘critical stage’ of prosecution
to which the right to counsel attaches.”). But see United States v. Berger, 375 F.3d
1223, 1226 (11th Cir. 2004) (“A post-conviction, pre-appeal Rule 33 motion[,
Federal Rules of Criminal Procedure,] is considered part of a defendant’s direct
appeal, and the Sixth Amendment right to counsel attaches.”) (citing case from the
Seventh Circuit Court of Appeals as authority).
First, in his reply (Doc. 13 at 28) Godwin cites United States v. Boyd, 131 F.3d
951 (11th Cir. 1997), in opposing the respondent’s arguments that a motion for new
trial is not a “critical stage” and that “counsel was present and adequately argued”
the motion for new trial. However, Boyd “hold[s] that the district court did not
violate Boyd’s Confrontation Clause or due process rights in denying his request to
be present at the evidentiary hearing,” 131 F.3d at 953, on Boyd’s motion for new

-36-

59

C|se 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 37 of 56 PagelD 552

trial because (1) “his exclusion from the hearing did not ‘interfere! ] with his
opportunity for effective cross-examination’ of the trial witnesses,” id. at 954 (quoting
Stincer) and (2) the defendant’s presence was not required because he could not
“contribute to the fairness of the procedure” as required under Stincer. Id. Second,
Godwin cites United States v. Novatom, 271 F.3d 968, 1000 (11th Cir. 2001), as
rejecting the respondent’s argument. (Doc. 13 at 28) Novatom is inapposite
because the issue was the defendant’s involuntary absence from trial — not a post­
trial motion — even though represented by counsel during his absence.
Nevertheless, even if Godwin had a right to the effective assistance of counsel
under the Sixth Amendment at the motion for new trial, Godwin must show that his
counsel rendered ineffective assistance.
Ground Five. Sub-Ground One:
Godwin alleges that trial counsel rendered ineffective assistance by not
objecting to his involuntary absence from the hearing on the motion for new trial.
Godwin asserted this claim in state court in his motion under Rule 3.850. As shown
below, the post-conviction court rejected this claim after a lengthy analysis, as
follows (Respondent’s Exhibit 48 at 170-76) (some footnotes omitted):
Defendant alleges that trial counsel... was ineffective for
failing to object to Defendant’s involuntary absence at the
hearing on a motion for new trial. Defendant first alleges that
he prepared and represented himself at trial, but elected to have
counsel during the sentencing phase. Defendant claims that
after his sentencing, his counsel requested the Court keep
Defendant at the county jail so that he could argue a motion
for new trial. Defendant alleges he was involuntarily absent
at the motion for new trial.
-37-

0

Case 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 38 of 56 PagelD 553

Specifically, Defendant alleges that his counsel informed him
in a letter that there was a ten day time period in which to file j
motion for new trial, and that Defendant then wrote a letter to
counsel setting out arguments he thought should be argued at
the hearing on the motion for new trial. Defendant alleges that
counsel “made vague and indefinite arguments based on the
information provided by Defendant in his letter.” Defendant
claims that counsel failed to present testimonial and tangible
evidence in support of the grounds for new trial. Last,
Defendant alleges that effective counsel would have objected
to the involuntary absence of Defendant from the proceeding.
Defendant claims that counsel’s failure to object resulted in
deficient performance. Defendant further claims that
Defendant’s presence would have made the hearing more
reliable and that [the] result of the proceedings would have
been different.
On December 20, 2006, Defendant was convicted of Armed
False Imprisonment and Robbery with a Firearm. Immediately
after the jury returned a verdict, Defendant was sentenced to
15 years’ Florida State Prison for Armed False Imprisonment,
and life in prison for Robbery with a Firearm, set to run
consecutive. At this point, Defendant was still proceeding
pro se. The record reflects that on [the next day] Defendant was
brought back to Court. The trial judge set aside the previously
imposed sentence ... because he failed to conduct a Faretta
inquiry and [stand-by counsel] was appointed counsel for
sentencing. Defendant was resentenced on January 4,2007.
Defendant was sentenced to 15 years’ Florida State Prison for
Armed False Imprisonment, and life in prison without parole
for Robbery with a Firearm, both running concurrent[ly].
Defendant, by and through his undersigned counsel, filed a
Motion for New Trial... and a hearing was held....
Defendant was not present at the hearing.
A portion of the argument presented by counsel at the hearing
on the motion for new trial is as follows:
The Court: Where is Mr. Godwin!
[Defense Counsel]: I’m assuming he had been
transported.

I had filed on behalf of Mr. Godwin a standard, if
you will, motion for new trial that alleges all the
-38-

1

Cjse 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 39 of 56 PagelD554

grounds that are admissible for a new trial. I
provided that information to Mr. Godwin. He
wrote me back with his additional argument as to
why he should be granted a new trial.
Basically three arguments. Ground one is that the
testimony of three witnesses, Katrina Winkler,
Kenya White and Sabrina Hearns, was clearly
false, and compared to their testimony at the
detention hearing... in looking at their
deposition, police reports, etcetera, and not only
was their testimony false, but the State Attorney
knew it was false but presented it anyway; that as
a result of that, the fake testimony, is obviously
in violation of Gilio (sic), Mooney v. Hoolihan, Kyle
v. Kansas. On those grounds, defendant should be
granted a new trial.
The Court: I’ll deny that one. Deny that one.
[Defense Counsel]: Secondly, Mr. Godwin
alleges there was a bank statement and I believe
another document that was from Pleasure Time.
One was bearing the name of Katrina Winkler.
The other document bearing the name of
Pleasure Time. Mr. Godwin, in effect, alleges
that there was an invalid chain of custody. There
was also some argument about when he was
provided notice of those documents because if
the Court will recall, I believe the State provided
initially a digital copy of that inventory receipt,
and then later on, he received an actual copy of
that. And Mr. Godwin is alleging that those
documents should not have been admitted and
that there was a deficiency in the chain of
custody. And he cited United States v. Gray, that
because of the introduction of those documents,
the jury would not have convicted him and that
he should be granted a new trial because of the
erroneous introduction of those documents.

The Court: Deny No. 2.

-39-

2

C|se 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 40 of 56 PagelD 555

[Defense Counsel]: I’m believing that based on
his notes, he’s alleging that as a result of those, a
violation of his due process rights.
The Court: Deny No. 3.

[Defense Counsel]: This is an additional ground
I don’t think I enunciated in reference to — I
believe he’s referring again to those items that
were found: The papers with Pleasure Time in
Miss Winkler’s name. He’s alleging that those
items were tampered with improperly.
The Court: As opposed to proper tampering,
denied.8
8 In the omitted portion of the
transcript the trial court denies the
standard 13 grounds included in
the Motion for New Trial.
In his Motion, Defendant alleges that counsel “made vague
and indefinite arguments based on the information provided
by Defendant in his letter,” and failed to present testimonial
and tangible evidence in support of the grounds for new trial.
Defendant further alleges that his presence would have made
the hearing more reliable. At the [post-conviction] evidentiary
hearing ... Defendant testified as to [this] sub-ground
Ms. Spradley:9 And [Defense Counsel] testified
about a letter that you had written to him. Can
you explain to the Court what that Was?
9 Ms. Jennifer Spradley is the
public defender who represented
Defendant at the [post-conviction]
evidentiary hearing....
Defendant: After I was sentenced, and upon
arriving back to the county jail, I received legal
mail and it was from [Defense Counsel], And he
apprised me that we had ten days to file a motion
for new trial. I actually attached that letter as
Exhibit F to my supplemental 3.850 motion. At
that time, I responded to his letter, giving him the
r

-40-

i:

3

C|se 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 41 of 56 PagelD 556

grounds, the facts, and what I believed would be
a substantial basis for a motion for new trial.
Ms. Spradley: But you weren’t able to argue it
because you weren’t present.
Defendant: That’s correct.
Ms. Spradley: Would you have argued it had you
been present?
Defendant: Yes, ma’am.
Ms. Spradley: Is that what you wanted to
happen?
Defendant: Yes, ma’am.
After reviewing the. allegations, the court file, the testimony
and the record, the Court finds that Defendant fails to meet
the two prong test as set forth in Strickland v. Washington.
When asserting a claim of ineffective assistance of counsel, a
defendant must prove that counsel’s performance was deficient
and that.the deficient performance prejudiced the defense.
The Court finds that Defendant fails to establish prejudice.
In order to establish prejudice, Defendant must prove that
there is a reasonable probability that, but for trial counsel’s
unprofessional errors, the result of the hearing on the motion
for a new trial would have been different. A reasonable
probability is a probability sufficient to undermine confidence
in the outcome. Strickland, 466 U.S. at 694.
As previously stated, the proper focus of inquiry is, whether if
counsel had objected to Defendant’s absence at the hearing on
the motion for new trial, there is a reasonable probability that
the outcome of the hearing on the motion for new trial would
have been different. While Defendant’s allegation that [Defense
Counsel] requested the Court keep Defendant available for the
purpose of arguing a motion for new trial at the resentencing
hearing is true, the Court finds that Defendant has failed to
establish how counsel’s failure to object to his absence resulted
in prejudice. Defendant failed to present any evidence or
testimony at the evidentiary hearing to demonstrate how the
outcome of the hearing on a motion for new trial would have
been different had he been present. Defendant failed to explain
what if any decisions and arguments made at the hearing would
have been different if he had been present or how any different
-41-

Case 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 42 of 56 PagelD557

decisions or arguments would have resulted in his motion being
granted. SeeKormondy v. State, 983 So. 2d 418,436 (Fla. 2007).
Defendant did not testify as to any additional arguments he
would have presented at the hearing nor did he testify as to
any deficiencies in [Defense Counsel]’s arguments. Further,
Defendant failed to testify as to any specifics regarding the
alleged testimony presented at trial or tangible evidence, which
he alleged Pefense Counsel] failed to present in support of the
arguments. The Court’s confidence in the outcome of the
hearing on the motion for new trial has not been undermined.
Additionally, to the extent Defendant is displeased with the
thoroughness of Pefense Counsel]’s arguments, Defendant has
failed to present any additional testimony or evidence at the
evidentiary hearing to demonstrate that any of the arguments
provided to Pefense Counsel] in his letter were meritorious.
There was no testimony or evidence presented at the
evidentiary hearing as to the alleged Giglio violation or the
alleged invalid chain of custody. The record reflects that
Pefense Counsel] argued the additional grounds, which were
not included in the standard motion for new trial, based on
arguments provided by Defendant.
Further, a review of the January 4,2007 resentencing transcript
reveals that Defendant requested an oral motion “to have a
retrial, new trial.” While presenting his arguments in support
of the oral motion “to have a retrial, new trial,” Defendant
presented identical arguments relying on the same case law as
the arguments presented by Pefense Counsel] at the [motion
for new trial] hearing. After hearing Defendant’s arguments,
the Court stated, “Deny that request. Deny the motion for
judgment of acquittal. Deny the new motion for renewal of
judgment of acquittal. Deny the motion for perjury under
alleged Giglio. I’m not going to grant a new trial there. I don’t
find there was any perjury.”
After reviewing the allegations, the testimony and evidence
presented at the [post-conviction] evidentiary hearing, the court
file, and the record, the Court finds that Defendant has failed to
prove the second prong of Strickland as the Defendant has failed
to prove how counsel’s alleged failure to object [to] Defendant’s
absence at the hearing on the niotion for new trial resulted
in prejudice. Defendant failed to present any evidence or
testimony at the evidentiary hearing to demonstrate how the
outcome of the hearing on a motion for new trial would have
been different had he been present. As such, no relief is
warranted.
-42-

5

C|se 8:16-cv-02253-SDM-SPF Doeument24 Filed 10/23/20 Page 43 of 56 PagelD 558

The post-conviction court determined that Godwin proved no prejudice.
Although he disagrees with the state court’s determination, Godwin fails to show
that the determination is unreasonable. Godwin identifies no argument that defense
counsel failed to assert that would have changed the outcome of the proceeding. As
mite V. Singletary, 972 F.2d at 1220, explains, “The test has nothing to do with what
the best lawyers would have done [or] even what most good lawyers would have
done[, but] only whether some reasonable lawyer at the trial could have acted... as
defense counsel acted ....” Godwin’s contention that he would have “bolstered”
counsel’s argument if he was present at the hearing fails to show that counsel’s
performance was either deficient or prejudicial because “trial lawyers, in every case,
could have done something more or something different.” Chandler v. United States,
218 F.3dat 1313. Godwin is entitled to no relief under grounds five and ground five,
sub-ground one.
Ground Six:
Godwin alleges that defense counsel rendered ineffective assistance by not
objecting to the imposition of a vindictive sentence. The post-conviction court
rejected this claim after a lengthy analysis, as follows (Respondent’s Exhibit 48
at 176-80)
Defendant alleges trial counsel... was ineffective for failing to
object to an allegedly vindictive sentence, “the imposition of a
life sentence after a jury trial, when the trial court urged the
Defendant to accept an earlier plea offer often (10) years.”
Defendant alleges that the trial court urged him to accept the
State’s offer, and then imposed a harsher sentence than that
offered.
-43-

6

Case 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 44 of 56 PagelD559

In Wilson v. State, 845 So. 2d 142 (Fla. 2003), the Florida
Supreme Court’s landmark case on judicial vindictiveness, the
Court applied a totality of the circumstances standard when
determining whether a vindictive sentence had been imposed.
“Judicial participation in plea negotiations
followed by a harsher sentence is one of the
circumstances that, along with other actors,
should be considered in determining whether
there is a “reasonable likelihood” that the harsher
sentence was imposed in retaliation for the
defendant not pleading guilty and instead
exercising his or her right to proceed to trial.
See Smith, 490 U.S. at 799, 109 S. Ct. 2201. The
other factors that should be considered include
but are not limited to: (1) whether the trial judge
initiated the plea discussions with the defendant
in violation of Warner, (2) whether the trial judge,
through his or her comments on the record,
appears to have departed from his or her role
as an impartial arbiter by either urging the
defendant to accept a plea, or by implying or
stating that the sentence imposed would hinge on
future procedural choices, such as exercising the
right to trial; (3) the disparity between the plea
offer and the ultimate sentence imposed; and
(4) the lack of any facts on the record that explain
the reason for the increased sentence other than
that the defendant exercised his or her right to a
trial or hearing.
Wilson, 845 So. 2d at 156.
In the present case, the State offered Defendant a plea deal
on the morning of trial before voir dire had commenced. The
colloquy when the plea offer was declined is provided below:
The Court: Anything further?
[Prosecutor]: I don’t think he’ll take anything,
but I’ll make an offer for the record. At least it’s
on there before we start trial. He’s charged
now, as I indicated, things are consecutive life
sentences possible .. . but I will offer him the
10-year minimum mandatory?
-44-

7

C|se 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 45 of 56 PagelD 560

The Court: Period?
[Prosecutor]: Period for all counts to run
concurrently, no probation to follow, just
10 years.
The Court: And I would impose that if you
were to accept it today, just so you’ll know.
Mr. Godwin: No, sir.
The Court: You reject that offer? You
understand what that means?
Mr. Godwin: Yes, sir.
The Court: It means you’re 28. You would
receive credit for all time served. Do you want
to talk to [stand-by counsel] for a minute?
Mr. Godwin: The State cannot offer me credit
time served right now.
The Court: I’ll give it to you.
Mr. Godwin: I’m not taking the offer.
The Court: Do you want to talk to [stand-by
counsel]?
Mr. Godwin: I don’t need to.
The Court: That’s fine. I’m just offering you
the opportunity.
Mr. Godwin: Thank you. I thank you for
offering it.
The Court: You realize if you’re convicted it
probably would not be a 10 year minimum
mandatory?
Mr. Godwin: It’s clear.
The Court: That’s a possibility. I don’t know
if it’s probable, but it’s a possibility. Anything
further?
-45-

8

Case 8:16-ev-02253-SDM-SPF Document 24 Filed 10/23/20 Page 46 of 56 PagelD 561

[Prosecutor]: No, Judge.
The record in this case indicates that the trial judge did not
initiate the plea discussions, but simply responded to a plea
offer initiated by the prosecutor.... The Court further finds
that the trial judge did not exceed the limits of Warner by
stating, “you realize if you’re convicted it probably would
not be a 10-year minimum mandatory.” Rather, the Court
finds that the trial court was simply alerting Defendant that
the sentence imposed may be affected by the evidence and
testimony introduced at trial. The Court did not voice its
opinion on the reasonableness of the plea offer. See Wilson v.
State, 845 So. 2d at 145,157 (quoting Byrdv. State, 794 So. 2d
671 (Fla. 5th DCA 2001) (concluding that the comment made
by the trial judge, “I think 30 years is a steal. He certainly won’t
get that low,” exceeded the limits of Warner by stating that if
Byrd chose to go to trial he “certainly” would not get that low.)
Nor did the trial court urge the Defendant to accept the plea
deal. See Wilson v. State, 845 So. 2d at 158 (quoting Wilson,
792 So. 2d at 602) (concluding that the comment made by the
trial judge, “the court’s offer was the bottom of the guidelines
and in my opinion you should have taken it,” violated the
bounds of Warner.)
While there is a large disparity between the offered ten-year
minimum mandatory sentence and the life sentence imposed,
“a disparity between the sentence received and the earlier offer
will not alone support a finding of vindictiveness ... [HJaving
rejected the offer of a lesser sentence, [the defendant] assumes
the risk of receiving a harsher sentence. Were it otherwise, plea
bargaining would be futile.” Wilson, 792 So. 2d at 603 (quoting
Mitchell, 521 So. 2d at 190)J*^ Further,
the fact that a trial judge expresses an inclination
to accept a state plea offer does not mean that he
or she will be bound to impose the same sentence
after hearing the trial, if the evidence raises
concerns that were not perceptible from the
usually abbreviated representations made to the
court during the plea bargaining process. Factors
such as the nature of the defendant’s prior
convictions, the degree of violence employed by
the defendant during the commission of the
11 Ellipsis and brackets original to Wilson's quoting Mitchell.
-46-

9

•"

C se 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 47 of 56 PagelD 562

crime, the sophistication with which the charged
offense was committed, and/or the physical or
psychological suffering endured by the victim(s),
are some factors that might lead the court to
increase what it originally considered to be an
acceptable sentence.
Wilson, 845 So. 2d at 157 (quoting Prado v. State, 816 So. 2d
1155,1166 Fla. 3d DCA 2002)). During sentencing, the trial
court stated, “After having heard the argument, excuse me,
having heard the testimony of the witnesses, seeing the absolute
fear in the face of one witness when she broke down in tears
during cross-examination or direct examination, I understand
exactly why they elected not to call the lady.” The trial court
further stated, “You beat that woman about the head and
about the face with a firearm. It could have caused permanent
damage to her. It did not.” The only time the trial court
mentioned the declined plea offer during sentencing was when
it stated, “I’ve, heard the testimony of the witnesses from the
witness stand. I had no idea what this case would be about until
I heard the testimony. I understand why the State offered the
10 years. It was rejected by you.”
As such, the Court finds that the trial court did not impose a
life sentence because Defendant elected to proceed with trial.
Rather, the court finds the harsher sentence was imposed
because of additional facts which emerged prior to sentencing,
specifically, the violence employed by the defendant during the
commission of the crime and the psychological suffering
endured by the victims which was elicited through testimony
during trial.
Accordingly, applying the totality of circumstances standard,
the Court finds that Defendant’s sentence is not vindictive.
There appeared to be no coercion, no threats, and no
implication of a harsher sentence for exercising any right
Defendant got a legal sentence that was within the prerogative
of the trial court. That the sentence was greater than offered by
the State does not, without more, translate to vindictiveness.
Although Defendant argues that his counsel was deficient in
failing to object to a sentence that he thought was harsh, but
within the sentencing authority of the trial court, no legal basis
for the objection has been suggested. If there was no legal basis
for defense counsel to object to the sentence, the failure to do so
cannot be ineffective. As Defendant has not met his burden of
demonstrating either ineffectiveness in counsel’s representation
-47-

10

C|se 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 48 of 56 PagelD 563

of Defendant or prejudice as a result of any alleged deficiency,
let alone both as required for relief on a postconviction motion,
Defendant warrants no relief on this allegation.
The post-conviction court’s determinations —the extent of Godwin’s violence
toward one of the victims (details learned by the sentencing court during trial) and
the absence of a legal basis for objecting to a lawful sentence — refute Godwin’s
contention that the sentence was vindictive. In his reply Godwin correctly represents
that “the trial court was aware of the charges against Petitioner at the motion to
suppress hearing [and] that victim Winkler was allegedly hit in the head with a
firearm” (Doc. 13 at 34), but not until trial did the court learn that the trauma
Godwin inflicted upon a victim was the basis for the prosecutor’s dismissing one
of the robbery charges so that she would not have to testify — but she had to testify
anyway because Godwin called her as a witness, during which examination she
broke down in tears and exhibited “absolute fear.” (Sentencing judges’ comments,
Respondent’s Exhibit 11 at 242) See Hitchcock v. Wainright, 770 F.2d 1514, 1518-20
(11th Cir. 1985) (en banc) (“Only after trial and a sentencing hearing has the trial
court learned all of the facts which might be considered for sentencing. On a plea
bargain, the defendant’s and prosecutor’s agreement forecloses the necessity for such
a detailed explanation.”), rev’d on other grounds, 481 U.S. 400 (1987). Godwin fails to
show that the post-conviction court’s denial of ground six is an unreasonable
application of Strickland.

-48-

1

Case 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 49 of 56 PagelD564

Ground Six. Sub-Ground One:
Godwin alleges that trial counsel rendered ineffective assistance by not
objecting to the sentencing court’s (1) reliance on unreliable or materially false
information and (2) consideration of both his rejecting the plea offer and his failing to
show remorse. Each component of this consolidated claim is addressed separately.
A. Unreliable or Materially False Information:
Godwin alleges that the testimony of two of the victims was unreliable or
materially false, and, consequently, the state court erred in relying on their testimony
when determining a sentence. The post-conviction court rejected this claim as
follows (Respondent’s Exhibit 48 at 181, 183-84)
Defendant alleges that the trial court considered and relied
on evidence which was materially false and/or unreliable in
imposing sentence. Defendant alleges that the trial court’s
statements referring to the fear inflicted by Defendant on
Ms. Hearns “was shown to be unreliable in light” of the
testimony presented at trial. Defendant further states that
Ms. Hearn’s testimony was unreliable because she could only
identify one of the perpetrators. Additionally, Defendant alleges
that the court’s consideration of Ms. Winkler’s testimony was
also improper as it was materially false.

To the extent Defendant is alleging trial counsel was ineffective
for failing to object to the trial court’s reliance on materially
false or misleading evidence, the Court finds Defendant has
failed to demonstrate deficient performance. The determination
of the credibility of witnesses is within the province of the jury.
State v. Scheuschner, 829 So. 2d 943, 944 (Fla. 4th DCA 2002).
The jury found the witness’ testimony credible and returned a
guilty verdict as to Robbery with a Firearm and Armed False
Imprisonment. Subsequent to sentencing, the Court heard
arguments regarding perjured testimony resulting in a Giglio
violation. The Court explicitly rejected Defendant’s contention
that the testimony of Ms. Hearns and Ms. Winkler was false
49-

12

•

C se 8.16-CV-02253-SDM-SPF Document 24 Filed 10/23/20 Page 50 of 56 PagelD 565

and found that there was no perjured testimony. Thus, the
trial court did not rely on false or misleading evidence during
sentencing as the trial court had previously ruled that there
was no perjured testimony. The trial court accepted the jury’s
verdict and adjudicated Defendant guilty of Robbery with a
Firearm and Armed False Imprisonment.... As such, the
Court finds no error, and trial counsel cannot be deemed
ineffective for failing to raise a meritless issue. Thompson,
159 So. 2d at 662.
The basis for Godwin’s allegation that the court relied on unreliable or
materially false testimony is his disagreement with both the jury’s credibility
determination and the state court’s ruling “that there was no perjured testimony,”
which ruling necessarily requires a factual determination. The credibility and factual
determinations in state court bind a federal court in this circumstance. Consalvo v.
Sec'yforDep't ofCorr., 664 F.3d 842, 845 (11th Cir. 2011), cert, denied, 568 U.S. 849
(2012), explains:
Determining the credibility of witnesses is the province and
function of the state courts, not a federal court engaging in
habeas review. Federal habeas courts have “no license to
redetermine credibility of witnesses whose demeanor has been
observed by the state trial court, but not by them. ” Marshall v.
Lonberger, 459 U.S. 422,103 S. Ct. 843, 851, 74 L. Ed. 2d 646
(1983). We consider questions about the credibility and
demeanor of a witness to be questions of fact. See Freund v.
Butterworth, 165 F.3d 839, 862 (11th Cir. 1999) (en banc). And
the AEDPA affords a presumption of correctness to a factual
determination made by a state court; the habeas petitioner has
the burden of overcoming the presumption of correctness by
clear and convincing evidence. 28 U.S.C. § 2254(e).
See also Baldwin v. Johnson, 152 F.3d 1304, 1316 (11th Cir. 1998) (“We must accept
the state court’s credibility determination and thus credit [counsel’s] testimony over
[petitioner’s].”), cert, denied, 526 U.S. 1047 (1999) andDevierv. Zant, 3 F.3d 1445,
1456 (11th Cir. 1993) (“Findings by the state court concerning historical facts and
-5013

C|se 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 51 of 56 PagelD 566

assessments of witness credibility are, however, entitled to the same presumption
accorded findings of fact under 28 U.S.C. § 2254(d).”), cert, denied, 513 U.S. 1161
(1995).
Godwin fails to meet his burden to show that the post-conviction court
unreasonably applied Strickland when the state court denied his claim that counsel
rendered ineffective assistance by not objecting to the trial court’s sentence, which
he contends is based on unreliable or misleading information.
B. Refusal to Accept Plea:
Godwin alleges that, when determining his sentence, the state court
considered his refusal to accept the plea offer. The post-conviction court rejected this
claim as follows (Respondent’s Exhibit 48 at 181-82)
After reviewing the allegations, the court file, the testimony
presented at the evidentiary hearing, and the record, the
Court finds that Defendant has failed to demonstrate deficient
performance. To the extent Defendant is alleging trial
counsel was ineffective for failing to object to the trial court’s
consideration of Defendant’s refusal to accept a plea, the
Court finds Defendant has failed to demonstrate deficient
performance. In [ground six discussed above], the Court found
that Defendant’s sentence was not vindictive as the harsher
sentence was not imposed because Defendant refused to accept
a plea offer. Rather, the Court found the harsher sentence was
imposed because of additional facts which emerged prior to
sentencing, specifically, the violence employed by Defendant
during the commission of the crime and the psychological
suffering endured by the victims which was elicited through
testimony during trial. The record clearly demonstrates that the
trial court did not consider Defendant’s refusal to accept the
plea offer when imposing its sentence. Trial counsel cannot be
deemed ineffective for failing to raise a meritless issue.
Thompson v. State, 159 So. 2d 650, 662 (Fla. 2002).

-51-

i4

Ci se 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 52 of 56 PagelD 567

The post-conviction court determined that Godwin failed to prove that
counsel was deficient for not objecting to the sentence as allegedly based on the
sentencing court’s having considered his rejection of the plea offer. The sentencing
court’s comments about hearing the victim’s testimony and “seeing the absolute fear
in the face of one witness when she broke down in tears during cross-examination or
direct examination” (Respondent’s Exhibit 11 at 242) and the post-conviction court’s
above determinations support an absence of proof of deficient performance. Godwin
fails to meet his burden to show that the post-conviction court unreasonably applied
Strickland.
C. Failure to Show Remorse:
Godwin alleges that, when determining his sentence, the state court
considered his lack of remorse. The post-conviction court rejected this claim as
follows (Respondent’s Exhibit 48 at 182-83)
Defendant also alleges that counsel was ineffective for failing to
object to the trial court’s consideration of Defendant’s failure to
show remorse. The relevant portion of the sentencing transcript
is as follows:
The Court: After having heard the argument,
excuse me, having heard the testimony of the
witnesses, seeing the absolute fear in the face
of one witness when she broke down in tears
during cross-examination or direct examination,
I understand exactly why [the state] elected not
to call that lady.
I don’t have a doubt in my mind that you
committed that robbery, sir. Not one doubt. I
find those witnesses to be credible. My fear is, sir,
if you’re let out amongst the community again,
the citizens of the State of Florida and citizens of
the United States of America, you would be a —
-52-

>5

C se 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 53 of 56 PagelD 568

put them at risk. I don’t think you’ve shown one
ounce of remorse, not one ounce. I don’t think
you even acknowledge that you committed this
crime. To this day, you don’t acknowledge that. I
don’t have a doubt that you committed it.
You beat that woman about the head and about
the face with a firearm. It could have caused
permanent damage to her. It did not.
It is the judgment, sentence and order of the
Court, count of robbery, life Florida State Prison,
the rest of your natural life without parole.
It is a 10-year minimum mandatory as to the
sentence of false imprisonment with a firearm.
15 years concurrent.
To the extent Defendant is alleging trial counsel was ineffective
for failing to object to the trial court’s consideration of
Defendant’s failure to show remorse, the Court finds Defendant
has failed to demonstrate deficient performance.
“Although remorse and an admission of guilt
may be grounds for mitigation of a sentence or
a disposition, the opposite is not true. A trial
court abuses its discretion and infringes on
constitutional rights when it imposes a harsher
sentence because a defendant exercises the right
to remain silent, protests his innocence, or fails to
show remorse.”
German, 27 So. 3d at 132. The question then is whether the trial
court relied on the defendant’s lack of remorse in determining
the sentence. After a careful review of the sentencing transcript,
the Court finds that there is no suggestion that the trial court
used defendant’s lack of remorse against him. Again, the
record demonstrates that the tried court imposed the statutory
maximum because of the violence exhibited by Defendant
during the commission of the crime and the fear and suffering
endured by the victims. The trial court referred to Defendant’s
absence of remorse in support of his rejection of defense
counsel’s arguments for mitigation. See German, 27 So. 3d at
133 (“[I]n pronouncing sentence, there is no suggestion that
the trial court used the defendant’s silence, lack of remorse,
or failure to admit guilt against him; quite the contrary. The
court’s comments were directed to the heinous nature of the
-53-

>6

'

Case 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 54 of 56 PagelD 569

crime.”),' See also Shelton-v. State, 59 So. 3d 248 (Fla. 4th DCA
2011) (holding that the court commented on the defendant’s
lack of remorse in recognition that it lacked any grounds to
mitigate his sentence). As such, the Court finds no error, and
trial counsel cannot be deemed ineffective for failing to raise a
meritless issue. Thompson, 159 So. 2d at 662.
The post-conviction court found “that there is no suggestion that the trial
court used defendant’s lack of remorse against him” in initially determining
sentence, but “referred to Defendant’s absence of remorse in support of his rejection
of defense counsel s arguments for mitigation.” According to the post-conviction
court, the sentencing court arguably used Godwin’s lack of remorse as a reason for
not reducing the sentence, as compared to initially determining the sentence. The
appellate court concurred with the post-conviction court’s interpretation of the
record. “[W]e agree with the post-conviction court that in context, the trial court’s
comments at sentencing were made in connection with its rejection of the argument
for mitigation.

(Respondent’s Exhibit 41 at 3) Consequently, counsel had no basis

to object. Godwin fails to meet his burden to show that the state courts
unreasonably applied Strickland.
IV.

CONCLUSION

Godwin fails to meet his burden to show that the state court’s decision was
either an unreasonable application of controlling Supreme Court precedent or an
unreasonable determination of fact. As Bun v. Titlow, 571 U.S. 12, 19-20(2013),
states:
Recognizing the duty and ability of our state-court colleagues
to adjudicate claims of constitutional wrong, AEDPA erects a
formidable barrier to federal habeas relief for prisoners whose
-54-

7

•

-I

*

1+

case 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 55 of 56 PagelD 570

claims have been adjudicated in state court. AEDPA requires
“a state prisoner [to] show that the state court’s ruling on the
claim being presented in federal court was so larking in
justification that there was an error... beyond any possibility
for fairminded disagreement.” Harrington v. Richter, 562 U S.
[86,103] (2011). “If this standard is difficult to meet” — and it
is — “that is because it was meant to be.” Id, at [102]. We will
not lightly conclude that a State’s criminal justice system has
experienced the “extreme malfunctio[n]” for which federal
habeas relief is the remedy. Id., at [103] (internal quotation
marks omitted).
Godwin’s application for the writ of habeas corpus (Doc. 1) is DENIED. The
clerk must enter a judgment against Godwin and CLOSE this case.

DENIAL OF BOTH
A CERTIFICATE OF APPEALABILITY
AND LEAVE TO APPEAL IN FORMA PA TJPFRTS
Godwin is not entitled to a certificate of appealability (“COA”). A prisoner
seeking a writ of habeas corpus has no absolute entitlement to appeal a district
court’s denial of his application. 28 U.S.C. § 2253(c)(1). Rather, a district court
must first issue a COA. Section 2253(c)(2) permits issuing a COA “only if the
applicant has made a substantial showing of the denial of a constitutional right.”
To merit a COA, Godwin must show that reasonable jurists would find debatable
both the merits of the underlying claims and the procedural issues he seeks to raise.
See 28 U.S.C. § 2253(c)(2); Slack v. McDaniel, 529 U.S. 473, 478 (2000); Eagle v.
Linahan, 279 F,3d 926, 935 (11th Cir. 2001). Because he fails to show that
reasonable jurists would debate either the merits of the grounds or the procedural
issues, Godwin is entitled to neither a COA nor leave to appeal in forma pauperis.

-55-

>8

f *

C|se 8:16-cv-02253-SDM-SPF Document 24 Filed 10/23/20 Page 56 of 56

PagelD 571

A certificate of appealability is DENIED. Leave to appeal informa pauperis is
DENIED. Godwin must obtain permission from the circuit court to appeal in forma
pauperis.
ORDERED in Tampa, Florida, on October 23, 2020.

STEVEN D. MERRYDAY
UNITED STATES DISTRICT JUDGE

-56-

i!9

. Oft

T

*

r

EXHIBIT

fl

vf.

Ato■*'

>•

USCA11 Case: 20-14409

Date Filed: 05/03/2021

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-14409-E
JONATHAN GODWIN,
Petitioner-Appellant,
versus
SECRETARY, DEPARTMENT OF CORRECTIONS,
ATTORNEY GENERAL, STATE OF FLORIDA,
Respondents-Appellees.
Appeal from the United States District Court
for the Middle District of Florida
Before: ROSENBAUM and LUCK, Circuit Judges.
BY THE COURT:
Jonathan Godwin has filed a motion for reconsideration, pursuant to 11th Cir. R. 27-2 and
22-l(c), of this Court’s March 30, 2021, order denying a certificate of appealability and leave to
proceed on appeal in Jbma pauperis. Upon review, Godwin’s motion for reconsideration is
DENIED because he has offered no new evidence or arguments of merit to warrant relief.

♦

r

.■ *V

■i

v

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

JONATHAN GODWIN - Appellant,
VS.
SEC’Y, DEP’T OF CORR., ET AL. - Appellee.
CASE NO.: 20-14409-E
APPLICATION FOR CERTIFICATE OF APPEALABILITY

LEGAL MAIL
Provided to Wakulla Cl

DEC 1 7,2020
for mailing_(

MR. JONATHAN GODWIN #M07545
WAKULLA C.I.
110 MELALEUCA DRIVE
CRAWFORDVILLE, FLORIDA 32327
Appellant, pro se

f

A)
<

*+■
'Hi

f ^

JONATHAN GODWIN,
Appellant,
V.

CASE NO.: 20-14409-E

SEC’Y, DEP’T OF CORK.,
_________________Appellee./
CERTIFICATE OF INTERESTED PERSONS
AND CORPORATE DISCLOSURE STATEMENT
Pursuant to Fed. R. App. P. 26.1 and Eleventh Circuit Rule 26.1-1, the pro
se Appellant, JONATHAN GODWIN, states the following individuals or entities
have an interest in the outcome of this case:
Altenbemd

State District Court Judge

Behnke, Debra

State Circuit Court Judge

Bock, Diane K.

Assistant Attorney General

Dimmig II, Howard

Public Defender

Dix, Raymond

Special Assistant Public Defender

Flynn, Sean P.

Magistrate Judge

Foster, Jr., Robert

State Circuit Court Judge (Former)

Godwin, Jonathan

Appellant

Holt, Julianne

Public Defender

Kelly

State District Court Judge

Koclanes, Peter

Assistant Attorney General
C -1 of 2

' h
■'

&

JONATHAN GODWIN,
Appellant,
!

V.

CASE NO.: 20-14409-E

SECRETARY, DEPARTMENT,
OF CORRECTIONS ET.AL.,
Lewis, Mark

Assistant State Attorney

Merryday, Steven

United states District Judge

Moody, Ashley

Attorney General

Santiago, Jorge

Private Attorney

Sandy, Ryan

Assistant State Attorney (Former)

Silberman

State District Court Judge

Sinardi, Nick

Private Attorney

Spradley, Jennifer

Assistant Public Defender

Taylor, Wesley

Alleged Codefendant

Wallace

State District Court Judge

Ward, Samantha

State Circuit Court Judge

Warren Andrews

State Attorney

Winkler, Katrina

Victim

Appellant has no knowledge of any publicly held corporation owing 10% or more
of any parties stocks.

C - 2 of 2

»

APPLICATION FOR CERTIFICATE OF APPEAL ABIT JTY
The pro se Appellant JONATHAN GODWIN, pursuant to Fed. R. App. P.
22(b), and 28 U.S.C. §2253(c)(2), (3), moves this Court to issue a certificate of
appealability.

I.

STATEMENT OF CASE AND FACTS1
On July 5, 2006, at 2:15 am Godwin and another man entered the “Pleasure

Time” Lingerie modeling established and, while threatening with a firearm,
demanded money from three women inside the business. One of the women
attempted to flee but was captured. Godwin struck one woman in the face with the
firearm. When the women were unable to produce a key for the safe, one victim
offered her purse, which Godwin took and fled in a car.
The women called the police and provided a description of both the robbers
and the car. A few minutes later an officer stopped a car that matched the
description of the assailants. During a brief search of the car the officer found
papers that displayed the name of one of the victims, which name was provided in
a radio transmission. Two of the victims were transported to the site of the traffic
stop and positively identified Godwin and the other occupant as the two assailants.
About a week later the police searched the car, which was secured in an impound
lot, and beneath the rear seat an officer found a firearm that matched the
description used in the robbery.
h For convenience Godwin will recite those facts relied on by the district court.
(Doc. 24, pp. 1-3)
1

- i

Despite the trial court’s repeated attempts to dissuade him, Godwin persisted
in proceeding pro se. Nevertheless, the trial court appointed stand-by counsel.2
Godwin moved under the Fourth Amendment to suppress evidence obtained from
the traffic stop. After an evidentiary hearing, the trial court denied the motion to
suppress. Although having earlier advised the trial court that the State would not
offer a plea bargain (the prosecutor represented that Godwin had prior convictions
for attempted first degree murder, robbery with a firearm, and burglary), the State
offered before voir dire to resolve all charges for the mandatory minimum sentence
of ten years’ imprisonment. (Respondent’s Exhibit 7 at 85 and 11 at 26-28)
Immediately after accepting the verdict and excusing the jury, the trial judge (1)
noted that Godwin had “absolutely terrorized” the three women, (2) commented
that “I don’t have a doubt in my mind that you did it -1 don’t have the first doubt not after what I heard here”, and (3) sentenced Godwin to life imprisonment
because “you should not be out on the streets I don’t think ever again, and I mean
that.” (Respondent’s Exhibit 19 at 674-76) However, after realizing that he had not
reviewed with Godwin his right to counsel at sentencing, the trial judge appointed
counsel to represent Godwin at a resentencing, which occurred a few days later. At
the re-sentencing the trial judge recalled (1) that a victim experienced “absolute
fear” of Godwin “when she broke down in tears” while testifying under Godwin’s
2 Both the trial court and the parties identified stand-by counsel as “ghost” or
“shadow” counsel.
3 The denial of the motion to suppress is the subject of ground one in this action.
2

• >

examination and (2) that Godwin “beat that woman about the head and about the
face with a firearm [which] could have caused permanent damage to her.”
(Respondent’s Exhibit 11 at 242-43) The judge again sentenced Godwin to life
imprisonment. (Id. at 209 and 243)
Godwin’s direct appeal to the Second District Court of Appeals resulted in a
per curiam affirmance. (Respondent’s Exhibit 4) Godwin unsuccessfully sought
collateral relief in state courts (Id. Exhibits 24, 26, 33, 41, 46, 48, 56), then sought
habeas corpus relief pursuant to 28 U.S.C. §2254 in the Middle District Court
(Tampa Division) on August 8, 2016. (Doc. 1) The district court subsequently
denied the habeas petition without an evidentiary hearing, denied both a certificate
of appealability and leave to appeal in forma pauperis. (Doc. 24)

II.

STANDARD OF REVIEW
In Miller-El v. Cockrell, 537 U.S. 322, 336 (2003), the Supreme Court held

that a prisoner seeking a certificate of appealability need only demonstrate a
substantial showing of the denial of a constitutional right. A person satisfies this
standard by demonstrating that jurist of reason could disagree with the district
court’s resolution of his constitutional claim(s) or that jurist could conclude the
issue(s) presented are adequate to deserve encouragement to proceed further. See
Jones v. Sec’y Dep’t ofCorr., 607 F. 3d 1346, 1349 (11th Cir. 2010) (“Where, as
here AEDPA ... applies, we look to the [district] court’s application of [the act] to
3

t,

petitioner’s constitutional claims and ask whether that resolution was debatable
amongst jurists of reason.” Id. (Alteration adopted) (quoting Lott v. Att’y Gen. Fla.,
594 F.3d 1296, 1301 (11* Cir. 2010); see also, 28 U.S.C. §2253(c). Furthermore,
pleadings drafted pro se and without the aid of counsel are to be construed
liberally. See Dupree v. Warden, 715 F.3d 1295, 1299 (11th Cir. 2013) (“We
liberally construe petitions filed pro se”).
ffl.

ISSUES PRESENTED

1. Whether the district court violated Clisby v. Jones, 960 F. 2d 925 (11th Cir.
1992) when it failed to address Godwin’s claim that his Fourth and
Fourteenth Amendment Rights against an unreasonable seizure under
Terry v. Ohio, 392 U.S. 1 (1967), was violated, where the claim was
exhausted and not procedurally defaulted?
In Ground One of his §2254 complaint, Godwin alleged, inter alia, that his
Fourth and Fourteenth Amendment Rights against unreasonable search and seizure
as articulated by Terry v. Ohio, 392 U.S. 1 (1967) was violated (Doc. 1, pp. 4-5).
The basis for his challenge were that the “information relied upon by the stopping
officer was not sufficient to justify the stop, and/or where the stopping officer’s
testimony regarding what he knew and when he knew it was proven to be false
and/or misleading.” (Id.)
Respondent argued that Godwin’s claim were either foreclosed by Stone v.
Powell, 428 U.S. 465 (1976), or that the stop was valid (Doc. 7, pp. 8-10).
Nevertheless, the district court concluded:
4

“Although as phrased above Godwin’s ground might contest the
lawfulness of the initial stop, Godwin conceded during the hearing on
the motion to suppress that the officer had probable cause to stop his
car ... Godwin stipulates in his application that he conceded the
lawfulness of the stop. Petitioner conceded the stop based on the
officer’s testimony in a strategic move to strengthen his argument that
the search exceeded the bounds of Terry...Consequently, in ground
one Godwin challenges only the scope of the search, not the
lawfulness of the stop.” (Doc. 24, pp. 12)
The district court then limited Godwin’s challenge “to the trial court’s pre­
trial denial of his motion to suppress the fruits of a search.” (Id.) Thereafter,
concluding that the Stone bar applies (Ibid., pp. 12-13, 17-18)
Godwin’s allegations merely set forth the supporting historical operative
facts of his claim(s). (Ibid.) see Dupree v. Warden, 715 F. 3d 1295, 1299 (11th Cir.
2013) (“A habeas petitioner must present a claim in clear and simple language such
that the district court may not misunderstand it.”) Although, it is true that Godwin
conceded the stop at the suppression hearing, the trial court’s adoption of such
concession was not an absolute waiver or abandonment of Godwin’s standing to
challenge the lawfulness of the stop. See State v. Gaines, 770 So.2d 1221, 1227
(Fla. 2000) (“[t]he Rule [3.190(h)] does not affect the inherent power of the trial
court to reconsider, while the court has jurisdiction of the case and upon
appropriate motion or objection by either counsel [at trial], a ruling previously
made on a motion to suppress.”) (quoting Savoie, 422 So.2d at 311-312); see also
State v. Ellis, 491 So.2d 1296 (Fla. 3rd DCA 1996) (trial court should have reopen
5

f

*

2

suppression hearing)4 As alleged in his complaint, “[Godwin] renewed his motion
at trial,” and “(through counsel) reasserted that Officer Trick did not have a wellfound articulate suspicion to support the stop.” (Ibid.; Doc. 7, Ex. 15, at pp. 35759; Ex. 11 at pp. 251-52)
District courts must resolve all claims for relief raised in a habeas
proceeding; see Clisby v. Jones, 960 F.2d 925, 936 (11th Cir. 1992). A “claim for
relief’ is defined as “any allegation of a constitutional violation”; allegations of
distinct constitutional violations constitute separate claims for relief “even if other
allegations arise from the same alleged set of operative facts.” Id.
Against this backdrop, the district court’s isolation of Godwin’s claim
challenging the lawfulness of the stop, notwithstanding Stone, violated the
procedural requirements of Clisby when it failed to address Godwin’s
constitutional challenge that his right against an unreasonable seizure under Terry,
supra, was violated.

4.

Godwin’s concession was the result of prosecutorial misconduct, i.e., suppression
of favorable material evidence regarding the description of the Bolo - discussed
below. Consequently, that is exactly what the Due Process Clause of the
Fourteenth Amendment prohibits. See California v. Trombetta, 461 U.S. at 485
(The most rudimentary of the access-to-evidence cases impose upon the
prosecution a constitutional obligation to report to the defendant and the trial court
whenever government witnesses lie under oath.) (citing Napue v. Illinois, 360 U.S.
264, 269-272, 3 L. Ed. 2d (217, 79 S. Ct. 340, 98 ALR406 (1935)).
6

I

-

A

> *

Sub-Ground Ones
(A) Whether reasonable jurist would find the district court’s application
of AEDPA deference to Godwin’s ineffective assistance of appellant
counsel claim under Evitts v. Lucy, 469 U.S. 387 (1985) debatable or
wrong, or conclude that the issue presented is adequate to deserve
encouragement to proceed further, where Godwin made a prima facie
case for relief?
In Ground One sub-ground one of his §2254 complaint, Godwin alleged,
inter alia, that appellate counsel rendered ineffective assistance by failing to
supplement the record on appeal with the trial court’s factual findings/mlings to
the suppression motion. (Doc. 1, pp. 6-7) Specifically, alleging that “the trial
court’s findings that there was probable cause to effectuate the stop,” was based on
[Godwin’s] concession, and the trial court’s ruling was a product of materially
false testimony.” (Id.)6
The district court determined that appellate counsel’s failure to supplement
the record was tactical. (Doc. 24, pp. 15) That determination was premised solely
on appellate counsel’s letter to Godwin. (Id. at pp. 15-16) That said, the district
court’s quotation of appellate counsel’s letter, deserves the rule of completeness on

5 The issues herein are presented in the same chronological order as set by the
district court. (Doc. 24)
6 See Footnote 4, supra.
7.
This circuit has concluded that, “questions of whether a decision by counsel was
a tactical one is a question of fact.” see Bolender v. Singletary, 16 F.3d 1547,1556
n. 12 (11th Cir. 1994). Whether the tactic was reasonable, however, is a question of
law and is reviewed de novo, see Collier v. Turpin, 111 F.3d 1148, 1199 (11th Cir.
1999) (citing Horton v. Zant, 941 F.2d 1449, 1462 (11th Cir. 1991)
7

^ *

the stated subject.8 The next paragraph following the district court’s quoted
passage states:
“Having said that, I also assume that the State will request the record
supplement with the transcript of the rest of the hearing. I assume the
State will argue harmless error in their Answer brief, based on your
concession and whatever occurred in the second part of that hearing.
This sets up a reply brief argument that the error cannot be deemed
harmless, or the State would not have gone to the trouble of getting
the rest of the transcript - depending of course on what you said at the
hearing, and what the State argues. I also tried to deflect the
concession by arguing that it came before you knew of the Bolo tape which is probably true, but not shown in the ROA.” (Id.)
The key contextual statement from the quoted paragraph is; “I also tried to
deflect the concession by arguing that it came before you knew of the Bolo tape which is probably true, but not shown in the ROA.” The State Court Record up-tosaid-point omits any Giglio/Brady argument/ruling concerning the Terry stop mentioned above.
Reviewing the record on appeal, as Godwin’s appellate counsel had, any
competent attorney worthy of his salt would’ve been remiss not to conclude, as
counsel had, that Godwin’s concession “came before [he] knew of the Bolo tape.”
Furthermore, Godwin apprised counsel by letter of the late disclosure. As such,
supplementing the record would’ve been imperative, not only to support said

8 See Fed. R. Evid., 106
9 Subsequent to an evidentiary hearing on Godwin’s Fla. R. Crim. P. 3.850 motion,
the postconviction court concluded that, “At no time after receiving the cassette
tape and before the commencement of trial did [Godwin] file any type of motion
alleging a Brady violation.” (Doc. 7, Ex. 48 at pp. 7 n. 5)
8

conclusion, but as a legal basis to request relinquishment of jurisdiction, and an
order for the trial court to conduct an evidentiary hearing. See State v. Huggins,
788 So.2d 238, 241 (Fla. 2001) ([We] relinquished jurisdiction of the direct appeal
so that the trial court could conduct an evidentiary hearing on the habeas corpus
petition [alleging a Brady violation] (citations and footnote omitted) Instead,
appellate counsel made a tactical decision to not supplement the record, based on
what he believed would be further concession by Godwin.10 However, being
apprised by Godwin of the Brady/Giglio violations, along with an apparent
ignorance of applicable decisional law, appellate counsel presented an argument to
the court that was doomed by his tactical decision (Doc. 7, Ex. 3). See Jones v.
State, 998 So.2d 573, 581 (Fla. 2008) (Jones admits that his Brady claim was not
preserved, because it was not addressed by the trial court.); see also Padovano,
Florida Appellate Practice, §8.1, at pp. 148 (2007 ed.) (“The aggrieved party must
obtain an adverse ruling in the lower tribunal to preserve an issue for
review... .without a ruling or decision, there is nothing to review.”)
At first blush, appellate counsel’s tactical decision seems plausible, until full
review of the ROA and basic research has been conducted. Hence, appellate
counsel’s strategy was not sound, thus, rendering his performance deficient and
10 Counsel’s assumptions are rebutted by the record, i.e., (1) Godwin’s renewal of
the suppression motion at trial, (2) Godwin’s attempt to impeach Officer Trick at
trial with the Bolo tape, and (3) Godwin’s assertion (through trial counsel) that
Officer Trick did not have an articulate well founded suspicion to support the stop
- motion for new trial. (Doc. 7, Ex. 15 at pp. 357-59, 380-81; Ex. 11 at pp. 251-52)
9

J

well below an objective level of reasonableness. See Huy nh v. King, 95 F.3d 1052,
1057 (C.A. 11 (Ga.) 1996) (“We conclude that Huynh’s counsel’s tactical decision
to delay the filing of a potentially meritorious suppression motion in order to later
obtain more favorable federal habeas review was objectively unreasonable for
several reasons.); see also Hinton v. Alabama, 134 S. Ct. 1081, 1088 (2014) (“an
attorney’s ignorance of a point of law that is fundamental to his case combined
with his failure to perform basic research on that point is a quintessential example
of unreasonable performance under Strickland.”)
Against this backdrop, due to appellate counsel’s deficiency, Godwin was
unable to demonstrate reversible error. See Applegate v. Barnett Bank of
Tallahassee, 377 So.2d 1150, 1152 (Fla. 1979) (In appellate proceedings the
decision of a trial court has the presumption of correctness and the burden is on the
appellant to demonstrate error.); see e.g. State v. G.B., 588 So.2d 253 (Fla. 1st DCA
1991) (State failed to provide a record which would justify reversal.)11 Hence,
appellate counsel’s deficiency compromised the appellate process to such a degree
as to undermine the correctness of the result. Therefore, but for appellate counsel’s
deficiency, there exists a reasonable probability of a different result of said
proceedings.

11 Respondent(s) Answer Brief highlighted Godwin’s shortcomings: “The record
does not support Appellant’s claim that the prosecutor fostered false testimony
from witnesses; consequently Cannot properly establish any Brady or Giglio claims
upon the record presented for review.” (Doc. 7, Ex. 2 at pp. 8, 17)
10

•

■«

Consequently, reasonable jurist would find the district court’s application of
AEDPA deference to “the per curiam denial of Godwin’s claim of ineffective
assistance of appellate counsel was not an unreasonable application of Strickland
(even under de novo review)”, debatable or wrong, or conclude that the issue
presented adequate to deserve encouragement to proceed further, where Godwin
has made a prima facie case for relief (Doc. 24, pp. 17).
2. Whether reasonable jurist would find the district court’s application of
AEDPA deference to Godwin’s claim under Giglio v. United States, 405 U.S.
150 (1972) debatable or wrong, or conclude that the issue presented
adequate to deserve encouragement to proceed further, where Godwin
made a prima facie case for relief?
In Ground Three of his §2254 complaint, Godwin alleged, inter alia, that his
due process rights under Giglio v. United States, 405 U.S. 150 (1972), were
violated when the prosecutor intentionally solicited and/or failed to correct false
and/or misleading testimony presented to the jury, and used to obtain his
conviction. (Doc. 1, pp. 11) Godwin based his claim on the testimony of two key
state witnesses, and one defense witness. (Id., pp. 11-13)
To establish a Giglio claim, a habeas petitioner must prove: “(1) the
prosecutor knowingly used peijured testimony or failed to correct what he
t

subsequently learned was false testimony: and (2) such use was material, i.e., that
there is any reasonable likelihood that the false testimony could ... have affected
the judgment.” See Guzman v. Sec’y Dep’t of Corn, 663 F.3d 1136, 1348 (11th Cir.
2011)
11

*»

('l

,

?

Mr. Justice Kennedy, speaking for the Supreme Court in United States v.
Dunnigan, 507 U.S. 87, 94-95, 113. S. Ct. 1111, 122 L.Ed. 2d 445 (1993), a case
involving a sentence enhancement under Federal Sentencing Guidelines 3C1.1,
explained what constitutes perjury under the Federal criminal perjury Statute, 18
U.S.C. §1621:
“A witness testifying under oath or affirmation violates this statute if she [or
he] gives false testimony concerning a material matter with the willful intent to
provide false testimony, rather than as a result of confusion, mistake, or faulty
memory. See 16 21(1); United States v. Norris, 300 U.S. 564, 574, 576, 81 L.Ed.
808, 57 S. Ct. 535 (1937). This federal definition of perjury by a witness has
remained unchanged in its material respects for over a century. See United States v.
Small, 236 U.S. 405, 408, and n. 1, 59 L. Ed. 641, 35 S. Ct. 349 (1915) (tracing
history of 16 21 ’s predecessor, Acts of Mar. 4, 1909, ch. 321, 125, 35 Stat 1111). It
parallels typical state-law definitions of perjury, see American Law Institute,
Model Penal Code 241.1 (1985); 4 c. Torcia, Wharton’s Criminal Law 601 (14th
Ed. 1981), and has roots in law dating back to at least the Perjury Statute of 1563,
5 Eliz 1, ch. 9, see Gordon, The Invention of a Common Law Crime: Perjury and
the Elizabeth Courts, 24 Am J. Legal Hist. 145 (1980). See also 1 Colonial Laws of
New York, 1664-1719, ch. 8, pp. 129-130 (reprinting “An Act to Prevent Willful
Perjury”, enacted Nov. 1,1683)” (citations omitted)

12

Here, Godwin’s complaint alleged, inter alia, that the State’s key witness
Katrina Winkler falsely identified him as being the shorter of the two persons’
accused of committing the offense(s). (Doc. 1, pp. 11; Doc. 7, Ex. 13 at pp. 165)
On cross-examination, Godwin (acting pro se) attempted to extract the truth of her
identification before the jury:

1 *7

{By Godwin) Q. I want to kind of keep the category as you have noted
and said: short and taller. Can you describe to the Court the height of
these two gentlemen in some form of way: The height of these
individuals?
A. Well, I would guess your height would be probably about 5-8. 5-9, a
hundred and eighty pounds and then the other guy was probably five or
six inches taller than you. He was a slight bit thinner. He might have been
200 pounds.
Q. You say five or six inches taller than me. Would that make him 6foot-3?
A. 6-foot-1.
Q. One?
A. Yes.
{Ibid.; Doc. 7, Ex. 13 atpp. 186-87)
Nevertheless, Officers Gary Felice and David Trick testified that Godwin is
5-foot-8, while alleged codefendant Wesley Taylor is 5-foot-5 inches tall. (Doc. 7,
Ex. 15 at pp. 342-43, 384)

Consequently, the prosecutor knew or should have

known that Godwin was not the shorter of the two individuals who were accused

12 Godwin’s defense was misidentification and police fabrication.
13 Winkler testified at alleged codefendant Taylor’s bond hearing six days after his
and Godwin’s arrest. {Ibid; Doc. 7, Ex. 45 at pp. 124-25)
13

of committing this crime. {Ibid.) see e.g. Guzman, supra, at 1349 (noting that
knowledge of a prosecution team member is imputed to the prosecutor.) Godwin
also alleged, inter alia, that Winkler testified to identifying Godwin from a photo­
pack lineup. {Ibid.; Doc. 7, Ex. 13 at pp. 194) However, Detective Balkcom
testified that Winkler failed to identify anyone {Id.; Doc. 7, Ex. 19 at pp. 537).
Consequently, the prosecutor knew or should have known that Winkler failed to
identify anyone from the photo lineup. {Id.) see e.g. Guzman, supra.
Suffice to say, Winkler gave false testimony concerning a material matter,
i.e. identifying Godwin as the shorter assailant. Her testimony on crossexamination demonstrates her willful intent to provide false testimony by;
(1) stating that the other assailant is “6-foot-1”, when she already testified against
alleged codefendant Taylor, who is in fact, shorter than Godwin and; (2) stating
that she identified a photograph from the photo-pack lineup thought to be Godwin,
when in fact, Winkler failed to identify anyone. See Dunnigan, supra, (Given the
numerous witnesses who contradicted respondent regarding so many facts on
which she could not have been mistaken, there is ample support for the district
court’s finding.) 507 U.S. at 95-96. Hence, the prosecutor failed to correct the false
and/or misleading statements made by Winkler.
Against this backdrop, reasonable jurist would find the district court’s
application of AEDPA deference, that “Godwin shows only that [Winkler’s]
testimony was inconsistent” as opposed to being false, debatable or wrong, or
14

conclude that the issue presented adequate to deserve encouragement to proceed
further, where Godwin has made a prima facie case for relief. (Doc. 24, pp. 1819)14
Next, Godwin alleged, inter alia, that Officer Trick’s (second key State’s
witness) suppression hearing and trial testimony, although consistent with each
other, was false (Doc. 1, pp. 12). At trial, Officer Trick testified “that the Bolo (be
on the lookout) description was for a large gray Oldsmobile heading eastbound on
Broadway, with two black male suspects, but couldn’t recall the clothing
description. He performed a traffic stop of [Godwin’s] vehicle based on the Bolo.”
(Id.) Godwin was driving a gray Cadillac (Doc. 7, Ex. 7 at pp. Ill, 126-27).
However, a belatedly disclosed Bolo tape revealed that the Bolo was for “a dark
blue Oldsmobile, a blue Oldsmobile, travelling eastbound on Broadway Boulevard
and Orient. The suspects were described as two black males wearing white tshirts.” (Doc. 24, pp. 24; Doc. 7, Ex. 48 at pp. 166) Consequently, the prosecutor
knew or should have known that the description of the vehicle was “blue or dark
blue”, not “gray”. He failed to correct the false statement made by Officer Trick.
(Ibid.) see e.g., Guzman, supra, at 1349 (noting that false testimony of a
prosecution team member is imputed to the prosecutor)
The district court concluded that, “because the Bolo recording was released
to Godwin before trial, the information in the Bolo was available to cross-examine
14 The district court’s materiality analysis is discussed below.
15

Officer Trick regarding his inconsistent testimony from the suppression hearing
and; (2) Officer Trick’s inconsistent testimony about the description of the vehicle
in the Bolo was not - as discussed immediately above - “material”. (Doc. 24, pp.
20) However, Godwin wasn’t allowed to impeach Officer Trick on crossexamination at trial with the Bolo tape. (Doc. 1, Ex. 15 at pp. 380-81) compare
United States v. Bueno-Sierra, 99. F.3d 375, 379-80 (11th Cir. 1996) (holding that
government’s failure to disclose a key government witness’s prior inconsistent
statement until the seventh day of the trial was improper, but the defendant was not
prejudiced because he was able to fully explore the issue on cross-examination);
see also United States v. McAnalley, 535 Fed. Appx. 809, 814 (11th Cir. 2013)
(where the prosecutorial misconduct involves delayed disclosure of certain
evidence, we reverse “only if the defendant can show prejudice.”) (citing BuenoSierra, 99 F.3d 375, 379 (11th Cir. 1996))15; and Taylor v. State, 845 So. 2d 301,
303 (Fla. 2nd DCA 2003) (The content of a dispatch is often relevant at a pretrial
suppression hearing to establish that an officer acted with reasonable suspicion or
probable cause.)
Suffice to say, the issue is straightforward, i.e., Officer Trick twice gave
false testimony which was the lynch pin to an otherwise insufficient Bolo. See e.g.
King v. State, 17 So.3d 728, 730-31 (Fla. 1st DCA 2009) (length of time and
distance is a neutral factor (8 blocks away), stopped 7 minutes from 911 call ...
15. «

Unpublished opinions are not considered binding precedent, but they may be
cited as persuasive authority.” 11th Cir. Rule 36-2.
16

vehicle differed, albeit not dramatically from the Bolo description both in color and
in make ... as to the specificity factor then, we find little, if any support beyond
race.) Furthermore, the prosecutor neither corrected the false statement(s), nor was
Godwin allowed to impeach Officer Trick at trial with the best evidence, i.e., the
Bolo tape. (Ibid.) see United States v. Pruitt, 174 F.3d 1215, 1218 n.’3 (11th Cir.
1999) (“we are severely troubled by the allegations of Moore’s perjurious conduct
in another case, and his violation of the Fourth Amendment in this case. As police
officers well know, evidence which constitutes the “fruit of a poisonous tree” is
inadmissible to prove a criminal suspect’s guilt.) (citing Wong Sun v. United
States, 371 U.S. 471,488, 83 S. Ct. 407, 9 L.Ed. 2d 441 (1963))16
Against this backdrop, reasonable jurist would find the district court’s
application of AEDPA deference, as mention above, debatable or wrong, or
conclude that the issue presented is adequate to deserve encouragement to proceed
further, where Godwin has made a prima facie case for relief.17
Finally, Godwin alleged, inter alia, that Detective Balkcom (defense
witness) falsely testified about the procedure for checking in/out evidence that has
already been stored. (Doc. 1, pp. 12-13) Godwin received, by demand for more
discovery, Detective Balkcom’s written report in a supplemental police report

16 Godwin also asserted a Brady claim with the same operative facts - discussed
immediately below.
17 The district court’s “materiality” analysis is discussed below.
17

twelve days prior to trial. The first paragraph in Balkcom’s report in relevant part
states:
“At 0815 hours I responded to the TPD Impound Lot where I
photographed the suspect vehicle along with the contents of the interior
that were plainly visible. I collected noted that several paper documents
that were bills or bank statements had the name of the business (Pleasure
Time) and/or the victim (Katrina Winkler). I returned to headquarters
where I down loaded the photographs and printed out copies that I
provided to Detective Johnson.” (Doc. 7, Ex. 19 at pp. 529)
Ultimately, when pressed by Godwin about his report, Balkcom discounted
its accuracy, and denounced it’s conveyance that he collected evidence from
Godwin’s impounded vehicle. (Doc. 7, Ex. 19, at pp. 525-30) In order to rebut
such implication, the prosecutor on cross-examination asked the following:
(by prosecutor) Q. Whenever you open up evidence that has already been
sealed or taped, when you go place that evidence back in the evidence
locker for lack of a better term, what procedure do you have to do to
ensure that you’re the one that’s had that evidence?
A. We reseal it, initial the tape with our initials and date. (Id. at pp. 53940)

Balkcom’s initials and a date are marked on the evidence bag (Id.) However,
that statement was false because that is not the procedure. (Doc. 1, pp. 13) Any
evidence removed/retumed to storage must be cataloged by the evidence custodian
on shift (Ibid.).
Consequently, the prosecutor knew or should have known that the procedure
for viewing evidence as stated by Detective Balkcom was false. See Guzman,
supra. Detective Balkcom’s supplement confirms his actions, and the prosecutor
18

«1

i

did nothing to correct the false and/or misleading evidence presented to the jury,
and impeded the defense from moving to object to the admissibility of said
evidence on grounds of probable tampering, and illegal search and seizure (Id.).
The district court determined that Godwin alleges “that two police officers
gave conflicting testimony about the procedures used for collecting, preserving,
and releasing evidence, in other words, a chain of custody.” Concluding that the
“admissibility of evidence as a matter of state law not subject to federal review.”
(Doc. 24, pp. 20-21) Consequently, reasonable jurist would find the district court’s
application of AEDPA deference to said allegations, debatable or wrong, or
conclude that the issue presented adequate to deserve encouragement to proceed
further, where Godwin has made a prima facie case for relief.
MATERIALITY
As shown above, the district court did not give full consideration to the
substantial evidence Godwin put forth in support of a prima facie case. Thus,
concluding that Godwin failed to show that the prosecutor knowingly used
perjured testimony or failed to correct what he subsequently learned was false
testimony. A conclusion - as shown above - reasonable jurist would find debatable
or wrong. Moreover, the district court also concluded that, “Godwin fails to show
that the testimony was material.” (Doc. 24, pp. 19)
Here, there is a mixture of disclosure (even belatedly), nevertheless, the
prosecutor, not only failed to correct testimony that he knew or should have known
19

was false, but also capitalized on it in closing rebuttal argument (Doc. 7, Ex. 19 at
pp. 639-47); see United States v. Stein, 846 F.3d 1135, 1147-1148 (11th Cir. 2017)
(“where the government not only fails to correct materially false testimony but also
affirmatively capitalizes on it, a defendant’s due process rights are violated despite
government’s timely disclosure of evidence showing the falsity.”) Specifically, the
prosecutor argued to the jury that, “the testimony that you have before you is
Jonathan Godwin is the man who did it. Whether you believe it’s short or tall, we
don’t know because that other person isn’t here.” {Id. at pp. 646) In other words,
don’t believe Officer’s, Felice and Trick, testimony that Godwin is, in fact,
5-foot-8, while Taylor is 5-foot-5.18 Furthermore, stating that, “Mr. Godwin drives
a Cadillac that if you look at these pictures there’s not a better description to give
than blue or gray.” {Id. at pp. 640) Howbeit, the prosecutor knew that the color
description in the Bolo of the vehicle was blue or dark blue.19 Even misleading the
tribunal; “Judge, I chose to only introduce that one piece of evidence because
that’s the only piece that’s also in the photograph. As it went down Charlie

18 Godwin’s sentence of Life imprisonment was a direct result of this prosecutorial
misconduct.
19 This prosecutorial misconduct completely removed and disregarded Godwin’s
presumption of innocence by explicitly assuming his “identity as an assailant”
through falsehoods. See In Re Winship, (The reasonable-doubt standard plays a
vital role in the American scheme of criminal procedure. It is a prime instrument
for reducing the risk of convictions resting on factual error. The standard provides
concrete substance for the presumption of innocence - that bedrock ‘axiomatic and
elementary’ principles whose enforcement ‘lies at the foundation of the
administration of our criminal law.’) 397 U.S. at 364, 90 S. Ct at 1072.
20

Thompson collected this evidence at the scene, put it in their impound lot, which is
where the evidence locker is located.” (Doc. 7, Ex. 17 at pp. 484) However, the
prosecutor introduced the two pieces of physical evidence linking Godwin to the
crime scene. (Doc. 7, Ex. 15 at pp. 358-59)20 Consequently, jurist of reason would
find the district court’s application of AEDPA deference to Godwin’s Giglio claim,
debatable or wrong, or conclude that the issue presented adequate to deserve
encouragement to proceed further, where Godwin has made a prima facie case for
relief (Doc. 24, pp. 18-21).
Sub-Ground One
(A) In Ground Three Sub-Ground One of his §2254 complaint, Godwin alleged,
inter alia, that the prosecutor violated his due process rights under Brady v.
Maryland, 373 U.S. 83 (1963) and Agurs v. United States, 427 U.S. 97 (1976), by
not disclosing, before the suppression hearing, “favorable impeaching evidence
regarding the Bolo.” (Doc. 1, pp. 15) As mention above, Godwin’s concession of
the Terry stop antedated disclosure of the Bolo tape. Had Officers Felice and Trick
“testified truthfully at the suppression hearing, [Godwin] would have never
conceded” the Terry stop. (Doc. 13, pp. 23)
The district court correctly stated, “Godwin focuses on Officer Trick’s
testimony that the Bolo described the car as a ‘large gray color vehicle’, however,

20 Godwin’s allegations concerning Det. Balkcom become moot upon a finding that
the stop under Terry were deemed illegal.
21

the Bolo actually described the vehicle’s color as dark blue.” (Doc. 24, pp. 24)
Nevertheless, the district court agreed that, “Godwin failed to show prejudice, that
is, he failed to show that he would have succeeded at the suppression hearing if the
State had disclosed the audio of the Bolo before the suppression hearing.” {Id. At
pp. 26)
Carnes, (now Chief) Circuit Judge, writing for the Court in Smith v. Secy
Dep 1 of Com, 572 F.3d 1327, 1333 (11th Cir. 2009) stated:
“There are two categories of Brady violations ... The first category of
violations, often (and what we call) Giglio claims, occurs where the undisclosed
evidence reveals that the prosecution knowingly made false statements or
introduced or allowed trial testimony that it knew or should have known was false.
Agurs, All U.S. at 103-04, 97 S. Ct. at 2397-98; Giglio v. United States, 405 U.S.
150,153, 92 S. Ct. 763, 766, 31 L. Ed. 2d 104 (1972) (noting that the same rule
applies when “the State, although not soliciting false evidence, allows it to go
uncorrected when it appears.”) (internal quotation marks omitted)... Under this
category of Brady violations the defendant is entitled to a new trial “if there is any
reasonable likelihood that the false testimony could have affected the judgment of
the jury.” Agurs, All U.S. at 103, 97 S. Ct. at 2397....
The other category of Brady violations occurs when the government
suppresses evidence that is favorable to the defense, although the evidence does
not involve false testimony or false statements by the prosecution. The defendant is
22

entitled to a new trial if he establishes that “there is a reasonable probability that,
had the evidence been disclosed to the defense, the result of the proceeding would
have been different.” United States v. Bagley, 473 U.S. 667, 682, 685, 105 S. Ct.
3375, 3383, 3385, 87 L. Ed. 2d 705 (1985) (internal quotation marks omitted) see
also Kyles v. Whitley, 514 U.S. 419, 435, 115 S. Ct. 1555, 1565, 131 L. Ed. 490
(1995). A “reasonable probability” of a different result exists when the
government’s

evidentiary

suppression,

viewed

cumulatively,

undermine

confidence in the guilty verdict; see Kyles, 514 U.S. at 434, 436-37 n. 10, 115 S.
Ct. at 1566, 1567 n. 10. Id. (Ellipsis added)
Ultimately, the district court applied neither “materiality” standard as set
forth in Smith, supra. Even though, the former “material” standard would be
applicable to the instant case. Consequently, reasonable jurist would find the
district court’s application of AEDPA deference to Godwin’s Brady claim,
debatable or wrong, or conclude that the issue presented adequate to deserve
encouragement to proceed further, where Godwin has made a prima facie case for
relief {Ibid.).

23

3. Whether reasonable jurist would find the district court’s application of
AEDPA deference to Godwin’s ineffective assistance of counsel appellate
counsel claim under Evitts v. Lucy, 469 U.S. 387 (1985), debatable or
wrong, or conclude that the issue presented adequate to deserve
encouragement to proceed further, where Godwin made a prima facie case
for relief?
In Ground Two of his §2254 complaint, Godwin alleged, inter alia, that
newly appointed appellate counsel rendered ineffective assistance by failing to
ensure a complete and accurate record be provided for direct appeal (Doc. 1, pp. 89). Specifically, Godwin alleged, inter alia, that judgment of acquittals argued on
“the 19th of December, 2006”, were omitted from the trial transcripts. Furthermore,
had appellate counsel followed-up on Godwin’s assertions, by conducting a
thorough review of the record on appeal, counsel would have discovered an
abundance of documentary evidence supporting Godwin’s assertions - including
the court docket. (Id.)
Notwithstanding, the numerous documents supporting Godwin’s assertions,
(Doc. 1, Ex. D), the court docket alone sufficed. See Paez v. Secy Dep't of Corr.,
28 Fed. Fla. L. Weekly C743 (11th Cir. Jan. 7, 2020) (Fed. R. Evid., 201 permits a
court to “judicially notice a fact, (state court docket) that is not subject to
reasonable dispute because it ...can be accurately and readily determined from
sources whose accuracy cannot reasonably be question.”) Consequently, newly
appointed appellate counsel’s failure to “fully investigate” the ROA, and have the
record corrected and completed, rendered his performance deficient and well
below an objective level of reasonableness. See Hardy v. United States, 375 U.S. at
24

280 (“The right to notice ‘plain errors or defects’ is illusory if no transcript is
available at to one whose lawyer on appeal enters the case after the trial is
ended.”); see also Evitts, supra, at 836 (“A party whose counsel is unable to
provide effective representation is in no better position than one who has no
counsel at all.”)21
Suffice to say, had appellate counsel performed efficiently, the ROA
would’ve demonstrated, among other meritorious challenges, a double jeopardy
violation. The trial court (orally) granted a judgment of acquittal on the kidnapping
count at the close of the State’s case without reservation. Then reinstated the
kidnapping count at the close of the defense, although granting a J.O.A. for the
second time, yet, submitting the necessarily lesser included offense of false
imprisonment to the jury, violating double jeopardy (Ibid.). Accord Smith v.
Massachusetts, 543 U.S. 462 (2005); see also Turner v. State, 171 So.3d 722 (Fla.
2nd DCA 2015) (petition alleging ineffective assistance of appellate counsel
granted... for this issue of whether the trial court violated the Double Jeopardy
clause when it granted Petitioner’s motion for judgment of acquittal and then later
reversed its decision and instructed the jury on a lesser offense), appeal granted at
Turner v. State, 41 Fla. L. Weekly D 1997 (Fla. 2nd DCA Aug. 31, 2016) (“trial
court was prohibited by double jeopardy principles from setting aside judgment of
21 Respondent(s) conceded the omission responding to Godwin’s petition alleging
ineffective assistance of appellate counsel in State court (Doc. 7, Ex. 23 at pp. 12
n. 2).
25

acquittal on this charge, which was entered following the close of the State’s case,
and then reinstating it after the defense rested.”) (citing Smith v. Massachusetts,
543 U.S. 462, 464-65 (2005)); compare United States v. Hill, 643 F. 3d 807, 867
(11th Cir. 2011) (“Unlike in Smith, the matter was resolved satisfactorily before
Hill went forward with his case.”) Therefore, appellate counsel’s deficiency
compromised the appellate process to such a degree as to undermine the
correctness of the proceedings. Hence, there is a reasonable probability of a
different result of said proceedings.
Against this backdrop, reasonable jurist would find the district court’s
conclusion that, “Godwin cannot show prejudice caused by counsel’s not
supplementing the appellate record”, debatable or wrong, or conclude the issue
presented adequate to deserve encouragement to proceed further, where Godwin
has made a prima facie case for relief. (Doc. 24, pp. 30-31)22
4. Whether reasonable jurist would find the district court’s application of
AEDPA deference to Godwin’s ineffective assistance of counsel claim
under Strickland v. Washington, 466 U.S. 668 (1984), debatable or wrong,
or conclude that the issue presented adequate to deserve encouragement to
proceed further, where Godwin made a prima facie case for relief?
In Ground Six Sub-Ground One of his §2254 complaint, Godwin alleged,
inter alia, that trial counsel rendered ineffective assistance by failing to object to
improper considerations by the trial court in imposing statutory maximum
22 Godwin argued that the State Appellate Court’s denial of his petition alleging
ineffective assistance of appellate counsel, was not on the merits, and thus, subject
to de novo review (Doc. 13, pp. 8-9).
26

sentences. (Doc. 1, pp. 27-29) Specifically, that the trial court relied on Godwin’s
“rejection of a plea, failure to show remorse and reliance on materially false and/or
unreliable information in imposing sentence.” (Id.)23 Godwin contended that the
State courts “factual findings should not be entitled to a presumption of
correctness.” (citing 28 U.S.C. §2254 (e)(1)) (Doc. 13, pp. 39)24
In sum, Godwin contended that the trial court violated due process by
relying on materially false and/or unreliable information in imposing sentence. See
United States v. Valentine, 21 F. 3d 395, 398 (11th Cir. 1994) (due process requires
that sentence not be based on mistaken factual conclusions of which defendant
received no notice). Particularly, the testimony of Winkler and Hearns {Id. At pp.
27-28). The district court noted that “credibility and factual determinations in state
court bind a federal court in this circumstance.” (Doc. 24, pp. 50) Although
generally true, a state court’s credibility finding on a particular issue may be
overturned by a habeas court only when “evidence on this issue raised... is too
powerful to conclude anything but” that the trial court’s finding was unreasonable.
See Miller-El v. Dretke, 545 U.S. 231, 265, 125 S. Ct. 2317, 162 L. Ed. 2d 196

23 SeeAlvord v. Wainwright, 725 F.2d 1282, 1291 (11™ Cir. 1984) (“when ‘the
validity of the claim that [counsel] failed to assert is clearly a question of state law
... we must defer to the State’s construction of its own law.”)
24.
The First District Court of Appeals, State of Florida, has held that reliance on a
criminal defendant’s “failure to show remorse” is proper. See Davis v. State, 268
So. 3d 958 (Fla. 1st DCA 2019) rev. granted 2019 Fla. Lexis 1032 (Fla. June 11,
2019) Hence, Godwin will forego argument on his “failure to show remorse” at
this time.
27

A

(2005); Wiggins v. Smith, 539 U.S. at 528 (state court “based its conclusion, in
part, on clear factual error,” and “this partial reliance on an erroneous factual
finding ... highlights the unreasonableness of the state court’s decision.”); see also
28 U.S.C. §2254 (e)(1)
At sentencing, the trial court stated, “[that Godwin] beat [Winkler] about the
head and about the face with a firearm. It could have caused permanent damage to
her. It did not.” (Doc. 1, pp. 28; Doc. 7, Ex. 11 at pp. 243) Winkler testified that
she was beaten by the shorter individual with a firearm, and that Godwin was the
shorter of the accuse. (Id.) However, Godwin is not the shorter of the two who
were accused of committing this offense. See Issue 2, supra. Furthermore, as
alleged, inter alia, “the trial court” wasn’t sure if Godwin was the taller or shorter
assailant (Ibid.; Doc. 7, Ex. 13 at pp. 266; Ex. 19 at pp. 619). In addition, the trial
court relied on the unreliable testimony of Hearns (Ibid, at 27). Hearns’ testimony
reflects that she was able to identify Godwin as a suspect at the live show-up, but
couldn’t identify the other suspect because he held a different victim (Ibid.; Doc. 7,
Ex. 18 at pp. 452-53). However, six days after the incident, Hearns and Winkler
testified against alleged co-defendant Taylor, but not against Godwin (Doc. 1, Ex.
F, G respectively). Hence, trial counsel’s failure to object to the trial court’s
reliance on materially false and/or unreliable testimony, rendered his performance
deficient, and well below an objective level of reasonableness. See Craun v. State,
38 Fla. L. Weekly D2289, D2290 (Fla. 2nd DCA 2013) (“Defense counsel should
28

.‘(A
^
r

have objected when the court stated that Craun was not entitled to leniency based
not on Craun’s own conduct, but on the conduct of his co-defendant, Peterson.”)
Before trial, the trial court indicated that it would impose the State’s plea
offer of ten years upon a guilty plea from Godwin. (Doc. 24, pp. 44-45) In light of
the statutory maximum imposition of life imprisonment based on improper
considerations, but for counsel’s deficient performance, there is a reasonable
probability that Godwin would’ve received a much lesser sentence. This
probability is sufficient to undermine confidence in the outcome of the sentencing
proceedings. Accord. Craun, supra, (...“reliance on those considerations was
improper, and it undermines our confidence in the outcome of the sentencing
process.”); see also Brown v. Wainwright, 785 F.2d 1457, 1465 (11th Cir. 1985)
(The defendant must prove that the false evidence was “material” in obtaining his
conviction or sentence or both.)
Consequently, reasonable jurist would find the district court’s application of
AEDPA deference, that “Godwin fails to meet his burden that the post-conviction
court unreasonably applied Strickland... which he contends is based on unreliable
or misleading information”, debatable or wrong, or conclude that the issue
presented adequate to deserve encouragement to proceed further, where Godwin
has made a prima facie case for relief (Doc. 24, pp. 51).

29

}

WHEREFORE, Godwin respectfully request that the Court grant his
application for a certificate of appealability, and any further relief deemed just and
proper in accordance with the law.
/s/
MR. JONATHAN GODWIN #M07545, pro se
DECLARATION/CERTIFICATE OF SERVICE
HAVING READ the foregoing application, I affirm under penalties of
perjury pursuant to 28 U.S.C. §1746; 18 U.S.C. §1621, all stated is true and
correct; and certify that a true copy has been handed to officials at Wakulla C.I. for
forwarding by prepaid U.S. postage to: Office of the Clerk, 56 Forsyth Street,
N.W., Atlanta, Ga. 30303; and Peter Koclanes, AAG, Concourse Center 4, 3507 E.
Frontage Rd., Suite 200, Tampa, FI 33608-7013 on this

day of December,

2020.

/s/
MR. JONATHAN GODWIN #M07545, pro se
Wakulla Correctional Institution
110 Melaleuca Drive
Crawfordville, FL 32327-4963

30

. •* '

f

fr

;;

n

EXHIBIT E

><ftppznd* £ “

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No.: 20-14409-E
JONATHAN GODWIN - Appellant,

LEGAL MAIL
Provided to
Wakulla Cl

APR 1 2 2021
VS.
FOR MAILING'

SEC’Y, DEP’T OF CORR., ET AL. - Appellee.

MOTION FOR REHEARING,
RECONSIDERATION, VACATE OR MODIFY
ORDER DENYING CERTIFICATE OF APPEALABILITY

MR. JONATHAN GODWIN #M07545
WAKULLA C.I.
110 MELALEUCA DRIVE
CRAWFORDVILLE, FLORIDA 32327
Appellant, pro se

JONATHAN GODWIN,
Appellant,
V.

CASE NO.: 20-14409-E

SECRETARY, DEPARTMENT,
OF CORRECTIONS ET. AL.,
_______________ Appellee.
/
CERTIFICATE OF INTERESTED PERSONS
AND CORPORATE DISCLOSURE STATEMENT
Pursuant to Fed. R. App. P. 26.1 and Eleventh Circuit Rule 26.1-1, the pro
se Appellant, JONATHAN GODWIN, states the following individuals or entities
have an interest in the outcome of this case:
Altenbemd

State District Court Judge

Behnke, Debra

State Circuit Court Judge

Bock, Diane K.

Assistant Attorney General

Dimmig II, Howard

Public Defender

Dix, Raymond

Special Assistant Public Defender

Flynn, Sean P.

Magistrate Judge

Foster, Jr., Robert

State Circuit Court Judge (Former)

Godwin, Jonathan

Appellant

Holt, Julianne

Public Defender

Kelly

State District Court Judge

Koclanes, Peter

Assistant Attorney General
C -1 of 2

r

JONATHAN GODWIN,
Appellant,
V.

CASE NO.: 20-14409-E

SECRETARY, DEPARTMENT,
OF CORRECTIONS ET.AL.,
Lewis, Mark

Assistant State Attorney

Merryday, Steven

United states District Judge

Moody, Ashley

Attorney General

Santiago, Jorge

Private Attorney

Sandy, Ryan

Assistant State Attorney (Former)

Silberman

State District Court Judge

Sinardi, Nick

Private Attorney

Spradley, Jennifer

Assistant Public Defender

Taylor, Wesley

Alleged Codefendant

Wallace

State District Court Judge

Ward, Samantha

State Circuit Court Judge

Warren Andrews

State Attorney

Winkler, Katrina

Victim

Appellant has no knowledge of any publicly held corporation owing 10% or more
of any parties stocks.

f

C - 2 of 2

MOTION FOR RECONSIDERATION. VACATE OR MODIFY
The pro se Appellant, Jonathan Godwin, pursuant to Fed. R. Civ. P. 59(e)
and 11th Cir. R. 27-2, moves this Honorable Court to reconsider, vacate, or modify
its March 30, 2021 order denying the Application for Certificate of Appealability.
The following hereto is in support thereof:
1. On October 23, 2020, the Middle District Court (Tampa Division) in a fiftysix (56) page slip opinion, denied Godwin’s 28 U.S.C. § 2254 complaint after
reaching the merits, along with a Certificate of Appealability and leave to proceed
in forma pauperis. (Doc. 24)
2. Godwin timely filed a Notice of Appeal, separately applied for a Certificate
of Appealability and leave to proceed in forma pauperis with this Court.
3. On March 30, 2021, this Court denied the Application for a Certificate of
Appealability, stating that Godwin failed to make the requisite showing “that
reasonable jurists would find both: (1) the merits of an underlying claim; and (2)
the procedural issues that he seeks to raise.” (citing Slack v. McDaniel, 529 U.S.
473,478 (2000)).
4. The district court in Slack, intra, “invoked the abuse of the writ doctrine to
dismiss with prejudice” his petition without reaching the merits. Slack, then sought
“to challenge the dismissal of claims as abusive.” 529 U.S., at 479-480. However,
the Ninth Circuit Court of Appeals denied Slack a Certificate of Probable Cause
1

(C.P.C.), a necessary requirement to effectuate an Appeal of the dismissal of a 28
U.S.C. §2254 complaint1. Ultimately, the U.S. Supreme Court granted certiorari,
and concluded:
Where a district court has rejected the constitutional claims on the
merits, the showing required to satisfy § 2253(c) is straightforward:
The petitioner must demonstrate that reasonablejurists wouldfind the
district court’s assessment of the constitutional claims debatable or
wrong. The issue becomes somewhat more complicated where, as
here, the district court dismisses the petition based on procedural
grounds. We hold as follows: Where the district court denies a habeas
petition on procedural grounds without reaching the prisoner’s
underlying constitutional claim, a COA should issue when the
prisoner shows, at least, that jurists of reason wouldfind it debatable
whether the petition states a valid claim of the denial of a
constitutional right and that jurist of reason would find it debatable
whether the district court was correct in its procedural ruling. 529
U.S., at 484,120 S. Ct. 1595 (emphasis added).
5. In Miller-El v. Cockrell, the United States Supreme Court reaffirmed that in
Slack, “[W]here a district court has rejected the constitutional claims on the merits,
the showing required to satisfy § 2253(c) is straightforward: The petitioner must
demonstrate that reasonable jurists would find the district court’s assessment of the
constitutional claims debatable or wrong.” 537 U.S., at 338, 123 S. Ct. 1029
(2003).

Pre - AEDPA the issuance of a C.P.C. was required to effectuate an appeal, and thus, the
equivalent to a Certificate of Appealability. See Barefoot v. Estelle, 463 U.S. 880, 893,103 S.
Ct. 3383, 77 L. Ed. 2d 1099 (1983) (must make a substantial showing of the denial of a federal
right); see e.g. 28 U.S.C. § 2253(c)(2).
2 ?

6. The district court rejected Godwin’s constitutional claims on the merits, and
therefore, to satisfy 28 U.S.C. § 2253(c), Godwin was only required to
“demonstrate that reasonable jurists would find the district court’s assessment of
the constitutional claims debatable or wrong.” Slack, 529 U.S., at 484, 120 S. Ct.
i

1595.
WHEREFORE, based on the foregoing, Godwin respectfully request that
the Court reconsider, vacate, or modify its order requiring Godwin to show both
that reasonable jurists would find debatable the district court’s assessment of; (1)
the merits of the underlying claim(s), and (2) the procedural issue(s), where the
district court rejected Godwin’s claims on the merits as opposed to dismissing
them on procedural grounds.
/s/
MR. JONATHAN GODWIN #M07545, pro se
Wakulla Correctional Institution
110 Melaleuca Drive
Crawfordville, FL 32327-4963

3

■v

EXHIBIT

PAGE 134

IN THE THIRTEENTH JUDICIAL CIRCUIT COURT
FOR HILLSBOROUGH COUNTY, FLORIDA
Criminal Justice and Trial Division
CASE NO.: 06-CF-013I97

STATE OF FLORIDA
v.

•o

3:

DIVISION:

JONATHAN GODWIN,
Defendant.

Cr‘
RS

as
sfa

^
X

-

r"
^V/

O'!)
:c

m
ORDER GRANTING AN EVIDENTIARY HEARING IN PART: ORDER DENVlNj&jN ^ a
PART
. SS? 5
n •

■?§

ro
w•

O

<T-

;-s

THIS MATTER is before the Court on Defendant’s Motion for Postconviction Relief,
filed on August 25, 2010 and Defendant’s Supplemental Motion for Postconviction Relief, filed
on December 6,2011. The Court, having considered the Motions, the court file, and the record,
finds as follows:
PROCEDURAL H [STORY

On July 24,2006, Defendant and Co-Defendant were charged with seven counts, with the
following applying to Defendant: (1), Aimed Burglary of a Structure in violation of Florida
Statutes 810.02(1) and (2)(b) and 775 087(2); (3), Kidnapping (possession of fireaim) in
violation of Florida Statutes 787.0l(l)(a) and 775.087(2); (5). Robbery (with a firearm, less than
$300) in violation of Florida Statutes 812.13(1) and (2Xa) and 775.087(2); (6), Robbery (with a
firearm , more than £300, less than $20,000) in violation of Florida Statutes 812.13(1) and (2)(a)
and 775.087(2); aod (7), Attempted Robbery (with a firearm, less than $300) m violation of
Florida Statutes 812.13(1) and (2Xa), 775.087(2) and 777.04.

{See Indictment, previously

attached in the Corn's January 3, 2012 Order) On December 20.2006, Defendant was (bund
i

guilty of Armed False Imprisonment and Robbery with a Fireaim. (See Judgmcnf, previously
attached in the Court’s January 3, 2012 Order).
1

Defendant was . sentenced, tp 15 y_ears.
Fas-BaSBeeiww-B* r
S6-CF-0VJ1ST
15 PACES
TflVLOH. UESLEV LWWft
<*213)2812
F0«®
D LflNTZ

PAGE 135

imprisonment for the Armed False Imprisonment, and life imprisonment without parole on the
- Robbery with a Firearm, both running concurrent. (See Sentence, previously attached in the
Court's January 3, 2012 Order). Defendant filed a notice of appeal on January 19, 2007. The
Second District Court of Appeal affirmed Defendant's sentence and judgment on December 19,
2008. Defendant timely riled his initial Motion fbr Postconviction Relief on August 25, 2010.
Defendant filed a Memorandum of Law and Facts in Support of the Motion for Postconviction
Relief on December 17, 2010.

Defendant filed a Motion for Leave to Supplement

Postconviction Motion and a Motion for Access to Original Court Documents on February 9,
2011. On August 3, 2011, Defendant filed a Motion for Pretrial Transcripts to be Transcribed.
On November 11, 2011, this Court grunted Defendant's request to supplement his Motion for
Postconviction Relief and dismissed Defendant's request for pretrial transcripts to be transcribed.
Defendant filed his Supplement Motion for Postconviction Relief on December 6. 2011. The
Slate filed its Response on May 15,2012.
Discussion
Overview
Defendant filed his* initial Motion for Postconviction Relief on August 25, 2010.
Defendant filed a Memorandum of Law and Facts in Support of the Motion for Postconviction
Relief on December 17,2010. Defendant filed his Supplement Motion for Postconviction Relief
on December 6, 2011. After reviewing all three documents, this Court finds that the initial
Motion and the Supplemental Motion raise the same claims, with the Supplemental Motion
including some additional exhibits.

As such, this Court will predominantly refer to the

’ References to Defendant's Supplemental Motion for Postconviction Relief are cited as SMPR, x. References Id the
State's Response are cited as S/?,x. References to the trial transcript are cited asT, x.

2

.

PAGE 136

Supplemental Motion throughout this Order. In his timely, sworn Supplemental Motion for
Postconviction Relief Defendant raises the following six grounds:
1. Defendant's Fourteenth Amendment right to Due Process under Giglio v. U.S., 405
U.S. .150 (1972) was violated when the state intentionally solicited and/or failed to
correct false or misleading evidence presented to the jury and used to obtain his
conviction.
a. Secondary Argument: Defendant’s Fourteenth Amendment right to Due
Process under Brady v. Maryland,, 373 U.S. 83 (1963) was violated by the
State’s failure to disclose favorable impeaching evidence.
2. Defendant’s Fifth Amendment Right against Double Jeopardy was violated when,
after the jury was sworn, the State orally amended the information charging armed
kidnapping to armed false imprisonment.
3. Defendant’s Fourteenth Amendment Right to Due Process under Kentucky v. Stincer,
482 U.S. 730 (1987) was violated by his involuntary absence at a hearing on a motion
for new trial.
a. Secondary Argument: Counsel was ineffective for failing to object to the
absence of Defendant.
4. Defendant’s Fourteenth, Fifth and Article I § 9 Right to Due Process was violated by
imposition of a vindictive sentence, thus constituting fundamental error.
a. Secondary Argument: Counsel was ineffective for failing to object to the
imposition of a life sentence.
5. Trial court committed fundamental error when it improperly considered Defendant’s
right to maintain his innocence and failure to show remorse when imposing
Defendant’s sentence, thus violating Defendant’s Fifth and Fourteenth Amendment
Rights to Due Process.
a. Secondary Argument: Defendant’s Fifth and Fourteenth Amendment rights to
Due Process under Townsend v. Burke, 334 U.S. 736 (1948) were violated

when the trial court relied on materially false or unreliable information when
sentencing Defendant, thus constituting fundamental error. '
b. Tertiary Argument: Counsel was ineffective for failing to object to the trial
court's consideration of Defendant's plea rejection, Defendant’s failure to
show remorse, and trial court’s reliance on materially false and/or unreliable
information when imposing Defendant’s sentence.
6. Defendant's Fourteenth Amendment Right to Due Process and access to the courts
was violated by the denial of the trial court to provide transcripts needed for
Defendant to petition the U.S. Supreme Court.

3

PAGE 137

—~ •*—r

[n the Court’s January 3, 2012 Order Denying Defendant’s Motion for Access to Original
Court Documents, Denying Defendant’s Supplemental Motion for Postconviction Relief in Part;
Ordering State to Respond in Part, the Court denied Defendant's Ground Two, Ground Four,
Ground Five, Ground Five Sub-ground One and Ground Six. The Court ordered the State to
respond to Defendant's remaining grounds. After considering Defendant's remaining grounds
and the State’s response, the present order now follows:
Strickland Standard
In his Motion, Defendant alleges ineffective assistance of counsel. In Strickland v.
Washington, 466 U.S. 668, 686-87 (1984), the Supreme Court of the United States established
the standards of an ineffectiveness inquiry:
The benchmark for judging any claim of ineffectiveness must be whether
counsel’s conduct so undermined the proper functioning of the adversarial process
that the trial CBnnot be relied on as having produced a just result.
A convicted defendant’s claim that counsel's assistance was so defective
as to require reversal of a conviction...has two components. First, the defendant
must show that counsel’s performance was deficient. This requires showing that
counsel made errors so serious that counsel was not functioning as the “counsel”
guaranteed the defendant by the Sixth Amendment Second, the defendant must
show that the deficient performance prejudiced the defense. This requires
showing that counsel’s errors were so serious as to deprive the defendant of a fair
trial, a trial whose result is reliable. Unless a defendant makes both showings, it
cannot be said that the conviction...resulted from a breakdown in the adversary
process that renders the result unreliable.
.. .the proper standard for attorney performance is of reasonably effective
assistance.

Thus, effective assistance of counsel does not mean that a defendant must be afforded
errorless counsel, or that future developments in law must be anticipated. Meeks v. State, 382
So. 2d 673,675-76 (Fla. 1980). Additionally, when ineffective assistance is alleged, the burden
is on the person seeking collateral relief to allege , the grounds for relief, specifically, and to

4

PAGE 138

affirmatively establish whether prejudice resulted. See Downs v. State, 453 So. 2d I 102, 1108
(Fla. 1984) (citing Strickland, 466 U.S. at 693). The test for prejudice is:
[TJhat there is a reasonable probability that, but for counsel's unprofessional
errors, the result of ihe proceeding would have been different. A reasonable
probability is a probability sufficient to undermine confidence in the outcome.
Stricldand, 466 U.S.at694.
Accordingly, a defendant claiming ineffective assistance of counsel in a motion for
postconviction relief pursuant to Florida Rule of Criminal Procedure 3.850 has .the burden to
prove: (1) counsel’s deficient performance deprived defendant of his or her constitutionally
protected right to counsel; and (2) counsel's deficient performance changed the outcome of the
proceeding and deprived defendant of a fair trial. See Id. at 686-87.
However, even if a defendant's allegations are sufficient to state a claim for relief a
motion may be summarily denied, without an evidentiary hearing, if the record conclusively
refutes the allegations and demonstrates that the defendant is not entitled to relief See Anderson
v. State, 627 So. 2d 1170, 1171 (Fla. 1993). An evidentiary hearing will be requited unless the
motion is facially insufficient, or the record demonstrates that the defendant is not entitled to
relief. See id Additionally, at an eidentiaiy hearing on a claim of ineffective assistance of
counsel, the ’'court must be highly deferential to counsel, and in assessing the performance,
every effort must *be made to eliminate the distorting effects of hindsight* to reconstruct the
circumstances of counsel’s challenged conduct, and to evaluate the conduct from counsel's
perspective at the time.”’ Ferrell v. State, 918 So. 2d 163, 170 (Fla. 2005) (quoting Strickland,
466 U.S. at 689).
I. Ground One, and Ground One Sub-ground One, of Defendant’s
Supplemental motion for Postconviction Relief

5

PAGE 139

I

in Ground One of bis Supplemental Motion for Postconviction Relief, Defendant alleges
that his Fourteenth Amendment Right to Due Process under Giglio v. United States, 405 U.S.
150 (1972) was violated. SMPR, 5. He bases this claim on' three specific occurrences. First,
Defendant claims that the State knowingly allowed State witness Katrina Winkler to provide
false testimony that Defendant was the shorter of two men who robbed her. SMPR, 5-6.
Defendant argues that the State knew this testimony was false or misleading because the criminal
report affidavits show that Defendant is five feet, eight inches tall, while his co-defendant is five
feet, five inches tali. SMPR, 6. Second, Defendant argues that the criminal report affidavits
show that the co-dcfendanl attacked State witness Katrina Winkler; and not Defendant, contrary
to her testimony. SMPR, 7. Finally, Defendant argues that because Katrina Winkler was unable
to identify him in a photo line-up, bet later in-court testimony is misleading or false. SMPR, 7.8.
To establish a Giglio claim that the state intentionally deceived or misled the defendant
and the trier of fact by allowing false testimony, it must be shown that (1), the testimony given
was false; (2), the prosecutor knew the testimony was false; and (3), the false testimony was
material.- Johnston v. State, 70 So 3d 472 (Fla. 2011). In its response, the State argues that the
mere fact that a witness may have made conflicting statements docs not necessarily mean that

her trial testimony was false. SR, 1-2 (citing to Rockerman v. State, 773 So.2d 602 (Fla. 1st
DC A 2000}). The State goes on to note that the trial court addressed Defendant's complaint as to
the inconsistency with the evidence of Defendant’s height: “It’s not perjured testimony...
[T]hcy may think that you are the tall guy. That the short guy did it and the short guy had the
gun and you didn’t have a gun so you could be a principal to be guilty of robbery with no
firearm.” SR, 2 (citing T, 618, 618-619). The State also notes that the prior statements were

6

PAGE 140

available for use during cross-examination, and that Defendant did raise these matters at that
time. The State argues that Defendant has not shown that (1), the testimony given was false
beyond being inconsistent with some prior statements; or, (2),- that the prosecutor knew that the
testimony was false. The State moves to have this claim denied. The Court agrees with the
State's argument Therefore, Defendant’s Ground One is DENIED.
In Ground One of his Supplemental Motion for Postconviction Relief, Defendant also
I

alleges that his Fourteenth Amendment right to due process under Brady v. Maryland, 373 U.S.
83 (1963) was violated by the State’s failure to disclose favorable impeaching evidence
regarding a BOLO (be on the lookout) alert. SMPR, 12. Defendant states that witness Officer
David Trick testified at a pretrial hearing that he received a BOLO from Officer Gary Felice for
a large gray Oldsmobile, driven by two black males and including'a clothing description. SMPR,
12. However, during trial the State turned over a copy of the BOLO, which included the
following description: “A large, dark blue Oldsmobile, a blue Oldsmobile, traveling eastbound
on Broadway Boulevard and Orient.” SMPR, 12; T, 320. Defendant complains that the State
failed to provide the BOLQ before the pretrial hearing, where Defendant could have used it as
favorable impeaching evidence. SMPR, 13. Under Brady, Defendant bears the burden to show
prejudice and must demonstrate that favorable material evidence was willfully or inadvertently

suppressed by the State. Hannon v. State, 941 So.2d 1109 (Fla. 2006); Archer v. State, 934
So.2d 1187 (Fla. 2006); Deren v. State, 985 So 2d 1087 (Fla. 2008).
In its Response, the Slate agrees that Defendant is entitled to an evidentiary hearing on
this sub-ground. It is therefore ORDERED AND ADJUDGED that Defendant’s Supplemental
Motion for Post-Conviction Relief is hereby GRANTED to the extent that Defendant is entitled
to an evidentiary hearing on Ground One, Sub-Ground One.

7

PAGE 141

II. Ground Three, and Ground Three Sur-crolnd One
Supplemental. Motion for Postconvictjon Reli ef

of

Defendant's
i

In Ground Three of his Motion for Postconviction Relief, Defendant argues that his
Fourteenth Amendment right to Due Process under Kentucky v. Stincer, 482 U.S. 73)0 (1987) was
violated by his involuntary absence at a hearing on his motion for new trial. SMPR, 16.
Defendant drums that his presence at the hearing would have made the hearing more reliable,
and enumerates a variety of arguments that he believes would have been improved had he been
present to assist his attorney in making them. SMPR, 17-18.
A claim pursuant to Kentucky v. Ameer, 482 U.S. 730 (1987) may be raised in a motion
for posteonviclion relief. Donaldson v. Slate, 98S So.2d 63, 64 (2008). A criminal defendant's
presence is required “at any stage of the criminal proceeding that is critical to the outcome if [the
defendant's] presence would contribute to the fairness of the procedure.” Kentucky v. Stincer,
482 U.S. 730, 745 (1987). Defendant additionally alleges that trial counsel was ineffective for
foiling to object to the hearing on a motion for new trial proceeding without Defendant. SMPR,
18. Defendant argues that trial counsel was not adequately familiar with Defendant's grounds
for a new trial, arid failed to fully argue Defendant’s case. SMPR, 19. Defendant claims that,
had he been present, there is a reasonable probability that the trial court would have granted his
motion. SMPR, 20.
In its Response, the State agrees that Defendant is entitled to an evidentiary hearing on
these grounds.

SR, 3.

It is therefore ORDERED AND ADJUDGED that Defendant’s

Supplemental Motion for Post-Conviction Relief is hereby GRANTF.D to the extent that
Defendant is entitled to an evidentiary hearing on Ground Three and Ground Three, Sub-ground
One.
i

i
■ i

i

8

l

I
i

PAGE 142-

' HL Ground Four Sub-ground One of Defendant’s Supplemental Motion for
Postconv icn ON Relief.
I

In Ground Four Sub-ground One Defendant alleges that his trial counsel was ineffective
for failing to object to Defendant’s sentence as vindictive. SMPR, 22. Defendant.stales that if
trial counsel had objected to the trial court's allegedly vindictive sentence, the results of the
sentencing proceeding would have been different. 5MP/i, 23. An allegation of counsel s failure
to object to a vindictive sentence is a cognizable claim under a motion for postconviction relief.
SL Pierre v. Slate, 966 So.2d 972,975 (Fla. 2d DCA 2007).
In its Response, the State argues that whether. Defendant’s sentence was vindictive is
controlled by factors described in Wilson v. State, 845 So.2d 142 (2003), including judicial
participation in plea negotiations followed by a harsher sentence, if the trial judge initiated
negotiations, if the trial judge urged the defendant to take the plea, the disparity between the
offer and the ultimate sentence, and the lack of facts to explain the increased sentence. SR, 5-6.
However, the factors under which a court can oonsider whether a sentence is vindictive are not
limited to those listed above.

In Wilson, the Supreme Court adopted

“totality of the

circumstances” test where circumstances giving rise to a presumption of vindictiveness shifts the
burden to the State to produce affirmative evidence on the record that dispels the presumption.
Wilson, 845 So.2d 156-157. While the State asks ihe Court to treat this issue as purely one of
law, the Court finds that, under the totality of the circumstances. Defendant has made a facially
sufficient case showing a presumption of vindictiveness. Therefore, the State should be afforded
the opportunity to rebut this presumption by producing affirmative evidence from the record at
an evidentiary hearing. If the sentence ultimately proves vindictive, the Court must then take
evidence at an evidentiary hearing as to whether trial counsel was ineffective for failing to object
to the sentence,

9

PAGE 143

\

It 1$ therefore ORDERED AND ADJUDGED that Defendant’s Supplemental Motion .
!
i

for Post-Conviction Relief is hereby GRANTED to the extent that Defendant is entitled to an
evidentiary hearing on Ground Four Sub-ground One.

!

IV. Ground Five Sub-ground Two of Defendant’s Supplemental Motion for'
Postconviction Relief
In Ground Five Sub-ground Two, Defendant alleges that trial counsel was ineffective for
failing to object to the trial court’s consideration of Defendant’s refusal to accept a plea, failure
to show remorse, and reliance on materially false or misleading evidence. SMPR, 27-28.
Defendant argues that he would have received a lesser sentence had trial counsel objected to the
sentence. SMPR, 28.

In its Response, the State agrees that Defendant is entitled to an

evidentiary hearing on this sub-ground. It is therefore ORDERED AND ADJUDGED that
Defendant's Supplemental Motion for Post-Conviction Relief is hereby GRANTED to the
extent that Defendant is entitled to an evidentiary hearing on Ground Five Sub-ground Two,
Cumulative Order
The Court warns Defendant that, pursuant to Rule 3.850(m),
A prisoner, who is found by a court to have brought a frivolous or malicious
collateral criminal proceeding, or who knowlingly or with reckless disregard for
the truth brought false information or evidence before the court, is subject to
disciplinary procedures pursuant to the rules of the Department of Corrections.
The prisoner may also be prohibited from filing future pro se pleadings attacking
his or her conviction and sentence.
See Flo. R. Crim. P. 3.850(m).
It is therefore ORDERED AND ADJUDGED that Defendant’s Supplemental Motion
for Post-Conviction Relief is hereby GRANTED to the extent that Defendant is entitled to an
evidentiary hearing on Ground One Sub-ground One, Ground Three, Ground Three Sub-ground
One, Ground Four Sub-ground One, and Ground Five Sub-ground Two.
i

It is further ORDERED that Ground One is DENIED.

1
\
i

10
1

PAGE 144

This matter will be set for a status hearing at the Court’s earliest convenience to
determine Defendant’s entitlement to counsel, and, once the Court schedules Defendant’s
t

evidentiary hearing. Defendant will be transported for that hearing. As such, it is unnecessary for
Defendant to file either a motion for appointment of counsel or motion for transport.''
Defendant may not appeal until such time as this Court has entered a final Order.
DONE AND ORDERED in Chambers in Hillsborough County, Florida this ^%y of
June, 2012.

DEBRA K. BEHNKE, Circuit Judge

Attachments:
Trial Transcript, pgs.: 618-619, 320
Send copies to:
Jonathan Godwin
#M07545
Mayo Correctional Institution
8784 W. U.S. Highway 27
Mayo, FL 32066
Mark Lewis, Esq.
Assistant State Attorney for Div. C
419 N. Pierce Street
Tampa, Florida 33602

J1

«

PAGE 145-

4

*.

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a copy of this Order has been furnished to Jonathan Godwin
t

(DC # M07545), Mayo Correctional Institution, 8784 W. U.S. Highway 27, Mayo, Florida 32066
■

. ;.

I

by regular U.S. Mail; and to Mark Lewis, Assistant State Attorney for Division C, 419 Pierce
Street, Tampa, Florida 33602, by inter-office mail on tl

m 1.2—-day of June, 2012.

Ida Kopez, Judicial Assistant

12

»

»;

IN THE THIRTEENTH JUDICIAL CIRCUIT COURT
FOR HILLSBOROUGH COUNTY, FLORIDA
Criminal Justice Division
STATE OF FLORIDA

CASE NO.:

06-CF-013197

DIVISION:

C

v.
JONATHAN GODWIN,
Defendant.

ORDER DENYING GROUND ONE SUB-GROUND ONE. GROUND THREE. GROUND
THREE SUB-GROUND ONE. GROUND FOUR SUB-GROUND ONE. AND GROUND
FIVE SUB-GROUND TWO OF MOTIONS FOR POSTCONVICTION RELIEF
THIS MATTER is before the Court on Defendant’s Motion for Postconviction Relief
filed on August 25, 2010, and Defendant’s Supplemental Motion for Postconviction Relief, filed
December 5, 2011, pursuant to Florida Rule of Criminal Procedure 3.850.1 On June 13, 2012,
the Court granted an evidentiary hearing on ground one sub-ground one, ground three, ground
three sub-ground one, ground four sub-ground one, and ground five sub-ground two.

On

September 27, 2012, the Court held the evidentiary hearing. Written arguments were due on
November 9, 2012. After reviewing the allegations, the testimony, evidence and arguments
presented at the September 27, 2012, evidentiary hearing, the court file, and the record, the Court
finds as follows:
Procedural History
On July 24, 2006, Defendant and Co-Defendant were charged with seven counts, with the
following applying to Defendant: (1), Armed Burglary of a Structure in violation of Florida
Statutes 810.02(1) and (2)(b) and 775.087(2); (3), Kidnapping (possession of firearm) in
violation of Florida Statutes 787.01(l)(a) and 775.087(2); (5), Robbery (with a firearm, less than

i

The Court notes that Defendant’s Motion for Postconviction Relief and Defendant’s Supplemental Motion for
Postconviction Relief will hereinafter be referred to as Defendant’s Motions.
Page 1 of 29

$300) in violation of Florida Statutes 812.13(1) and (2)(a) and 775.087(2); (6), Robbery (with a
firearm, more than $300, less than $20,000) in violation of Florida Statutes 812.13(1) and (2)(a)
and 775.087(2); and (7), Attempted Robbery (with a firearm, less than $300) in violation of
Florida Statutes 812.13(1) and (2)(a), 775.087(2) and 777.04. See Indictment, attached. On
December 20, 2006, a jury found Defendant guilty of Armed False Imprisonment and Robbery
with a Firearm. See Verdict Form, attached. Defendant was sentenced to 15 years’ Florida State
Prison for Armed False Imprisonment, and life in prison without parole for Robbery with a
Firearm, both running concurrent. See Judgment and Sentence, attached. The Second District
Court of Appeal affirmed the conviction and sentence, and the mandate issued December 17,
2008. See Mandate, attached.
In his timely, properly sworn Motions for Postconviction Relief, Defendant alleges six
grounds.2 See Motion for Postconviction Relief, Supplemental Motion for Postconviction Relief,
attached. On January 3, 2012, the Court denied ground two, including ground two sub-ground
one and ground two sub-ground two, ground four, ground five, ground five sub-ground one and
ground six, and ordered the State to respond to ground one, ground one sub-ground one, ground
three, ground three sub-ground one, ground four sub-ground one and ground five sub-ground
two. See Order Denying Defendant’s Motion for Access to Original Court Documents; Denying
Defendant’s Supplemental Motion for Postconviction Relief in Part; Ordering State to Respond
in Part, attached. After considering Defendant’s remaining grounds and the State’s response, on
June 13, 2012, the Court denied ground one and granted an evidentiary hearing on ground one
sub-ground One, ground three, ground three sub-ground one, ground four sub-ground one and

2 In his Motions, Defendant alleges a total of six grounds. However, some of the grounds include secondary
arguments. For clarity, the Court will provide Defendant’s numbering sequence as it appears in his Postconviction
Motions: Ground 1, Ground 1(d), Ground 2, Ground 2(a), Ground 2(b), Ground 3, Ground 3(a), Ground 4, Ground
4(a), Ground 5, Ground 5(a), Ground 5(b), Ground 6.
Page 2 of 29

ground five sub-ground two. See Order Granting an Evidentiary Hearing in Part; Order Denying
in Part, attached.

On September 27, 2012, this Court held an evidentiary hearing on the

remaining claims. At the evidentiary hearing, defense counsel requested additional time to file
written arguments. The Court granted the request and gave the parties until November, 9, 2012,
to file written arguments. See September 27, 2012 Case Progress Sheet, Evidentiary Hearing
Transcript, attached.

Defense counsel filed written arguments on November 9, 2012.

See

Defendant’s Argument in support of 3.850, attached.
Discussion
Overview
At the evidentiary hearing, the Court heard testimony from Defendant, Defendant’s trial
counsel, Nick Sinardi , and the assistant state attorney who prosecuted Defendant, Ryan Sawdy,
on the following five grounds:
1(d).

Defendant’s Fourteenth Amendment right to Due Process under Brady v.
Maryland, 373 U.S. 83 (1963), was violated by the State’s failure to disclose
favorable impeachable evidence;

3.

Defendant’s Fourteenth Amendment Right to Due Process under Kentucky v.
Stincer, 482 U.S. 730 (1987), was violated by his involuntary absence at a hearing
on a motion for new trial;

3(a).

Ineffective assistance of counsel: Trial counsel, Nick Sinardi, was ineffective for
failing to object to the absence of Defendant at the motion for new trial;

4(a).

Ineffective assistance of counsel: Trial counsel, Nick Sinardi, was ineffective for
failing to object to the imposition of a life sentence after a jury trial, when the trial
court urged the Defendant to accept an earlier plea offer of ten (10) years;

5(b).

Ineffective assistance of counsel: Trial counsel, Nick Sinardi, was ineffective for
failing to object to the trial court’s consideration of Defendant’s plea rejection,
Defendant’s failure to show remorse, and trial court’s reliance on materially false
and/or unreliable information when imposing Defendant’s sentence.

3 The Court notes that Defendant represented himself at trial. Nick Sinardi was appointed standby counsel, and was
appointed counsel for sentencing purposes.
Page 3 of 29

< >

Strickland Standard
In his Motion, Defendant alleges ineffective assistance of counsel.

In Strickland v.

Washington, 466 U.S. 668, 686-87 (1984), the Supreme Court of the United States established
the standards of an ineffectiveness inquiry:
The benchmark for judging any claim of ineffectiveness must be whether
counsel’s conduct so undermined the proper functioning of the adversarial process
that the trial cannot be relied on as having produced a just result.
A convicted defendant’s claim that counsel’s assistance was so defective
as to require reversal of a conviction.. .has two components. First, the defendant
must show that counsel’s performance was deficient. This requires showing that
counsel made errors so serious that counsel was not functioning as the “counsel”
guaranteed the defendant by the Sixth Amendment. Second, the defendant must
show that the deficient performance prejudiced the defense. This requires
showing that counsel’s errors were so serious as to deprive the defendant of a fair
trial, a trial whose result is reliable. Unless a defendant makes both showings, it
cannot be said that the conviction.. .resulted from a breakdown in the adversary
process that renders the result unreliable.
.. .the proper standard for attorney performance is of reasonably effective
assistance.
Thus, effective assistance of counsel does not mean that a defendant must be afforded
errorless counsel, or that future developments in law must be anticipated. Meeks v. State, 382
So. 2d 673, 675-76 (Fla. 1980). Additionally, when ineffective assistance is alleged, the burden
is on the person seeking collateral relief to allege the grounds for relief, specifically, and to
affirmatively establish whether prejudice resulted. See Downs v. State, 453 So. 2d 1102, 1108
(Fla. 1984) (citing Strickland, 466 U.S. at 693). The test for prejudice is:
[Tjhat there is a reasonable probability that, but for counsel’s unprofessional
errors, the result of the proceeding would have been different. A reasonable
probability is a probability sufficient to undermine confidence in the outcome.
Strickland, 466 U.S. at 694. -

Page 4 of 29

Accordingly, a defendant claiming ineffective assistance of counsel in a motion for
postconviction relief pursuant to Florida Rule of Criminal Procedure 3.850 has the burden to
prove: (1) counsel’s deficient performance deprived defendant of his or her constitutionally
protected right to counsel; and (2) counsel’s deficient performance changed the outcome of the
proceeding and deprived defendant of a fair trial. See id. at 686-87.
Ground One Sub-ground One
In ground one sub-ground one, Defendant alleges that his Fourteenth Amendment right to
due process under Brady v. Maryland, 373 U.S. 83 (1963) was violated by the State’s failure to
disclose favorable impeaching evidence regarding a BOLO (be on the lookout alert). Defendant
alleges that Officer David Trick testified at a pretrial hearing that he received a BOLO from
Officer Gary Felice for a large gray Oldsmobile, driven by two black males and including a
clothing description. However, after the pretrial hearing, the State turned over a copy of the
BOLO, which included the following description: “A large, dark blue Oldsmobile, a blue
Oldsmobile, traveling eastbound on Broadway Boulevard and Orient.” Defendant complains
that the State failed to provide the BOLO before the pretrial hearing, where Defendant could
have used it as favorable impeaching evidence.
On September 21, 2006, Defendant filed a motion to suppress a bank statement and
papers on the grounds that “defendant was unlawfully stopped and detained as a result of which
the evidence was discovered. In other words, Defendant was stopped without any reasonable
suspicion of (1) having committed a criminal offense; (2) committing a criminal offense; or (3)
being about to commit a criminal offense.” See Motion to Suppress, attached. A hearing was
held on October 20, 2006, and the Motion was denied on October 31, 2006.

Defendant

complains that he was not given a copy of the BOLO recording until after the hearing but prior to

Page 5 of 29

trial.

Defendant alleges that there is a reasonable probability, that had the evidence been

disclosed to Defendant in a timely manner, the result of the hearing would have been different.
At the outset, this issue is procedurally barred since it should have been raised on direct
appeal. In fact, it appears that a very similar issue was raised on direct appeal. Green v. State,
975 So. 2d 1090, 1105 (Fla. 2008); Robinson v. State, 707 So. 2d 688, 693 (Fla. 1998); Rose v.
State, 675 So. 2d 567, 569 n. 1 (Fla. 1996). As to the merits, Brady requires the State to disclose
material information within its possession or control that is favorable to the defense. Hunter v.
State, 29 So. 3d 256 (Fla. 2008). To establish a Brady violation, a defendant must demonstrate
that “(1) the State possessed evidence favorable to the accused because it was either exculpatory
or impeaching; (2) the State willfully or inadvertently suppressed the evidence4; and (3) the
defendant was prejudiced.” Allen v. State, 854 So. 2d 1255, 1259 (Fla. 2003) (citing Stickler v.
Greene, 527 U.S. 263, 281-82 (1999)).

Evidence is prejudicial under Brady if there is a

reasonable probability that had the evidence been disclosed, the result of the proceeding would
have been different. Jones v. State, 998 So. 2d 573 (Fla. 2008). Thus, the proper inquiry is
whether the outcome of the motion to suppress would have been different had Defendant been
able to use the BOLO to impeach the officers’ testimony regarding the color of the vehicle as
provided in the BOLO.
In applying the Brady test to the facts, the Court finds that there is no reasonable
probability that had the BOLO been disclosed prior to the hearing on the motion to suppress, the

4 The Court notes that the record is inconclusive as to whether Defendant was provided a copy of the cassette tape
containing the BOLO prior to the hearing on the motion to suppress. Ryan Sawdy, who was the lead prosecutor in
Defendant’s case, testified at the evidentiary hearing that he provided a copy of the tape to Defendant prior to the
hearing. See Evid. Hrg. Transcr. 32. However, the Court is unable to find with confidence that Defendant was
provided a copy of the BOLO prior to the hearing. While an Additional Notice of Discovery, dated September 14,
,2006, does state “Enclosed please find a the [sic] audio cassette enclosed”, there is no description of the contents of
the cassette tape. See Additional Notice of Discovery, attached. As such, the Court will assume that Defendant did
not receive a copy of the cassette tape prior to the hearing on the motion to suppress.
Page 6 of 29

outcome of the motion to suppress would have been different.5 The motion to suppress would
have been denied even if Defendant was able to use the BOLO to impeach Detective Trick’s
testimony or any other witness regarding the color of the vehicle as provided in the BOLO.
At the hearing held to address Defendant’s motion to suppress, Officer Trick testified as
follows:
Mr. Sawdy: And in what capacity were you working that evening?
Ofc Trick:

As a patrol officer.

Mr. Sawdy: At some point irt the evening, did you hear any radio
transmissions by Officer Felice?
Ofc Trick:

Yes, I did.

Mr. Sawdy: Could you tell the Court what it was that you heard over the radio
from Officer Felice?
Ofc Trick:

He gave a robbery BOLO which contained vehicle description
and two suspects’ descriptions and direction of travel of the
vehicle?

Mr. Sawdy: Can you tell the Court what the vehicle description was that you
heard over the BOLO?
Ofc Trick:

A large gray Oldsmobile, I think.

Mr. Sawdy: And do you remember the description of the occupants that was
given over the radio?
Ofc Trick:

There was [sic] two black males and gave their shirt colors, but I
can’t remember what the shirt color was.

Mr. Sawdy: And the direction of travel, you said was also given.
direction was given over the radio?
Ofc Trick:

What

Eastbound on Broadway.

5 The Court notes that Defendant received a cassette tape of the BOLO prior to trial. At no time after receiving the
cassette tape and before the commencement of trial did Defendant file any type of motion alleging a Brady violation.
Further, the recording of the BOLO was admitted as evidence at trial. Defendant, who represented himself at trial,
used the recording of the BOLO to point out inconsistencies between the BOLO and testimony elicited at trial, most
notably Officer David Trick’s testimony.
Page 7 of 29

Mr. Sawdy: And did you have an opportunity when you heard that BOLO,
were you in patrol or on patrol, I should say?
Ofc Trick:

Yes, I was.

Mr. Sawdy: Where were you located when you heard this radio transmission?
Ofc Trick:

Around Adamo and 50th Street.

Mr. Sawdy: At the time you heard this radio transmission was your attention
drawn to any particular vehicle on the road at that time?
Ofc Trick:

No.

Mr. Sawdy: How long after hearing this radio transmission - let me ask you
this. Did you eventually come into contact with a vehicle and
make a stop on the vehicle?
Ofc Trick:

Yes, I did.

Mr. Sawdy: At what point or how long after hearing this radio transmission
did you make a stop on that vehicle?
Ofc Trick:

Three minutes, five minutes.

Mr. Sawdy: And when was it that you actually saw - actually not when, but
where did you see this vehicle?
Ofc Trick:

I saw it at the lights on Broadway, heading eastbound at Adamo.

Mr. Sawdy: What did you observe as that vehicle - what was the description
that you actually saw?
Ofc Trick:

A large gray color vehicle with two black male occupants.

Mr. Sawdy: And based on the BOLO and what you saw, did you then pull this
vehicle over?
Ofc Trick:

Yes, I did.

Mr. Sawdy: Now when you went back to the driver’s side, what happened
next?
Ofc Trick:

I asked the driver for permission to search his vehicle.

Page 8 of 29

Mr. Sawdy: Did the driver give that permission?
Ofc Trick:

Yes, he did.

October 20, 2006 Hearing Transcr. 30:4-25, 31:1-25, 32:1-7, 33:21-25, 34:1
At the motion to suppress hearing, Officer Felice testified that when he transmitted the
BOLO over the radio, he indicated that it was either blue or gray in color, and that the victim
believed the car was an Oldsmobile. October 20, 2006 Hearing Transcr. 20:24-15, 21:1-9. The
BOLO was admitted as evidence by Defendant at trial and was played for the jury.
A police officer may stop a vehicle and request identification from its occupants when the
officer has founded or reasonable suspicion that the occupants of the vehicle have committed , are
committing, or are about to commit a crime. Hunter v. State, 660 So. 2d 244, 249 (Fla. 1995). A
founded suspicion” is a suspicion which has some factual foundation in the circumstances
observed by the officer, when those circumstances are interpreted in the light of the officer’s
knowledge. Id. Several factors are relevant in assessing the legitimacy of a vehicle stop pursuant
to a BOLO: “(1) length of time and distance from the offense; (2) route of flight; (3) specificity
of the description of the vehicle and its occupants; and (4) the source of the BOLO information.”
Id., State v. Wise, 603 So. 2d 61, 63 (Fla. 2d DCA 1992). Other information which is relevant to
determine the validity of the stop includes the time of day, the absence of other persons or
vehicles in the vicinity of the sighting, any other suspicious conduct, and other activity consistent
with guilt. Rodriquez v. State, 948 So. 2d 912, 914 (Fla. 4th DCA 2007). The BOLO in this
case was admitted as evidence by Defendant at trial and was played for the jury. The BOLO was
issued for a “large, dark blue Oldsmobile, eastbound on Broadway.”

The suspects were

described as two black males wearing white t-shirts. Trial Transcr. 318-324.

Page 9 of 29

Looking to the first factor, time and distance from the offense, Officer Felice transmitted
the initial BOLO over the radio. At around 2:00 a.m., he was dispatched to an intrusion alarm,
but as he approached the location of the alarm call, he encountered a topless woman running and
yelling “please stop, we’re being robbed”. The woman indicated that she worked at Pleasure
Time, located across the street, and that they we were being robbed.

As Officer Felice

positioned his vehicle at the scene, a second woman ran towards him and stated that they had just
been robbed and that the suspects had just fled in a vehicle. At this point, Officer Felice obtained
a description of the suspects, a description of the vehicle, and the direction the vehicle fled from
the second woman.
information.

Officer Felice then immediately transmitted a BOLO based on this

October 20, 2006 Hearing Transcr. 15-24. The BOLO was issued almost

immediately after the suspects fled. Officer Trick testified that he pulled over Defendant’s
vehicle approximately 3-5 minutes after hearing the BOLO. The radio transmissions played at
trial indicate that Officer Trick pulled over Defendant’s vehicle within 7 minutes of the BOLO.
As such, Defendant’s vehicle was apprehended within 7 minutes of the transmission of the
BOLO almost immediately after the suspects had fled Pleasure Time. Therefore, Defendant’s
vehicle was close to the crime scene in both time and distance.
Regarding the second factor, route of flight, the BOLO specified that the suspect’s
vehicle was heading eastbound on Broadway. Officer Trick testified that he pulled over the
Defendant while he was traveling east on Broadway. October 20, 2006 Hearing Transcr. 31. As
such, Defendant’s location, when stopped, coincided with the route of flight provided for in the
BOLO.
Regarding the third factor, specificity of the description of the vehicle and its occupants,
the BOLO indicated that two black males were traveling in a large, dark, blue Oldsmobile.

Page 10 of 29

While the occupants of the vehicle were consistent with the description provided for in the
BOLO, two black males, the vehicle was not dark blue, it was gray. Further, the vehicle was a
Cadillac, not an Oldsmobile. However, the makes were similar as they were both large, boxy
vehicles, and Defendant’s vehicle while not dark blue, was dark gray. The Court notes that
Officer Felice first encountered the victims around 2:00 a.m., and that Defendant was arrested at
2:30 a.m. Generally, vehicular traffic is sparse at that early hour of the morning. The Court
must take this into consideration when determining if Officer Trick had the requisite “reasonable
or founded” suspicion to stop the vehicle. Grant v. State, 718 So. 2d 238 (Fla. 2d DCA 1998);
Cobb v. State, 642 So. 2d 656 (Fla. 1st DCA 1994)
Lastly, the fourth factor, the source of the BOLO information, Officer Felice testified that
he sent the BOLO immediately after receiving a description from the victim at the crime scene.
The totality of the circumstances appear sufficient to support the stop of Defendant: he
was close to the location, in both time and distance, where the BOLO indicated the suspects had
fled, he was traveling the same direction, on the same road as indicated in the BOLO, he was
apprehended within 7 minutes of the BOLO which was issued almost immediately after the
suspects fled the crime scene, and the BOLO was based on the description provided to law
enforcement by the victim at the crime scene. Further, the description of the suspects, two black
males, fit the occupants of Defendant’s vehicle. While the description of the vehicle differed in
both make and model, the vehicle which was apprehended was a similar make and similar color.
Further, the Court notes that Defendant was pulled over sometime after 2:00 a.m., and was
arrested at 2:30 a.m., a time where there is generally less vehicles on the roadway. As such, the
trial court was correct in denying Defendant’s motion to suppress.

Deputy Trick had the

requisite reasonable suspicion to stop Defendant.

Page 11 of 29

The Court finds that even if Defendant was able to impeach Officer Trick regarding the
description of the vehicle as provided for in the BOLO, the trial court would have still denied
Defendant’s motion to suppress. The length of time from the report of the BOLO, the distance
and location where Defendant was stopped, the route of flight, the source of the BOLO, the
suspect’s description as provided for the BOLO, the time of the incident, and the similarities
between Defendant’s vehicle and the description provided for in the BOLO all support the stop.
As such, Defendant cannot demonstrate prejudice as required by Brady. Therefore, the Court
must deny ground one sub-ground one of Defendant’s Motions.
Ground Three
In claim three, Defendant alleges that his Fourteenth Amendment right to due process
under Kentucky v. Stincer, 482 U.S. 730 (1987) was violated by his involuntary absence at a
hearing on his motion for new trial. Defendant claims that his presence at the hearing would
have made the hearing more reliable, and enumerates a variety of arguments that he believes
would have been improved had he been present to assist his attorney in making them.
Defendant further argues that trial counsel was not familiar with Defendant’s grounds for a new
tnal, and failed to fully argue Defendant’s case. Last, Defendant claims that had he been present,
there is a reasonable probability that the trial court would have granted his motion.
However, the Court finds that this claim is procedurally barred because it could have
been and should have been raised on direct appeal. See Morris v. State, 931 So. 2d 821, 832 & n.
12 (Fla. 2006) (concluding that defendant’s claim that his involuntary absence from discussions
with the trial court during the penalty phase violated his constitutional right to be present at the
bench conference was procedurally barred because it was not raised on direct appeal); Phillips v.
Sate, 894 So. 2d 28, 35 & n. 6 (Fla. 2004) (concluding that defendant’s claim that his absence

Page 12 of 29

from an unrecorded bench conference violated his constitutional right to be present at trial was
procedurally barred because it was not raised on direct appeal); Vining v. State, 827 So. 2d 201,
217 (Fla. 2002) (determining that “substantive claims relating to Vining’s absence [during
critical stages of trial] are procedurally barred as they should have been raised either at trial or on
direct appeal”). As such, the Court must deny ground three of Defendant’s Motions.
Ground Three Sub-Ground One
In ground three sub-ground one, Defendant alleges that trial counsel, Nick Sinardi, was
ineffective for failing to object to Defendant’s involuntary absence at the hearing on a motion for
new trial. Defendant first alleges that he prepared and represented himself at trial, but elected to
have counsel during the sentencing phase.

Defendant claims that after his sentencing, his

counsel requested the Court keep Defendant at the county jail so that he could argue a motion for
new trial. Defendant alleges he was involuntarily absent at the motion for new trial.
Specifically, Defendant alleges that his counsel informed him in a letter that there was a
ten day time period in which to file a motion for new trial, and that Defendant then wrote a letter
to counsel setting out arguments he thought should be argued at the hearing on the motion for
new trial. Defendant alleges that counsel “made vague and indefinite arguments based on the
information provided by Defendant in his letter.” Defendant claims that counsel failed to present
testimonial and tangible evidence in support of the grounds for new trial. Last, Defendant
alleges that effective counsel would have objected to the involuntary absence of Defendant from
the proceeding.

Defendant claims that counsel’s failure to object resulted in deficient

performance. Defendant further claims that Defendant’s presence would have made the hearing
more reliable and that result of the proceedings would have been different.

Page 13 of 29

On December 20, 2006, Defendant was convicted of Armed False Imprisonment and
Robbery with a Firearm. See Verdict Form, attached. Immediately after the jury returned a
verdict, Defendant was sentenced to 15 years’ Florida State Prison for Armed False
Imprisonment, and life in prison for Robbery with a Firearm, set to run consecutive. At this
point, Defendant was still proceeding pro se. The record reflects that on December 21, 2006,
Defendant was brought back to Court. The trial judge set aside the previously imposed sentence
of December 20, 2006, because he failed to conduct a Faretta inquiry and Nick Sinardi was
appointed counsel for sentencing.6 See December 21, 2006, Case Progress Sheet, attached.
Defendant was resentenced on January 4, 2007. Defendant was sentenced to 15 years’ Florida
State Prison for Armed False Imprisonment, and life in prison without parole for Robbery with a
Firearm, both running concurrent. See Judgment and Sentence, attached. Defendant, by and
12
through his undersigned counsel, filed a Motion for New Trial on January
2007, and a
hearing was held on January 19, 2007. See Motion for New Trial, attached. Defendant was not
present at the hearing.
A portion of the argument presented by counsel at the hearing on the motion for new trial
is as follows:
The Court:

Where is Mr. Godwin?

Mr. Sinardi: Nick Sinardi for the record. I’m assuming he had been
transported.
Ms. Neal7:

Standing in for Ryan Sawdy for the record.

Mr. Sinardi: Correct. I had filed on behalf of Mr. Godwin a standard, if you
will, motion for new trial that alleges all the grounds that are
6 At the evidentiary hearing, Defendant testified as to the same sequence of events. See Evid. Hrg. Transcr,
attached. Further, the transcript of the January 4, 2007, resentencing hearing also confirms the same sequence of
events. See January 4,2007, Resentencing Hrg. Transcr., attached.
Ms. Neal is an assistant state attorney who appeared on behalf of the State at the hearing on the motion for new

Page 14 of 29

admissible for a new trial. I provided that information to Mr.
Godwin. He wrote me back with his additional argument as to
why he should be granted a new trial.
Basically three arguments. Ground one is that the testimony of
three witnesses, Katrina Winkler, Kenya White and Sabrina
Hearns, was clearly false, and compared to their testimony at the
detention hearing in front of, I believe it was Judge Heinrich, in
looking at their deposition, police reports, et cetera, and not only
was their testimony false, but the State Attorney knew it was
false but presented it anyway; that as a result of that, the false
testimony, is obviously in violation of Gilio (sic), Mooney v.
Hoolihan, Kyle v. Kansas. On those grounds, defendant should
be granted a new trial.
The Court:

I’ll deny that one. Deny that one.

Mr. Sinardi: Thank you. Secondly, Mr. Godwin alleges there was a bank
statement and I believe another document that was from Pleasure
Time. One was bearing the name of Katrina Winkler. The other
document bearing the name of Pleasure Time. Mr. Godwin, in
effect, alleges that there was an invalid chain of custody. There
was also some argument about when he was provided notice of
those documents because if the Court will recall, I believe the
State provided initially a digital copy of that inventory receipt,
and then later on, he received an actual copy of that. And Mr.
Godwin is alleging that those documents should not have been
admitted and that there was a deficiency in the chain of custody.
And he cited United States v. Gray, that because of the
introduction of those documents, the jury would not have
convicted him and that he should be granted a new trial because
of the erroneous introduction of those documents. And finally,
he’s alleging, I’m assumingThe Court:

Is that No. 2? Now you’re going to No. 3?

Mr. Sinardi: That is No. 2.
The Court:

Deny No. 2.

Mr. Sinardi: I’m believing that based on his notes, he’s alleging that as a result
of those, a violation of his due process rights.
The Court:

Deny No. 3.

January 19, 2007 Transcr. 3:2-25, 4:1-25, 5:1-10.
Page 15 of 29

Mr. Sinardi: There is an additional -1 apologize.
The Court:

That’s quite all right.

Mr. Sinardi. This is an additional ground I don’t think I enunciated in
reference to - I believe he’s referring again to those items that
were found: The papers with Pleasure Time in Miss Winkler’s
name. He’s alleging that those items were tampered with
improperly.
The Court:

As opposed to proper tampering, denied. 8

January 19, 2007, Transcr. 7:19-25, 8:1.
In his Motion, Defendant alleges that counsel “made vague and indefinite arguments
based on the information provided by Defendant in his letter,” and failed to present testimonial
and tangible evidence in support of the grounds for new trial. Defendant further alleges that his
presence would have made the hearing more reliable. At the evidentiary hearing held on
September 27, 2012, Defendant testified as to ground three sub-ground one:
Ms. Spradley9: And Mr. Sinardi testified about a letter that you had written to
him. Can you explain to the Court what that was?
Defendant:

After I was sentenced, and upon arriving back to the county jail, I
received legal mail and it was from Mr. Sinardi. And he apprised
me that we had ten days to file a motion for new trial. I actually
attached that letter as Exhibit F to my supplemental 3.850
motion. At that time, I responded to his letter, giving him the
grounds, the facts, and what I believed would be a substantial
basis for a motion for new trial.

Ms. Spradley: But you weren’t able to argue it because you weren’t present.
Defendant:

That’s correct.

Ms. Spradley: Would you have argued it had you been present?
Defendant:

Yes, ma’am.

In the omitted portion of the transcript, the trial court denies the standard 13 grounds included in the Motion for
New Trial. See January 19, 2007 Transcr., attached.
Ms. Jennifer Spradley is the public defender who represented Defendant at the evidentiary .hearing held on
Page 16 of 29

Ms. Spradley: Is that what you wanted to happen?
Defendant:

Yes, ma’am.

Evid. Hrg. Transcr. 62:15-25, 63:1-5.
After reviewing the allegations, the court file, the testimony and the record, the Court
finds that Defendant fails to meet the two prong test as set forth in Strickland v. Washington.
When asserting a claim of ineffective assistance of counsel, a defendant must prove that
counsel’s performance was deficient and that the deficient performance prejudiced the defense.
The Court finds that Defendant fails to establish prejudice. In order to establish prejudice,
Defendant must prove that there is a reasonable probability that, but for trial counsel’s
unprofessional errors, the result of the hearing on the motion for a new trial would have been
different. A reasonable probability is a probability sufficient to undermine confidence in the
outcome. Strickland, 466 U.S. at 694.
As previously stated, the proper focus of inquiry is, whether if counsel had objected to
Defendant’s absence at the hearing on the motion for new trial, there is a reasonable probability
that the outcome of the hearing on the motion for new trial would have been different. While
Defendant’s allegation that Nick Sinardi requested the Court keep Defendant available for the
purpose of arguing a motion for new trial at the resentencing hearing is true, the Court finds that
Defendant has failed to establish how counsel’s failure to object to his absence resulted in
prejudice. Defendant failed to present any evidence or testimony at the evidentiary hearing to
demonstrate how the outcome of the hearing on a motion for new trial would have been different
had he been present. Defendant failed to explain what if any decisions and arguments made at
the hearing would have been different if he had been present or how any different decisions or
arguments would have resulted in his motion being granted. See Kormondy v. State, 983 So. 2d
Page 17 of 29

418, 436 (Fla. 2007). Defendant did not testify as to any additional arguments he would have
presented at the hearing nor did he testify as to any deficiencies in Mr. Sinardi’s arguments.
Further, Defendant failed to testify as to any specifics regarding the alleged testimony presented
at trial or tangible evidence, which he alleged Mr. Sinardi failed to present in support of the
arguments.

The Court’s confidence in the outcome of the hearing on the motion for new trial

has not been undermined.
Additionally, to the extent Defendant is displeased with the thoroughness of Mr. Sinardi’s
arguments, Defendant has failed to present any additional testimony or evidence at the
evidentiary hearing to demonstrate that any of the arguments provided to Mr. Sinardi in his letter
were meritorious. There was no testimony of evidence presented at the evidentiary hearing as to
the alleged Giglio violation or the alleged invalid chain of custody. The record reflects that Mr.
Sinardi argued the additional grounds, which were not included in the standard motion for new
trial, based on arguments provided by Defendant.
Further, a review of the January 4, 2007 resentencing transcript reveals that Defendant
requested an oral motion “to have a retrial, new trial”. While presenting his arguments in
support of the oral motion “to have a retrial, new trial”, Defendant presented identical arguments
relying on the same case law as the arguments presented by Mr. Sinardi at the January 19, 2007
hearing. See January 4, 2007 Transcr., attached. After hearing Defendant’s arguments, the Court
stated, “Deny that request. Deny the motion for judgment of acquittal. Deny the new motion for
renewal of judgment of acquittal. Deny the motion for perjury under alleged Giglio. I’m not
going to grant a new trial there. I don’t find there was any peijury.” January 4, 2007 Hrg.
Transcr: 12:8-13.

Page 18 of 29

t

*

After reviewing the allegations, the testimony and evidence presented at the September
27, 2012 evidentiary hearing, the court file, and the record, the Court finds that Defendant has
failed to prove the second prong of Strickland as the Defendant has failed to prove how counsel’s
alleged failure to object at Defendant’s absence at the hearing on the motion for new trial
resulted in prejudice. Defendant failed to present any evidence or testimony at the evidentiary
hearing to demonstrate how the outcome of the hearing on a motion for new trial would have
been different had he been present. As such, no relief is warranted. The Court must deny
Ground Three Sub-ground One of Defendant’s Motion.
Ground Four Sub-Ground One
In ground four sub-ground one, Defendant alleges trial counsel, Nick Sinardi, was
ineffective for failing to object to an allegedly vindictive sentence, “the imposition of a life
sentence after a jury trial, when the trial court urged the Defendant to accept an earlier plea offer
often (10) years”. Defendant alleges that the trial court urged him to accept the State’s offer,
and then imposed a harsher sentence than that offered.
In Wilson v. State, 845 So. 2d 142 (Fla. 2003), the Florida Supreme Court’s landmark
case on judicial vindictiveness, the Court applied a totality of the circumstances standard when
determining whether a vindictive sentence had been imposed.
Judicial participation in plea negotiations followed by a harsher sentence is
one of the circumstances that, along with other actors, should be considered in
determining whether there is a “reasonable likelihood” that the harsher
sentence was imposed in retaliation for the defendant not pleading guilty and
instead exercising his or her right to proceed to trial. See Smith, 490 U.S. at
799, 109 S.Ct. 2201. The other factors that should be considered include but
are not limited to: (1) whether the trial judge initiated the plea discussions with
the defendant in violation of Warner10-, (2) whether the trial judge, through his
10 “In Warner, we considered whether it was permissible for the trial judge to participate in plea negotiations and, if
so,
. . .what restrictions apply...The first restriction we placed on judicial participation is that the trial judge could not
initiate the plea dialogue.” See Warner, 762 So. 2d at 513. However, the judge “may.. .participate in such
discussions upon the request of a party” and “[o]nce involved, the court may actively discuss potential sentences and
Page 19 of 29

or her comments on the record, appears to have departed from his or her role as
an impartial arbiter by either urging the defendant to accept a plea, or by
implying or stating that the sentence imposed would hinge on future procedural
choices, such as exercising the right to trial; (3) the disparity between the plea
offer and the ultimate sentence imposed; and (4) the lack of any facts on the
record that explain the reason for the increased sentence other than that the
defendant exercised his or her right to a trial or hearing.”
Wilson 845 So. 2d at 156.
In the present case, the State offered Defendant a plea deal on the morning of trial before
voir dire had commenced. The colloquy when the plea offer was declined is provided below:
The Court:

Anything further?

Mr. Sawdy:

I don’t think he’ll take anything, but I’ll make an offer for
the record. At least it’s on there before we start trial.
He’s charged now, as I indicated, things are consecutive
life sentences possible. Forgive me. I just came down
with a cold yesterday, but I will offer him the 10-year
minimum mandatory?

The Court:

Period?

Mr. Sawdy:

Period for all counts to run concurrently, no probation to
follow, just 10 years.

The Court:

And I would impose that if you were to accept it today,
just so you’ll know.

Mr. Godwin:

No, sir.

The Court:

You reject that offer? You understand what that means?

Mr. Godwin:

Yes, sir.

The Court:

It means you’re 28. You would receive credit for all time
served. Do you want to talk to Mr. Sinardi for a minute?

Mr. Godwin:

The State cannot offer me credit time served right now.

The Court:

I’ll give it to you.

comment on proposed plea agreements”. Id. at 513-514....Second, we made clear that the judge must “neither state
nor imply alternative sentencing possibilities which hinge upon future procedural choices, such as the exercise of a
defendant’s right to trial.” Wilson 845 So. 2d at 151-152.
Page 20 of 29

Mr. Godwin:

I’m not taking the offer.

The Court:

Do you want to talk to Mr. Sinardi?

Mr. Godwin:

I don’t need to.

The Court:

That’s fine. I’m just offering you the opportunity.

Mr. Godwin:

Thank you. I thank you for offering it.

The Court:

You realize if you’re convicted it probably would not be a
10-year minimum mandatory?

Mr. Godwin:

It’s clear.

The Court:

That’s a possibility. I don’t know if it’s probable, but it’s
a possibility. Anything further?

Mr. Sawdy:

No, Judge.

Trial Transcr. 26:22-25, 27:1-25, 28:1-11.
The record in this case indicates that the trial judge did not initiate the plea discussions,
but simply responded to a plea offer initiated by the prosecutor, Mr. Sawdy. The Court further
finds that the trial judge did not exceed the limits of Warner by stating, “you realize if you’re
convicted it probably would not be a 10-year minimum mandatory.” Rather, the Court finds that
the trial court was simply alerting Defendant that the sentence imposed may be affected by the
evidence and testimony introduced at trial.

The Court did not voice its opinion on the

reasonableness of the plea offer. See Wilson v. State, 845 So. 2d at 145, 157 {quoting Byrd v.
State, 794 So. 2d 671 (Fla. 5th DCA 2001) (concluding that the comment made by the trial
judge, “I think 30 years is a steal. He certainly won’t get that low”, exceeded the limits of
Warner by stating that if Byrd chose to go to trial he “certainly” would not get that low.) Nor
did the trial court urge the Defendant to accept the plea deal. See Wilson v. State, 845 So. 2d at
158 {quoting Wilson, 792 So. 2d at 602) (concluding that the comment made by the trial judge,
Page 21 of 29

i

“the court’s offer was the bottom of the guidelines and in my opinion you should have taken it”,
violated the bounds of Warner.)
While there is a large disparity between the offered ten-year minimum mandatory
sentence and the life sentence imposed, “a disparity between the sentence received and the
earlier offer will not alone support a finding of vindictiveness...having rejected the offer of a
lesser sentence, [the defendant] assumes the risk of receiving a harsher sentence. Were it
otherwise, plea bargaining would be futile.” Wilson, 792 So. 2d at 603 (quoting Mitchell, 521
So. 2d at 190). Further,
“the fact that that a trial judge expresses an inclination to accept a state plea
offer, does not mean that he or she will be bound to impose the same sentence
after hearing the trial, if the evidence raises concerns that were not perceptible
from the usually abbreviated representations made to the court during the plea
bargaining process. Factors such as the nature of the defendant’s prior
convictions, the degree of violence employed by the defendant during the
commission of the crime, the sophistication with which the charged offense
was committed, and/or the physical or psychological suffering endured by the
victim(s), are some factors that might lead the court to increase what it
originally considered to be an acceptable sentence.”
Wilson, 845 So. 2d at 157 (quoting Prado v. State, 816 So. 2d 1155, 1166 Fla. 3d DCA 2002)).
During sentencing, the trial court stated, “After having heard the argument, excuse me, having
heard the testimony of the witnesses, seeing the absolute fear in the face of one witness when she
broke down in tears during cross-examination or direct examination, I understand exactly why
they elected not to call the lady.” January 4, 2007 Transcr. 18:9-15. The trial court further stated,
“You beat that woman about the head and about the face with a firearm. It could have caused
permanent damage to her. It did not.” January 4, 2007 Transcr. 19:3-5. The only time the trial
court mentioned the declined plea offer during sentencing was when it stated, “I’ve heard the
testimony of the witnesses from the witness stand. I had no idea what this case would be about

Page 22 of 29

until I heard the testimony. I understand why the State offered the 10 years. It was rejected by
you.” January 4,2007 Transcr. 18:5-9.
As such, the Court finds that the trial court did not impose a life sentence because
Defendant elected to proceed with trial.

Rather, the court finds the harsher sentence was

imposed because of additional facts which emerged prior to sentencing, specifically, the violence
employed by the defendant during the commission of the crime and the psychological suffering
endured by the victims which was elicited through testimony during trial.
Accordingly, applying the totality of circumstances standard, the Court finds that
Defendant’s sentence is not vindictive. There appeared to be no coercion, no threats, and no
implication of a harsher sentence for exercising any right. Defendant got a legal sentence that
was within the prerogative of the trial court. That the sentence was greater than offered by the
State does not, without more, translate to vindictiveness.
Although Defendant argues that his counsel was deficient in failing to object to a
sentence that he though was harsh, but within the sentencing authority of the trial court, no legal
basis for the objection has been suggested. If there was no legal basis for defense counsel to
object to the sentence, the failure to do so cannot be ineffective. As Defendant has not met his
burden of demonstrating either ineffectiveness in counsel’s representation of Defendant or
prejudice as a result of any alleged deficiency, let alone both as required for relief on a post­
conviction motion, Defendant warrants no relief on this allegation. Therefore, the Court must
deny ground four sub-ground one of Defendant’s Motions.
Ground Five Sub-Ground Two
In ground five sub-ground two, Defendant alleges that trial counsel, Nick Sinardi, was
ineffective for failing to object to the trial court’s consideration of Defendant’s’ refusal to accept

Page 23 of 29

a plea, failure to show remorse, and reliance on materially false or misleading evidence.
Defendant argues that he would have received a lesser sentence had trial counsel objected to the
sentence. Specifically, Defendant alleges that the trial court considered and relied on evidence
which was materially false and/or unreliable in imposing sentence. Defendant alleges that the
trial court’s statements referring to the fear inflicted by Defendant on Ms. Hearns “was shown to
be unreliable in light” of the testimony presented at trial. Defendant further states that Ms.
Hearn’s testimony was unreliable because she could only identify one of the perpetrators.
Additionally, Defendant alleges that that the court’s consideration of Ms. Winkler’s testimony
was also improper as it was materially false.
During sentencing phase proceedings, the defendant, his or her counsel, and the State
have an opportunity to be heard, affording, if appropriate the State and defendant an opportunity
to present additional evidence. Spencer v. State, 615 So. 2d 688, 690-691 (Fla. 1993). The
weight to be given to the evidence is a trial court decision. Hertz v. State, 941 So. 2d 1031, 1038
(Fla. 2006). Further, trial courts have considerable discretion in sentencing within the minimum
and maximum allowed by law, with the exception of imposing a sentence in violation of a
defendant’s constitutional rights. German v. State, 27 So. 3d 130, 132 (Fla. 4th DCA 2010).
After reviewing the allegations, the court file, the testimony presented at the evidentiary
hearing, and the record, the Court finds that Defendant has failed to demonstrate deficient
performance. To the extent Defendant is alleging trial counsel was ineffective for failing to
object to the trial court’s consideration of Defendant’s refusal to accept a plea, the Court finds
Defendant has failed to demonstrate deficient performance. In claim four sub-claim one, the
Court found that Defendant’s sentence was not vindictive as the harsher sentence was not
imposed because Defendant refused to accept a plea offer. Rather, the Court found the harsher

Page 24 of 29

sentence was imposed because of additional facts which emerged prior to sentencing,
specifically, the violence employed by Defendant during the commission of the crime and the
psychological suffering endured by the victims which was elicited through testimony during
trial. The record clearly demonstrates that the trial court did not consider Defendant’s refusal to
accept the plea offer when imposing its sentence. Trial counsel cannot be deemed ineffective for
failing to raise a meritless issue. Thompson v. State, 759 So. 2d 650, 662 (Fla. 2002).
In ground five sub-ground two, Defendant also alleges that counsel was ineffective for
failing to object to the trial court’s consideration of Defendant’s failure to show remorse. The
relevant portion of the sentencing transcript is as follows:
The Court:

After having heard the argument, excuse me, having heard the
testimony of the witnesses, seeing the absolute fear in the face of
one witness when she broke down in tears during crossexamination or direct examination, I understand exactly why they
elected not to call that lady.

I don’t have a doubt in my mind that you committed that robbery,
sir. Not one doubt. I find those witnesses to be credible. My
fear is, sir, if you’re let out amongst the community again, the
- citizens of the State of Florida and citizens of the United States of
America, you would be a - put them at risk. I don’t think you’ve
shown one ounce of remorse not one ounce. I don’t think you
even acknowledge that you committed this crime. To this day,
you don’t acknowledge that. I don’t have a doubt that you
committed it.
You beat that woman about the head and about the face with a
firearm. It could have caused permanent damage to her. It did
not.
It is the judgment, sentence and order of the Court, count of
robbery, life Florida State Prison, the rest of your natural life
without parole.
It is a 10-year minimum mandatory as to the sentence of false
imprisonment with a firearm. 15 years concurrent.
January 4, 2007 Transcr. 18:9-25, 19:1-12.
Page 25 of 29

*'. r*

To the extent Defendant is alleging trial counsel was ineffective for failing to object to
the trial court’s consideration of Defendant’s failure to show remorse, the Court finds Defendant
has failed to demonstrate deficient performance.
“Although remorse and an admission of guilt may be grounds for mitigation of
a sentence or a disposition, the opposite is not true. A trial court abuses its
discretion and infringes on constitutional rights when it imposes a harsher
sentence because a defendant exercises the right to remain silent, protests his
innocence, or fails to show remorse.”
German, 27 So. 3d at 132. The question then is whether the trial court relied on the
defendant’s lack of remorse in determining the sentence.

After a careful review of the

sentencing transcript, the Court finds that there is no suggestion that the trial court used
defendant’s lack of remorse against him. Again, the record demonstrates that the trial court
imposed the statutory maximum because of the violence exhibited by Defendant during the
commission of the crime and the fear and suffering endured by the victims. The trial court
referred to Defendant’s absence of remorse in support of his rejection of defense counsel’s
arguments for mitigation. See German, 27 So. 3d at 133 (“[I]n pronouncing sentence, there is no
suggestion that the trial court used the defendant’s silence, lack of remorse, or failure to admit
guilty against him; quite the contrary. The court’s comments were directed to the heinous nature
of the crime.”); See also Shelton v. State, 59 So. 3d 248 (Fla. 4th DCA 2011) (holding that the
court commented on the defendant’s lack of remorse in recognition that it lacked any grounds to
mitigate his sentence).

As such, the Court finds no error, and trial counsel cannot be deemed

ineffective for failing to raise a meritless issue. Thompson, 759 So. 2d at 662.
To the extent Defendant is alleging trial counsel was ineffective for failing to object to
the trial court’s reliance on materially false or misleading evidence, the Court finds Defendant
has failed to demonstrate deficient performance.

The determination of the credibility of
Page 26 of 29

'O

*' t /
. t

witnesses is within the province of the jury. State v. Scheuschner, 829 So. 2d 943, 944 (Fla." 4th
DCA 2002). The jury found the witness’ testimony credible and returned a guilty verdict as to
Robbery with a Firearm and Armed False Imprisonment. Subsequent to sentencing, the Court
heard arguments regarding perjured testimony resulting in a Giglio violation.

The Court

explicitly rejected Defendant’s contention that the testimony of Ms. Hearns and Ms. Winkler was
false and found that there was no perjured testimony. See January 4, 2007 transcr., attached.
Thus, the trial court did not rely on false or misleading evidence during sentencing as the trial
court had previously ruled that there was no perjured testimony. The trial court accepted the
jury’s verdict and adjudicated Defendant guilty of Robbery with a Firearm and Armed False
Imprisonment. Further, Defendant’s claim that his Fourteenth Amendment Right to Due Process
under Giglio v. United States, 405 U.S. 150 (1972) was violated when the State intentionally
solicited and/or failed to correct false or misleading evidence was summarily denied in this
Court’s June 13, 2012 Order Granting an Evidentiary Hearing in part; Order Denying in part.
See Order Granting an Evidentiary Hearing in part; Order Denying in part, attached. As such,
the Court finds no error, and trial counsel cannot be deemed ineffective for failing to raise a
meritless issue. Thompson, 759 So. 2d at 662. Therefore, the Court must deny ground five
sub-ground two of Defendant’s Motions.
It is therefore ORDERED AND ADJUDGED that Grounds One Sub-Ground One,
Three, Three Sub-Ground One, Four Sub-Ground One, and Five Sub-Ground Two of
Defendant’s Motions are hereby DENIED.
Defendant has thirty (30) days from the date of this Final Order within which to
appeal. However, a timely-filed motion for rehearing shall toll the finality of this Order.

Page 27 of 29

1

DONE AND ORDERED in chambers in Hillsborough County, 0Kifl3^|ftis SiOW^p
CONFORMED COPY

April, 2013.

APR 2 6 20!3
SAMANTHA L. WARD
CIRCUIT JUDGE

SAMANTHA L. WARD, Circuit Judge
Attachments:
Indictment
Verdict Form
Judgment and Sentence
Mandate
Motion for Postconviction Relief (without attachments)
Supplemental Motion for Postconviction Relief (without attachments)
Order Denying Defendant’s Motion for Access to Original Court Documents; Denying
Defendant’s Supplemental Motion for Postconviction Relief in part; Ordering State to
Respond in Part (without attachments)
Order Granting an Evidentiary Hearing in part; Order Denying in part (without
attachments)
September 27, 2012 Case Progress Sheet
September 27, 2012 Evidentiary Hearing Transcript
Defendant’s Argument in support of 3.850
Motion to Suppress
Additional Notice of Discovery
October 20, 2006 Motion to Suppress Hearing Transcript
December 21, 2006 Case Progress Sheet
January 4, 2007 Resentencing Hearing Transcript
Motion for New Trial
January 19, 2007 Motion for New Trial Hearing Transcript
Trial Transcript, Pages 26-28, 314-326

Page 28 of 29

r, w i

*1-

^

HV

y

X

i

i

■

■'VW''

}

t'

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a copy of this Order has been furnished to Jonathan Godwin, DC #
M07545, Mayo Correctional Institution, 8784 US Highway 27 West, Mayo, Florida 32066, by
/

regular U.S. Mail; Jennifer Spradley, Assistant Public Defender, 700 East Twiggs Street, Tampa,
Florida 33602, by inter-office mail; and to Christine Brown, Assistant State Attorney, 419 Pierce
Street, Tampa, Florida 33602, by inter-office mail, on this

day of April, 2013.
COPIES |

Suzanne Flowers,

#

Page 29 of 29

i

